<html>
<title> - EXAMINING THE ROLE OF MUSEUMS AND LIBRARIES IN STRENGTHENING COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     EXAMINING THE ROLE OF MUSEUMS AND LIBRARIES IN STRENGTHENING 
                              COMMUNITIES

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 11, 2008

                               __________

                           Serial No. 110-109

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                     U.S. GOVERNMENT PRINTING OFFICE
44-215 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                Sally Stroup, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     [Vacancy]


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 11, 2008...............................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    51
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois, prepared statement of...................    51
    Davis, Hon. David, a Representative in Congress from the 
      State of Tennessee, prepared statement of..................    57
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     2
        Additional submissions:
            Prepared statement of the American Library 
              Association........................................    69
            Prepared statement of Ford W. Bell, DVM, president, 
              American Association of Museums....................    74
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, prepared 
      statement of...............................................     4

Statement of Witnesses:
    Jolly, Dr. Eric J., president, Science Museum of Minnesota...    30
        Prepared statement of....................................    32
        Additional submissions:
            Answers to questions submitted.......................    58
            ``Engagement, Capacity and Continuity: An Overview of 
              a Trilogy for Student Success''....................    76
            ``Family Learning in Museums: Perspectives on a 
              Decade of Research,'' by Kirsten M. Ellenbogen, 
              K.M., et al........................................    79
            ``Scientific Literacy--It's Not Just for 
              Scientists,'' by Dr. Jolly, St. Pioneer Press, 
              August 17, 2008....................................    86
            Memo: ``Report on Findings of Research,'' dated March 
              7, 2001............................................    87
            ``Learning Outside of Schools,'' by Kirsten 
              Ellenbogen, Ph.D., Science Museum of Minnesota.....    92
    LeBlanc, Suzanne, Long Island Children's Museum..............    13
        Prepared statement of....................................    15
        Additional submissions:
            ``Quick Response Memo, Be Together, Learn Together,'' 
              dated July 28, 2008, Internet address..............    93
            ``Child's Play,'' by Heidi Waleson...................    93
            Letter of support from Louise Skolnik, DSW, director, 
              Health & Human Services, Nassau County, NY.........    97
            ``The Slender Golden Threat, 100 Years Strong,'' by 
              Suzanne LeBlanc....................................    98
            Diagrams of Supervised Visitation Room...............   104
            The Big Chair: Storytelling chair for Supervised 
              Visitation Room....................................   106
            Kick Start: Long Island Children's Museum............   106
            ``Be Together, Learn Together: A Partnership of the 
              Long Island Children's Museum,'' the Nassau County 
              Department of Health and Human Services and Nassau 
              County Family Court................................   107
            ``Suozzi Unveils `No Wrong Door' for Nassau County 
              Residents,'' dated November 29, 2004...............   114
    Nunez, Anna, Arizona Health Science Library librarian, 
      University of Arizona......................................    26
        Prepared statement of....................................    28
        Additional submissions:
            Answers to questions submitted.......................    63
            ``Turning the Page: UA Program Helping Minority 
              Students Put New Faces on Librarians,'' Arizona 
              Daily Wildcat......................................   115
            Knowledge River Impact Study, December 22, 2006......   116
            ``WE Search Progress: Final, Appendix 2,'' by Aaron 
              J. Valdivia, et al.................................   130
            ``UA Pushes for More Minority Librarians,'' Tucson 
              Citizen, January 4, 2007...........................   134
    Radice, Anne-Imelda M., director, Institute of Museum and 
      Library Services...........................................     7
        Prepared statement of....................................     8
        Additional submissions:
            Answers to questions submitted.......................    64
            ``Charting the Landscape, Mapping New Paths: Museums, 
              Libraries, and K-12 Learning,'' August 2004, 
              Internet address...................................   135
            ``InterConnections: The IMLS National Study on the 
              Use of Libraries, Museums and the Internet,'' 
              February 2008, Internet address....................   135
            ``True Needs True Partners,'' 2002 survey highlights, 
              Internet address...................................   135
            ``Nine to Nineteen, Youth in Museums and Libraries: A 
              Practitioner's Guide,'' April 2008, Internet 
              address............................................   136
    Zales, Mary Clare, commissioner for libraries, State of 
      Pennsylvania...............................................    19
        Prepared statement of....................................    21
        Additional submissions:
            Answers to questions submitted.......................    67
            ``New Report: Libraries Improve Technology Access for 
              Communities Nationwide,'' September 2, 2008........   136
            ``School Libraries Work!'' Research Foundation paper, 
              Internet address...................................   147


                         EXAMINING THE ROLE OF
                        MUSEUMS AND LIBRARIES IN
                       STRENGTHENING COMMUNITIES

                              ----------                              


                      Thursday, September 11, 2008

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:29 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Clarke, Kucinich, 
Grijalva, Sarbanes, Platts, and Davis.
    Staff present: Tylease Alli, Hearing Clerk; Adrienne 
Dunbar, Education Policy Advisor; ; David Hartzler, Systems 
Administrator; Fred Jones, Staff Assistant, Education; Jessica 
Kahanek, Press Assistant; Deborah Koolbeck, Policy Advisor, 
Subcommittee on Healthy Families and Communities; Rachel 
Racusen, Communications Director; Margaret Young, Staff 
Assistant, Education; Stephanie Arras, Minority Legislative 
Assistant; Cameron Coursen, Minority Assistant Communications 
Director; Chad Miller, Minority Professional Staff; Susan Ross, 
Minority Director of Education and Human Services Policy; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Sally Stroup, Minority Staff Director.
    Chairwoman McCarthy [presiding]. A quorum is present. The 
hearing of the subcommittee will come to order. Pursuant to 
committee rule 12-A, any member may submit an opening statement 
in writing, which will be made part of the permanent record.
    Before we begin, I would like everyone to take a moment to 
ensure their cellphones and BlackBerrys are on ``silent.''
    I now recognize myself, followed by the congressman, Mr. 
Davis, from Tennessee, for an opening statement. I want to 
begin this hearing by recognizing this important day in 
American history.
    September 11, 2001 changed the life of each citizen, and 
the course of our nation. We have not forgotten, nor will we 
forget, the lives lost on that day. We extend our deep 
gratitude to the first-responders, who sacrificed their health 
and their lives to help the victims that day.
    Our thoughts and prayers go out to the families and friends 
who lost loved ones in New York, Pennsylvania, and at the 
Pentagon. Please join me for a moment of silence in the 
remembrance of our fallen citizens. [Pause.]
    Thank you.
    I would like to welcome everyone to this hearing--as 
another school year gets underway--this hearing is of 
particular importance. Libraries and museums contribute to the 
health and the welfare of the community, year-round.
    This summer, many of us visited a museum while on vacation, 
or spent more time in our local library with our children, 
getting books or participating in programs. This fall, many 
teachers will engage in museum-based professional development, 
and students will attend museum programs and libraries that are 
filled with both teachers and students, busy with schoolwork 
and research.
    I wanted to hold this hearing now because it is a good time 
for members of Congress to examine the role that both libraries 
and museums play in strengthening our communities. Libraries 
not only provide a vast amount of knowledge, ready, available 
to the community, for free, but they also serve as locations 
for groups to meet and for people to connect to the Internet.
    Community members can also attend workshops and programs 
addressing everything from cake decorating to workforce 
development and professional education. Libraries are safe 
places for our children to go after school and on the weekends, 
and serve as a place where generations can gather and learn 
form each other.
    Museums serve the community in similar ways. Museums are 
diverse in their subject and form, and contribute to 
communities by collecting, interpreting, and preserving items 
and ideas important to this country and to the world. Museums 
engage visitors and they ignite the imagination of the young 
and the old alike.
    Part of the challenge of a museum is to store and preserve 
its collection for future generations to explore firsthand the 
world of today, and of our past. As with all institutions, 
libraries and museums evolve over time; for example, what was 
once card catalogs are now computer databases, searchable from 
home, on the Internet.
    The needs of our communities are also changing. And, thus, 
the role of libraries and museums must change to serve and 
strengthen the community in which it resides. In fact, many 
libraries and museums have seen communities expand through the 
use of the Internet. Thus, libraries and museum need to be 
innovative in the ways of serving the community in which a 
library or a museum resides as a fellow citizen and community 
member.
    Today, we will learn of innovation, creative activities 
undertaken by libraries and museums to serve communities, as 
well as to participate in addressing community needs and 
challenges.
    I now would like to recognize Mr. Davis, for his opening 
statement.

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I want to begin this hearing by recognizing this important day in 
American history. September 11, 2001, changed the life of each citizen 
and the course of our nation. We have not forgotten nor will we forget 
the lives lost on that day. We extend our deep gratitude to the first 
responders who sacrificed their health and their lives to help the 
victims that day. Our thoughts and prayers go out to the families and 
friends who lost loved ones in New York, Pennsylvania, and at the 
Pentagon. Please join me for a moment of silence in remembrance of our 
fallen citizens.
    Thank you.
    I'd like to welcome everyone to this hearing. As another school 
year gets underway and, this hearing is of particular importance. 
Libraries and museums contribute to the health and welfare of a 
community year round.
    This summer, many of us visited a museum while on vacation or spent 
more time in our local library with our children getting books or 
participating in programs, This fall, many teachers will engage in 
museum-based professional development and students will attend museum 
programs and libraries that are filled with both teachers and students 
busy with school work and research.
    I wanted to hold this hearing now because it is a good time for 
Members of Congress to examine the role that both libraries and museums 
play in strengthening our communities.
    Libraries not only provide vast amount of knowledge readily 
available to the community for free, but they also serve as locations 
for groups to meet and for people to connect to the internet. Community 
members can also attend workshops and programs addressing everything 
from cake decorating to workforce development and professional 
education.
    Libraries are safe places for kids to go after school and on the 
weekends, and serve as a place where generations can gather and learn 
from each other.
    Museums serve the community in similar ways. Museums are diverse in 
subject and form, and contribute to communities by collecting, 
interpreting, and preserving items and ideas important to this country 
and the world. Museums engage visitors and ignite the imagination of 
young and old alike. Part of the charge of a museum is to store and 
preserve its collection for future generations to explore first-hand 
the world of today, and of our past. As with all institutions, 
libraries and museums evolve over time.
    For example, what were once card catalogues are now computer 
databases searchable from home on the Internet. The needs of our 
communities are also changing, and thus the role of libraries and 
museums must change to serve and strengthen the community in which it 
resides. In fact, many libraries and museums have seen communities 
expand through the use of the internet. Thus, libraries and museum need 
to be innovative in the ways of serving the community in which a 
library or a museum resides as a fellow citizen and community member.
    Today we will learn of innovative, creative activities undertaken 
by libraries and museums to serve communities as well as to participate 
in addressing community needs and challenges.
                                 ______
                                 
    Mr. Davis. Thank you, Madam Chairwoman.
    Good morning.
    And let me extend a warm welcome to our distinguished panel 
of witnesses. Welcome.
    Before we begin, I would like to take a moment to reflect 
on the somber anniversary being marked today. Seven years ago, 
our nation was forever changed by the murderous acts of a band 
of terrorists, determined to undermine our very way of life.
    I am proud of how our nation responded, with selfless acts 
of patriotism and courage, and a determination to maintain our 
freedom, and to defeat those who attack our citizens and our 
values.
    As we take this opportunity today to look at institutions 
that strengthen our communities, we must all remember that 
those strong communities have stood in the face of terrorism, 
and maintained the power of the American spirit.
    We are here early this morning to discuss the tremendous 
roles that museums and libraries play in strengthening our 
nation's local communities. I particularly look forward to 
hearing from the Institute of Museums and Library Services, who 
will discuss their support of IMLS programs, and how they 
assist various museums and libraries with achieving their 
missions and goals.
    Our nation's museums and libraries have, historically, 
played a vital role in helping society experience, explore, 
discover, and make sense of an ever-changing world. Today, 
their role is more essential than ever.
    Through building technology infrastructure and 
strengthening community relationships, museums and libraries 
can offer the public unprecedented access and expertise in 
transforming information overload into knowledge.
    In many communities across America, the local library is 
the only place people of all ages and backgrounds can find and 
freely use the diverse set of resources, with the expert 
guidance of librarians. And far too often, the hometown library 
serves as the only public access to the Internet.
    Not to be left out, the treasures of our nation's museums 
enable people to explore collections for inspiration, learning 
and enjoyment. They are institutions that collect, safeguard 
and make accessible artifacts and specimens, which they hold in 
trust for our society.
    As you know, Madam Chairwoman, I am sitting in today for 
Mr. Platts. I would like to ask unanimous consent to submit his 
opening statement for the record.
    Chairwoman McCarthy. Granted.
    [The statement of Mr. Platts follows:]

  Prepared Statement of Hon. Todd Russell Platts, a Representative in 
                Congress From the State of Pennsylvania

    Good morning. Welcome to our hearing on ``Strengthening Community 
Museums and Libraries.''
    Almost five years ago, Congress reauthorized the Museum and Library 
Services Act. This legislation provides federal support for museums and 
libraries across the country. I believe this law made positive 
improvements to federal programs for libraries and museums by ensuring 
coordination between library and museum programs, as well as 
consolidating smaller programs to increase government efficiency.
    I am pleased that we are holding this hearing today to learn more 
about how the legislation has impacted the Institute of Museums and 
Libraries. Both libraries and museums provide substantial benefits to 
the communities in which they reside. Libraries are especially valuable 
in rural communities in which individuals have less access to research 
resources. In addition, libraries provide disabled individuals with 
specialized materials and resources that they may not be able to access 
elsewhere. Museums ensure that citizens stay connected to their 
communities by providing opportunities for families to engage in 
history. I am honored to represent Gettysburg National Military Park, 
which just opened a new museum featuring artifacts and stories from the 
Civil War.
    I look forward to hearing testimony regarding the innovative ways 
by which community libraries and museums have provided resources to 
families across the nation. I also look forward to hearing from Ms. 
Mary Clare Zales regarding the many library programs across my home 
state of Pennsylvania.
    Finally, I would like to thank our distinguished panel for joining 
us today and providing us with their insight and first hand experiences 
with library and museum programs. With that, I yield back to Chairwoman 
McCarthy.
                                 ______
                                 
    Mr. Davis. Once again, I would like to thank the witnesses 
for being here to discuss this important topic. I look forward 
to your testimony.
    Thank you, Madam Chairwoman McCarthy. And I yield back.
    Chairwoman McCarthy. Thank you, Mr. Davis.
    Without objection, all members will have 14 days to submit 
additional materials or questions for the hearing record.
    I would like to introduce our witnesses. Today, we will 
hear from a panel of witnesses.
    Your testimonies will proceed in the order that I introduce 
you.
    I would like to introduce our first witness, Dr. Radice--
great.
    Let me explain something. I just got hearing aids on 
Monday, so I have got a terrible feedback going into my ears. 
So I am having problems adjusting to the mic, and to my ears.
    She has been the director of the Institute of Museum and 
Library Services, better known as IMLS, since 2005. She comes 
to IMLS as a distinguished art and architectural historian, 
museum professional and administrator. Immediately prior to 
directing IMLS, she served as acting assistant chairman for 
programs of the National Endowment for the Humanities.
    Among her many other positions, she has served as the first 
director of the National Museum of Women in the Arts, the only 
museum in the world exclusively dedicated to displaying works 
by women of all periods and nationalities. Today, she will give 
us an overview of the mission and the programs of IMLS, sharing 
with us how IMLS connects people to information and ideas.
    I am proud to introduce our next witness, a constituent of 
mine, from Long Island, Ms. LeBlanc. She is the director of the 
Long Island Children's Museum, located in Nassau County. Before 
coming to Nassau County, she served as executive director of 
the Discovery Children's Museum in Las Vegas.
    Throughout her career she has been a strong advocate for 
the importance of the arts in the lives of children and 
families. She is among the 50 most influential businesswomen on 
Long Island. Today, she will tell us about IMLS, a funded 
program, where the Long Island Children's Museum has been 
working with the Nassau County Department of Social Services 
and Family Court.
    Welcome.
    Our next witness is Ms. Mary Clare Zales. She was appointed 
by the governor of Pennsylvania in 2004 to serve as the deputy 
secretary for libraries at the Pennsylvania Department of 
Education. In this position, she provides leadership and a 
vision to school, public and the academic libraries, in meeting 
the information, education and enrichment needs of all 
Pennsylvanians.
    As deputy, she oversees the state library of Pennsylvania, 
one of four major research libraries of the state. The state 
library has recently completed a refocus of its mission, 
placing an emphasis on its historical collections, and becoming 
the designated library for Pennsylvania-related materials and 
resources. Today, she will discuss the activities of libraries 
to strengthen both rural and urban communities across 
Pennsylvania.
    Next, I will yield to my colleague, Congressman Grijalva, 
to introduce the next witness.
    Mr. Grijalva. Thank you so much, Madam Chair, and let me, 
at the outset, extend my apologies to the witnesses, and to 
yourself, Madam Chair, for having to leave this meeting. I am 
chairing a subcommittee meeting that won't be as enlightening 
and as informative as this one. But I need to be there.
    Let me just say that it is an honor for me to introduce our 
next witness, who is a dear friend of mine and my family's, and 
a strong community advocate on behalf of neighborhoods, 
fighting the issue of health disparities, and making education 
and library services accessible to all.
    Annabelle Nunez is from my hometown of Tucson, and my 
neighborhood. I have to be particularly gracious. She is also 
the president of our neighborhood association.
    She is a graduate of the University of Arizona and the 
School of Information Resources and Library Science, Knowledge 
River program--a graduate of that first cohort of students that 
went through that program. Well, she was a student in the 
program, and she was actively involved in the recruitment and 
retention activities for Knowledge River students, served as a 
peer advisor to other Knowledge River students.
    She continues to work with that--mentoring Knowledge River 
interns. She is a co-advisor and program manager to Knowledge 
River Student Mentors, who work with Native American and Latino 
youths in a teen-community health-information institute to 
explore health-sciences librarianship, and provide community 
health services.
    I think Annabelle's experiences--work--is a shining example 
of the benefits of investing in our libraries, and working on 
programs that expand diversity and increase the professional 
capacity of our libraries. Our community advocacy has increased 
in different avenues because of her work in Knowledge River.
    She currently works at the University of Arizona, Arizona 
Health Sciences Library, where she works to reduce cultural and 
financial barriers to a good health and preventive care among 
Latinos.
    I am very proud of her work in our community. I am very 
proud of the work that the University of Arizona is doing with 
Knowledge River.
    And thank you, Madam Chair, for this opportunity to 
introduce a constituent, and a friend, to this hearing. And 
please accept my apology for having to leave the meeting early. 
Thank you very much.
    Chairwoman McCarthy. You are quite welcome. Thank you.
    Our next witness, Dr. Eric Jolly, comes to us from the 
Science Museum of Minnesota, where he serves as the first 
Native American president of that institution. He is also known 
nationally and internationally for his contributions to 
mathematics and science education, and is a published author in 
these areas.
    Dr. Jolly also serves on numerous advisory boards, 
including those for the National Academy of Sciences, the 
American Association for the Advancement of Science and the 
National Task Force on Technology and Disability.
    Today, he will share with us the work of the Science Museum 
of Minnesota to strengthen not only the local community, but 
the state of Minnesota and the nation.
    I want to thank you all for being here. Please do not take 
as an insult that we don't have a lot of members here. As many 
of you know, there is a memorial service going on at the 
Pentagon, and most of our colleagues are there.
    For those of you who have not testified before the 
subcommittee, let me please explain our lighting system. In 
front of you, there is a lighting system that will be green, 
yellow and red. Members and panelists will have 5 minutes. That 
will be either questionings or explaining the answers.
    When you see the yellow light, please start to look to 
winding down your testimony. We will probably be a little more 
flexible; I am, on this committee. We will give you an extra 
minute or so. But we do want to hear from your testimony.
    I already did that.
    Please be certain, as you testify, to turn on the mics so 
that everybody in the audience can hear you.
    We now will hear from our first witness.

  STATEMENT OF ANNE-IMELDA M. RADICE, DIRECTOR, INSTITUTE OF 
               MUSEUM AND LIBRARY SERVICES (IMLS)

    Ms. Radice. Madam Chairwoman and members of the 
subcommittee, American libraries and museums are institutions 
trusted by our local, national and international communities. 
They are depositories of great treasures, knowledge and centers 
of learning that engage communities and give stability to our 
culture.
    Today, we pause, and we reflect about horrible events 7 
years ago. However, museums and libraries were some of the 
first institutions that began a process to heal, contextualize 
and provide forums for dialogue to help us reunite with the 
world.
    Whether through the simple and beautiful connections made 
between the Louisiana Children's Museum and that of New York, 
or providing places to just be together, these community 
institutions engage. They continue, now, to use knowledge and 
community interaction to battle prejudice and ignorance.
    I am proud to serve as the director of the Institute of 
Museum and Library Services, the primary source of federal 
leadership and funding for almost 18,000 museums, which range 
from zoos and aquaria to those that serve art, history and 
science, and of the over 122,000 libraries.
    Through grants, convenings, research and real partnerships 
with other private organizations and federal agencies, such as 
the Arts Endowment for the Big Read, or the Humanities 
Endowment for Picturing America, just to name two of the over 
20 real partnerships we have; through innovative initiatives, a 
lively Web site, activities of an engaged board, our national 
medal recognition of the best of the best, we have been, and we 
are strategic in how we expend taxpayer dollars; we expand 
capacity.
    Our administrative operations emphasize accountability and 
transparency. We expect that of our grantees, and we have to 
set the example. And during my tenure, I am very proud to say 
we have clean audits. We have received clean audits.
    We encourage learning and innovation. An excellent example 
is a grant we announced this week to Southern New Hampshire 
University to establish a digital repository that will provide 
open worldwide access to the University's research.
    The first collection to be digitized will be about building 
better practices and policies that serve low-income and 
marginalized communities around the globe. Further, it will 
provide a replicable model for other institutions, which expand 
the positives of this project exponentially.
    We prepare library and museum professionals for the future. 
A good example is a grant we just announced for SUNY's 
Cooperstown Graduate Program. An institute will be created to 
train the next generation of museum professionals to be 
cultural entrepreneurs.
    Coursework will be designed to spark innovation and 
creativity in the planning and execution of all aspects of 
museum work, and to refine leadership abilities.
    Our agency, through strategic leadership, is fostering 
innovators and innovations to help change the way libraries and 
museums meet the new challenges in the world. We seek big 
ideas, and we help those who take leadership roles in their 
communities and in their professions.
    IMLS helps to sustain cultural heritage. When I took 
office, I acted swiftly to address the significant and alarming 
trends in the lack of preservation of America's collections. We 
began a seminal initiative called ``Connecting to Collections: 
A Call to Action.''
    Well, we called, and American institutions have acted. We 
were on the ground following the Iowa floods, with help, within 
1 day, with partners such as Heritage Preservation and the 
American Institute for Conservation. And we continue to be 
there for the Gulf States.
    One part of this program is a conservation bookshelf; a set 
of essential collections, care books and other resources that 
we have, so far, distributed to over 2,000 institutions 
nationwide. And I know that they have helped even proactively 
prepare for the most recent, and continuing, weather changes 
and challenges.
    And that is what we hear in our ``Thank You'' letters. One 
letter came recently from Jacksonville, Florida, from the 
Mandarin Museum and Historical Society. They said to us, ``We 
were able to ascertain quickly what we needed to do to prepare 
for Tropical Storm Fay.
    ``There was substantial flooding, as well as a major tree 
fall, debris and a couple of displaced alligators. But we came 
through this with our structures and collections intact.''
    Madam Chairwoman, our goals are ambitious, but 
appropriately so. And I look forward to answering your 
questions.
    [The statement of Ms. Radice follows:]

  Prepared Statement of Anne-Imelda M. Radice, Director, Institute of 
                      Museum and Library Services

    Madame Chairwoman and Members of the Subcommittee: Thank you for 
the opportunity to appear before this subcommittee today to report on 
the Institute of Museum and Library Services and the ways in which it 
helps museums and libraries strengthen communities.
    My name is Anne-Imelda Radice and it has been my privilege to serve 
as the Director of IMLS since May of 2006. Previous federal positions I 
have held include Acting Assistant Chairman for Programs at the 
National Endowment for the Humanities, Chief of Staff to the Secretary 
of the United States Department of Education, Acting Chairman and 
Senior Deputy Chairman of the National Endowment for the Arts, Chief of 
the Creative Arts Division of the United States Information Agency, 
Curator and Architectural Historian for the Architect of the Capitol, 
and Assistant Curator at the National Gallery of Art. I was also the 
first Director of the National Museum of Women in the Arts from 1983 
until 1989.
The Mission and Goals of the Institute of Museum and Library Services
    The Institute of Museum and Library Services is the primary source 
of federal support for the nation's 122,000 libraries and 17,500 
museums. The impact of our funding reaches into nearly every community 
in America.
    We involve hundreds of library and museum experts from communities 
across the nation in our stellar peer review process for our 
competitive awards. And we work in close partnership with every state 
and the territories to support library services through a population-
based grant to every state. We provide federal leadership that helps 
institutions connect with the expertise they need to make a difference 
in their communities.
    Each year we make hundreds of grants that go beyond supporting 
individual projects. We are strategic. By encouraging great projects, 
innovative ideas, and solid research we are changing the way library 
and museum services are delivered in the United States.
    Our mission is to support these essential institutions in their 
efforts to connect people to information and ideas, the fundamental 
purpose of all museums and libraries. In carrying out that mission we 
have four major goals.
    Goal One: Attaining Excellence in Federal Management, Operations, 
and Service
    This first goal is the one that undergirds all the others. The 
Institute is focusing on its administrative capacity in order to 
fulfill its statutory grant making, research, evaluation, and policy 
activities. We continue to implement the consolidation of federal 
responsibilities for library statistics activities and provide advice 
on library and information policy. My management team and I are 
committed to meeting growing expectations to demonstrate 
accountability. Strategic planning and evaluation, as well as 
implementation of the President's Management Agenda (PMA), are a 
priority at the Institute and will enable the Institute to continue 
achieving high-quality management and performance. I am proud to report 
that IMLS has received only clean audits since my tenure as Director.
Goal Two: Sustaining Heritage, Culture, and Knowledge
    The Institute's second goal is to help sustain heritage, culture, 
and knowledge. The collections in libraries and museums connect people 
to the full spectrum of human experience: culture, science, history, 
and art. By preserving and conserving books, artwork, scientific 
specimens, and other cultural artifacts, libraries and museums provide 
a tangible link with humankind's history.
    Late in 2005, Heritage Preservation, the national not-for-profit 
organization dedicated to saving the objects that embody our history, 
issued the Heritage Health Index, a study funded by IMLS. The findings 
of the Heritage Health Index were sobering:
    <bullet> 190 million objects in the United States are in need of 
conservation treatment.
    <bullet> 65 percent of collecting institutions have experienced 
damage to collections due to improper storage.
    <bullet> 80 percent of collecting institutions do not have an 
emergency plan that includes collections, with staff trained to carry 
it out.
    <bullet> 40 percent of institutions have no funds allocated in 
their annual budgets for preservation or conservation.
    IMLS, which has always supported conservation and preservation 
activities through conferences, publications, and millions of dollars 
in grants each year, responded with the Connecting to Collections 
initiative, or C2C. The purpose of this initiative is to raise public 
awareness of the importance of caring for our treasures, and to 
underscore the fact that these collections are essential to the 
American story. Moreover, through C2C we are providing direct 
assistance to the collections care efforts of museums and libraries in 
ways we never had before. The initiative has included a national summit 
on conservation with representatives of libraries and museums from 
every state, forums in different parts of the country on different 
aspects of collections care, statewide planning grants to promote 
collaborative efforts, and grants of an essential collection of books 
and other resources on conservation. This Connecting to Collections 
Bookshelf has been particularly well received. I have received hundreds 
of heartwarming expressions of thanks.
    I will excerpt briefly just a few:
    The Pittsburgh Zoo and PPG Aquarium wrote, ``We * * * appreciate 
the resources that help us prepare for emergencies. Our collection 
contains representatives of 22 threatened or endangered species, and 
the loss of those animals--some of whom are among the most genetically 
valuable in American zoos--would be of incalculable harm to the cause 
of conservation.''
    Expressing a sentiment echoed by many of the Bookshelf recipients, 
the curator of the Goldsmith Museum in Baltimore wrote, ``Since we are 
a small museum with a limited budget, this library of resources is one 
that we could only have dreamed of owning.''
    It was particularly gratifying for me to read the following from 
the Mandarin Museum & Historical Society in Jacksonville:
    ``We received our Bookshelf a couple of days before [Tropical 
Storm] Fay hit near Jacksonville, Florida. Although we have a disaster 
plan in place, it is fairly limited * * * Through the Bookshelf, we 
were able to ascertain quickly what we still needed to do to prepare 
our museum for the storm. After the storm, our historical park received 
substantial flooding, as well as a major tree fall, a sizeable amount 
of debris, and a couple of displaced alligators. With the guidance of 
the bookshelf, I am happy to say that we came through the storm with 
our structures and collections intact.''
    The collections we are working to protect are the tangible link to 
every aspect of our culture. They are as significant to the American 
identity and character as any natural resource. That is why we have 
made this work such a high priority.
    Many IMLS grant programs can support some component of collections 
care. Conservation Project Support (CPS) is the one that is entirely 
focused on this area. CPS grants may be used to fund surveys of 
collections, improvements to environmental conditions, and the 
treatment of all types of collections, both living and non-living. To 
be eligible for a grant, the project must be addressing the 
institution's top conservation priority. Members of the subcommittee 
might be aware of some of these IMLS grants that have been awarded in 
recent years.

Goal Two Examples
    <bullet> The Tucson Museum of Art and History received $66,000 to 
properly rehouse the museum's collections, which include Mexican folk 
art and a collection of masks, pre-Columbian textiles, framed works on 
paper, regional sculpture, and a 50-piece furniture collection.
    <bullet> The Baltimore and Ohio Railroad Museum was awarded $27,000 
to conduct a detailed condition survey of the museum's vast historic 
paper-based and audiovisual collections, which include motion picture 
film, videos, sound recordings, photographic prints, slides, 
transparencies, and glass plate/film negatives related to early 
American railroading.
    <bullet> The National Aquarium in Baltimore will use a $150,000 
grant to upgrade the Life Support System of its Atlantic Coral Reef 
exhibit.
    <bullet> With a $9,000 CPS grant, the Currier Museum of Art in New 
Hampshire treated the Weare Press Cupboard, the most important piece of 
New England furniture in the museum's collection.
    <bullet> The Brooklyn Museum received $80,000 this year to complete 
Phase I of an Art Storage Master Plan, consolidating existing storage 
areas, eliminating storage shortages, creating a textile center and 
viewing area, and transporting the collection of textiles and Asian 
screens into these newly reorganized units.
    <bullet> In response to a 2005 tribal resolution, the Big Pine 
Paiute Tribe of the Owens Valley will establish a museum/cultural 
center on its reservation in southeastern California. In anticipation 
of this event, an outside consultant will provide training in 
collections management techniques and will help draft a collections 
management policy. The tribe currently has several ethnographic pieces, 
mainly in the form of baskets, as well as 14,442 archaeological 
artifacts from excavations on its property that will form the core of 
the material for the museum/cultural center. In addition, a case in the 
office if the Tribal Historic Preservation Officer will host an exhibit 
of material from the Papoose Flat Archaeological District that is on 
loan from Inyo National Forest. This exhibition will be designed to 
creatively depict the cultural heritage of the Big Pine Paiute Tribe.
Goal Three: Enhancing Learning and Innovation
    The third goal of IMLS is to enhance learning and innovation. 
Success in today's society requires information literacy, a spirit of 
self-reliance, and a strong ability to collaborate, communicate 
effectively, and solve problems. Combining strengths in traditional 
learning with robust investment in modern communication 
infrastructures, libraries and museums are well equipped to build the 
skills Americans need in the 21st century. Libraries and museums bring 
tremendous learning assets to communities engaged in a wide range of 
concerns, from workforce issues and parenting to cross-cultural 
understanding and student achievement. As partners in the exercise of 
civic responsibility, libraries and museums are part of larger efforts 
to weave a stronger community fabric.
    Much of the work we do at the Institute serves this important goal. 
Through grants, convenings, and research, we are constantly striving to 
push the fields of museum and library services in ways that enhance the 
learning opportunities of all Americans.

Goal Three Examples
    <bullet> Dr. Patricia Montiel Overall at the University of Arizona, 
in partnership with Sunnyside Unified School District and Tucson 
Unified School District, is examining the effect of teacher/librarian 
collaboration on science information literacy of Latino students. Using 
qualitative and quantitative methodologies over three years, this study 
will look at teacher/librarian collaboration in the preparation of 
science instructional modules for third, fourth, and fifth graders in 
predominantly Latino elementary schools. This research will examine 
questions about the relationship of teacher/librarian collaboration to 
Latino students' performance on standardized tests of science 
proficiency and information literacy.
    <bullet> The Museo de Arte de Puerto Rico partnered with Operacion 
Exito (OE) to create an Art-Science-Technology Project that to bring to 
the museum top high school students from low-income areas, providing 
previously unavailable education opportunities. The project was to 
develop an enhanced computer lab at the museum through OE, an 
innovative education initiative in science and math supported by the 
Puerto Rico Department of Education. Through the enhanced curriculum, 
students from the Central Visual Arts School will use new learning 
tools that integrate art and science using new technologies. A key 
component is the integration of multiple resources at the museum, 
including use of museum collections, space to engage with other 
students, and interaction with artists. There will also be teacher 
workshops to further integrate the museum resources into the 
curriculum.
    <bullet> The York County (Pennsylvania) Heritage Trust (YCHT) will 
develop communications and activities with local educators to 
facilitate creative methods of teaching history to children in grades 
four through six. The museum will hire an experienced educator with a 
working knowledge of Pennsylvania Commonwealth curriculum standards for 
two years to compile a contact list of educators and education 
advocates, establish and build a network with schools and educators for 
future cooperation in lifelong learning activities, increase YCHT 
visibility in the schools through an electronic newsletter, conduct 
workshops in which teachers and administrators develop new programming, 
create and implement a list of traditional and electronic outreach 
products that schools can use, and publish and distribute an education 
service guide.
    <bullet> The Frazier Arms Museum in Louisville will use 
videoconferencing capability to expand its education resources and 
provide the local community access to museum activities they would not 
normally encounter. A collaboration with the British Royal Armouries, 
this project will serve as a model, demonstrating how, using 
partnerships and the adaptation of some common technologies, museums 
can play a vital role in engaging local teachers and students in new 
learning opportunities.
    <bullet> The Jonesborough--Washington County (Tennessee) History 
Museum is a major source of heritage education for this region of 
southern Appalachia. The objectives of the project are (1) to construct 
a Storytelling Porch in the museum gallery to provide an engaging and 
interactive experience for visitors and to achieve greater flexibility 
for special exhibits, and (2) to tell the story of Jonesborough through 
interpretive panels, using the National Register Historic District as 
an outdoor exhibition space and tying specific panels to stories 
visitors can listen to on the Storytelling Porch. Through this project, 
the museum aims to make its exhibits more engaging and to make use of 
the historic downtown as a unique resource for outdoor interpretation.

Goal Four: Building Professional Capacity
    The fourth goal is building professional capacity in the museum and 
library fields. The need for lifelong learning applies to the staff of 
museums and libraries as well as their users. The Institute places a 
priority on building leadership capacity to address societal changes by 
supporting the development of a highly skilled workforce in libraries 
and museums. The Institute helps to spur innovation, support diversity, 
and build traditional library and museum service expertise.
    Several of the Institute's grant programs address this goal. We 
have two programs in particular that focus on it exclusively. The Laura 
Bush 21st Century Librarian program and the 21st Century Museum 
Professionals program fund projects that anticipate the needs of the 
next generation of library and museum professionals. These projects 
recruit and educate new professionals and enhance the training 
opportunities of those already in the field.

Goal Four Examples
    <bullet> The University of Arizona School of Information Resources 
and Library Science recruited 48 Native American and Hispanic students 
to a master's program in library and information science as part of its 
Knowledge River initiative. The initiative also involves 12 second-year 
scholars for the Knowledge River program and 24 Native American and 
Hispanic high school students in a Teen Community Health Information 
Institute to explore health sciences librarianship and provide 
community health services. The Knowledge River program helps students 
develop valuable skills such as leadership, professional contribution, 
and community service as well as improve their job preparation and job-
seeking skills by providing workshops, community learning experiences, 
and opportunities to interact with library leaders.
    <bullet> The Weeksville Heritage Center in Brooklyn has 
strengthened its institutional capacity by professionalizing its 
collections practices. As the only museum interpreting African American 
history in the 19th and 20th century in the Northeast, Weeksville 
Heritage Center needed to preserve its collections, while identifying 
ways to use them more effectively in exhibits and programs. IMLS 
funding supported the creation of a part-time position of Collections 
Manager, responsible for evaluating the 450 artifacts in the center's 
collections, developing and implementing a collections management 
policy, overseeing the initiation of an environmental monitoring 
system, and collaborating with program staff to utilize collections 
more effectively in public programming.
    <bullet> The Cleveland Zoological Society will begin a conservation 
medicine program to enhance institutional capacity for research, 
training, and staff development. The program will allow the zoo to 
better understand the causes of health problems in captive animals 
through scientific research for improving animal management, health, 
and welfare. The proposed expansion of the project will support the 
zoo's veterinary epidemiologist (one who studies factors affecting the 
health and illness of populations) and add a master's degree student 
position and a three-year residency program in conservation medicine. 
By providing information to be shared with both public and professional 
members of the local, national, and international community, the zoo 
hopes to establish programs and initiatives to enhance conservation 
efforts and create a direct link to conservation programs in the field.
    <bullet> The Beaver Area Memorial Library (Pennsylvania) used IMLS 
funds to subsidize the tuition cost of a student who will receive a 
master's in library science degree and work at the library.

Policy, Research, and Statistics
    The 2003 reauthorization of the Museum and Library Services Act 
directed the Institute to conduct and publish analyses of the impact of 
museum and library services. IMLS responsibilities in this area were 
expanded with the passage of the FY 2008 Consolidated Appropriations 
Act.
    In fiscal year 2008, the transfer of responsibility for national 
collection of data about public and state libraries from the National 
Center for Education Statistics to IMLS was completed. These data are 
essential to inform good management practices in libraries as well as 
to inform policy. The collection and use of these data is a core factor 
in the delivery of high-quality library services in the United States. 
The data provide ongoing basic information about libraries and library 
service. Over the years, these data have been collected consistently 
and with an astounding 100 percent rate of public and state library 
participation. IMLS is continuing this record of participation and 
striving to ensure that the data collected are accurate and delivered 
to the public as quickly as possible so that they can be of maximum 
use. We are also hopeful of having funds appropriated to begin ongoing 
national data collection about museums.
    Also in FY 2008, the role of advising the President and Congress 
about libraries and information policy was transferred from the 
National Commission on Libraries and Information Science to IMLS. This 
responsibility fits well with the mission of the agency; the Institute 
has been a source of support for examination of library and information 
policy issues both nationally and internationally for more than 10 
years. In the years to come, the Institute will continue to support 
research and convene experts to help inform public debate in a range of 
policy issues, such as the new role of libraries and museums in the 
Internet age, the ways that communications policy affects public access 
to information, and the role of libraries and museums in supporting 
learning throughout the lifetime.

National Medals for Museum and Library Service
    All of the library and museum activities IMLS supports have the end 
user of those institutions in mind. All of the technology and education 
in the world means nothing unless it is put to use in the service of 
the communities museums and libraries serve. To emphasize this 
fundamental principle, the Institute established the National Medal for 
Museum and Library Service.
    The National Medal honors outstanding institutions that make 
significant and exceptional contributions to their communities. 
Selected institutions demonstrate extraordinary and innovative 
approaches to public service, exceeding the expected levels of 
community outreach and core programs generally associated with its 
services.

Youth Initiative
    The Institute's Engaging America's Youth initiative shines a 
spotlight on the role libraries and museums play in bringing about 
positive change in the lives of young people. The initiative included a 
study on youth programs in museums and libraries, the results of which 
showed that these institutions are unique in their ability to influence 
and educate youth. IMLS published a report on the study in December 
2007. In May 2008 we published Nine to Nineteen: Youth in Museums and 
Libraries; A Practitioner's Guide, which features several examples of 
successful youth programming from around the country, as well as useful 
information for planning exemplary youth programs. I submit these two 
publications for the record.

21st Century Skills
    IMLS is undertaking a landmark project to create tools that will 
enable museums and libraries to become effective 21st century 
institutions. This work will highlight the ways in which museums and 
libraries can use their resources to help communities develop the 21st 
century skills they need to succeed in the new global economy.

Conclusion
    The Institute of Museum and Library Services is a small agency that 
makes a big difference. And that difference is felt in communities all 
over the United States. Museums and libraries are more than buildings 
with artwork or books or historic artifacts. They are integral parts of 
their communities and, as much or more than any other entity, they are 
crucial to the community's quality of life. It is my privilege, and 
that of everyone who works at IMLS, to help libraries and museums in 
essential work.
    Thank you again for this opportunity. I look forward to answering 
any questions you might have.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    I now would like to play a video on the conservation of the 
collectibles. [Video played.]
    Excellent piece. And I think people don't realize how 
important it is to preserve that. I have to say, here in 
Congress, we have a tremendous amount of paperwork. And our 
House administration has really been pushing all of us, as 
members, to start collecting, filing, so when we leave--to give 
it to a library or give it to a university school so there 
could always be research on that. And many of us have started 
doing that.
    Ms. LeBlanc?

 STATEMENT OF SUZANNE LEBLANC, EXECUTIVE DIRECTOR, LONG ISLAND 
                       CHILDREN'S MUSEUM

    Ms. LeBlanc. Good morning.
    Chairwoman McCarthy, Ranking Member Platts, Congressman 
Davis and members of the Subcommittee on Healthy Families and 
Communities, I am pleased and honored to be here to offer 
testimony on the theme, ``Examining the Role of Museums and 
Libraries in Strengthening Communities.'' I offer this 
testimony on behalf of the Long Island Children's Museum in 
Garden City, New York.
    I have spent my entire career of 34 years working in 
children's museums and believe strongly in the potential of 
museums and libraries to anchor communities and to offer lively 
and engaging resources for lifelong learning.
    Children's museums have a long history of providing 
resources for children and families in need. From the start, in 
1899, when the Brooklyn Children's Museum opened its doors, 
children's museums saw themselves as filling a gap in the 
education of children and the support of families.
    Anna Billings Gallup, one of the founders of the American 
Association of Museums, in 1906, and a curator-in-chief of the 
Brooklyn Children's Museum, wrote, ``The Children's Museum idea 
is Brooklyn's gift to the world.''
    Following in these historical footsteps, the founders of 
the Long Island Children's Museum, from its very beginnings, 
had a keen sense of commitment to community, and an 
understanding of the important role the museum could play on 
Long Island.
    In 2005, an opportunity presented itself for the museum to 
respond to the needs of the most vulnerable of families by 
entering into an innovative partnership with Nassau County's 
Department of Health and Human Services and Family Court.
    The county opened a new Welcome Center less than a 10-
minute walk from the museum that consolidated eight agencies 
under one roof. This initiative was christened, ``No Wrong 
Door.'' No matter where a client would enter the human-services 
system, that person would now have access to any other needed 
service.
    Shortly thereafter, I received a call from the head of the 
youth board. He wanted to tour the museum with a few of his 
colleagues. To my surprise, about 15 people arrived with him. 
They included the director of human services for the county, 
key Department of Social Services department heads, and a 
Family Court judge.
    After this initial meeting, it became clear that several 
factors were converging that provided an opportunity for a 
sustained, invaluable partnership: The proximity of the museum 
and the Welcome Center, the mission and core values of the 
Children's Museum, the county's ``No Wrong Door'' initiative, 
and the passion and enthusiasm of county and museum staff.
    It was clear that funding would be necessary for the museum 
to launch the staff-intensive initiative. I was familiar with 
the Institute of Museum and Library Services ``Museums for 
America'' program, as well as with the work of the Providence 
Children's Museum that brings court-separated families together 
in the museum.
    The museum approached the county with the idea of 
developing a long-term partnership, submitted a proposal, and 
was awarded funding in September of 2007, for ``Be Together, 
Learn Together.'' We determined early on that the development 
of the partnership itself would be of the utmost importance.
    Project components and activities have taken shape as the 
project has proceeded, and include a redesign of the Welcome 
Center's supervised-visitation rooms--this is one of the more 
exciting things that is happening right at this moment--
supervised visitations at the Children's Museum, weekly family 
activities at the Welcome Center, parent-and-family workshops, 
foster-care-awareness days at the museum, free museum passes 
for families and caseworkers, caseworker-appreciation nights at 
the museum, services to preventive providers, such as those 
serving teen parents, and collection days at the museum to 
support resource needs identified by the Welcome Center.
    There are, of course, challenges in effectively 
implementing this collaboration. Caseworkers are dealing, on a 
daily basis, with children and families in great need and, 
often, in crisis. It takes enormous commitment on the part of 
these staff to put time and effort into implementing new 
procedures and programs in the face of their daily challenges. 
This was a really important thing that we realized.
    For this reason, the development of the partnership was 
considered an integral part of the important work of ``Be 
Together, Learn Together.'' ``Be Together, Learn Together,'' is 
neither the only, nor the first, major program initiative the 
museum has implemented to serve low-income or otherwise 
vulnerable children and families. I have discussed some of 
these other programs briefly in my written testimony. They, 
too, are part of the fabric and culture of the museum.
    In closing, I would like to add a personal note and say 
that I remember the day when I first discovered libraries, 
realizing that I could read these books whether or not my 
family could afford to buy them. I also remember my first 
museum experience, as a teenager, visiting the Peabody Essex 
Museum in Salem, Massachusetts, with a friend.
    I was hungry to learn about the world. And these 
institutions helped provide me with the resources that have 
guided me throughout my life.
    Museums and libraries are important institutions that can 
have great impact on families and communities. IMLS plays a key 
role in enabling these institutions to pilot unique programs, 
to work together in museum-library partnerships, and to take 
leadership roles in strengthening their communities.
    As a recipient of IMLS funds in Las Vegas, as well as now, 
in New York, I am familiar with, and deeply appreciate to 
impact of IMLS funding toward the creation of strong and 
vibrant community partnerships. Thank you.
    [The statement of Ms. LeBlanc follows:]

  Prepared Statement of Suzanne LeBlanc, Long Island Children's Museum

    I am pleased and honored to offer this written testimony 
highlighting the role of museums in strengthening communities, on 
behalf of the Long Island Children's Museum in Garden City, New York.
    As someone who has spent her full adult career working in 
children's museums in Boston, Brooklyn, Las Vegas and now Garden City 
on Long Island in New York, I have had the opportunity to witness 
firsthand, participate in, create and direct museum programs and major 
initiatives that have thoroughly inspired and engaged young people, 
supported family learning in important ways, and had a deep and lasting 
impact on families who began to view and use the museum as an important 
lifelong resource.
    Children's museums have a long history of providing resources to 
children and families in need and of being trusted community 
institutions. To put our current discussion into context--December16, 
1999 marked the 100th anniversary of the founding of the first 
children's museum in Brooklyn, New York. Anna Billings Gallup, one of 
the founders of the American Association of Museums in 1906 and a 
curator-in-chief of the Brooklyn Children's Museum said, in the 
Brooklyn Daily Eagle, ``The Children's Museum idea is Brooklyn's gift 
to the world.'' In 1917, during World War I, the Children's Museum in 
Boston (the second oldest children's museum) briefly considered closing 
its doors because of the challenges of raising funds during wartime. 
But the museum's trustees ``realized that * * * to close [the museum's] 
doors when thousands of children were looking to it for mental stimulus 
and satisfaction would be wrong.'' Shortly thereafter, during an 
extremely cold winter in 1918, Boston's schools were closed because of 
a shortage of coal. Many children had nowhere to go but the streets. 
The museum responded to this crisis by scheduling a series of daily 
lectures for young people. (See Appendix 1--``The Slender Golden 
Thread, 100 Years Strong.'')
    The Long Island Children's Museum (LICM), was conceived over dinner 
conversation among three couples in 1989 and first opened to the public 
in November of 1993 in 5,400 square feet of donated space in an office 
building that could only accommodate 98 people at one time and was 
intended to serve a demonstration site. Community response was 
immediate. LICM's first newsletter ran two headlines: ``Museum Opens!'' 
and ``Board Begins Search for Larger Quarters.'' LICM is now housed in 
a 40,000 square foot former Navy airplane hangar on Nassau County land 
in Garden City. It has a $5 million annual budget, 100 employees and 65 
volunteers. The Museum welcomes 265,000 visitors per year, including 
40,000 schoolchildren. The founders of the Museum, from its inception, 
had a keen sense of commitment to community and an understanding of the 
important role the museum could play on Long Island. Robert Lemle, 
founding board member and current co-chair of the museum's board of 
trustees, said in a recent interview for the Oberlin Alumni Magazine, 
`` This was a civic contribution that we could make: an institution 
that would be accessible to everyone and have an important impact on 
Long Island and our community.'' (See Appendix 2--``Child's Play.'')
    In late 2005 an opportunity presented itself for the Museum to 
respond in a significant and positive way to the needs of the most 
vulnerable of families by entering into an innovative partnership with 
Nassau County's Department of Health and Human Services (DHHS) and 
Family Court. In September 2005 Nassau County opened a new 219,000 
square-foot Health and Human Services Welcoming Center across the road 
and less that a 10-minute walk from LICM. The new facility houses eight 
agencies under one roof--previously located in five different sites 
throughout the county. Receiving an average of 1,000 visitors each day, 
and some days as many as 2,000, the building is bright, positive and 
welcoming and includes a small staffed children's playroom and a 
library where books are given away. Most importantly, the new center 
provides ``a single point of entry into the Health and Human Services 
system'' for individuals and families in Nassau County. This initiative 
to consolidate the intake process, increase the efficient delivery of 
services and ensure an ``outcome-driven approach to case management'' 
was christened the No Wrong Door program. No matter where a client 
enters the human services system, that person will now have access to 
any other county or community service they need. (See Appendix 3--
Nassau County Press Release.)
    Shortly after this opening, Dr. Louise Skolnik, director of human 
services for Nassau County, key Department of Health and Human Services 
department heads and Family Court Judge Hope Zimmerman approached the 
Museum to meet and discuss ways to work together on behalf of families 
visiting the new Welcoming Center as well as those engaged with Child 
Protective Services, Preventative, Foster Care and Adoption Services 
and Family Court. After this initial meeting it became clear to museum 
and county staff that several factors were converging that provided an 
opportunity for a significant and sustained partnership between the 
county agencies and the Long Island Children's Museum. The proximity of 
the Museum and the new Welcoming Center, the mission and core values of 
the Children's Museum, the County's No Wrong Door initiative, and the 
passion and enthusiasm of DHHS, Family Court and Museum staff on behalf 
of families, formed a perfect situation for something groundbreaking to 
develop.
    As a 501c3 not for profit agency, with 50% of its yearly budget 
raised from corporate, foundation and individual donations, it was 
necessary for the Museum to raise funds to launch this kind of staff 
intensive initiative and partner in such a significant way. The 
Museum's Executive Director, Suzanne LeBlanc, was familiar with the 
federal Institute of Museum and Library Services (IMLS) Museums for 
America program. She approached the county agencies with the idea of 
developing a long-term, sustained collaboration. The Children's Museum 
submitted an application for funding from IMLS in November 2006 and was 
awarded funding in September of 2007 for the program--Be Together, 
Learn Together. (See Appendix 4--LICM Community Access Fact Sheet--Be 
Together, Learn Together and Appendix 5--IMLS Grant Narrative.)
    Several decisions and factors have contributed to the success to-
date of this collaboration: an intensive pre-proposal planning process 
involving museum, social services and family court staff; the 
establishment of a joint planning committee (county agency and museum 
staff) that would meet monthly throughout the project, including the 
participation commitment of Dr. Louise Skolnik and Suzanne LeBlanc; the 
Children's Museum's hire of a full-time program manager, with 
substantial community programming experience, to coordinate all aspects 
of the project; an initial decision that this two-year project would be 
designed as a planning and prototyping phase, allowing program 
components to be adequately tested and evaluated, and the formation of 
a national advisory committee with local representation that would add 
expertise and national perspective to the project. The development of 
the collaboration itself is of paramount importance; allowing each 
partner to contribute talents and expertise that serve their shared 
audience.
    The project components and activities have developed as the project 
has proceeded and include:
    <bullet> a re-design of the Welcome Center's supervised visitation 
rooms by museum exhibit designers with input from caseworker focus 
groups and welcome center staff administrators, and utilizing 
prototyping of individual components with families before final design
    <bullet> supervised visitations at the Children's Museum taking 
advantage of this positive, non-judgmental setting and fun learning 
environment
    <bullet> weekly activities at the Welcome Center, taught by museum 
staff, for children and families waiting to be seen by Health and Human 
Services staff
    <bullet> parent workshops focused on play, childhood development, 
and supporting pre-and early literacy skills
    <bullet> Museum-led workshops for children and parents that 
incorporate activities that enable modeling of positive parent/child 
interaction skills
    <bullet> awareness days at the Museum that increase public 
understanding of the urgent need for more foster care families
    <bullet> free museum passes distributed at the Welcome Center to 
families, as well as to case workers
    <bullet> caseworker appreciation nights at the Museum
    <bullet> services to preventive providers such as to Long Beach 
Reach, which among other activities serves pregnant teens and teen 
parents
    <bullet> collection days at the Museum for children's books, art 
and craft supplies, winter coats, back to school supplies and other 
drives to support resource needs that the Welcome Center identifies
    I would like to discuss the re-design of the supervised visitation 
rooms in more depth as they are illustrative of the advantages of our 
unique collaboration. There are two rooms in the Welcome Center and 
while clean, they were small, with bare white walls and sofas that are 
difficult to clean, and that do little to encourage family interaction. 
The museum's director of exhibits, the Be Together, Learn Together 
program manager, and the administrator of the Welcome Center formed the 
nucleus of a project team to work on this environment. It was decided 
that before making significant changes it would be important to create 
a focus group to gather input from caseworkers who use the room for
    supervised visitations. The buy-in of caseworkers and cleaning 
staff would be critical to the success of the room changes.
    The Museum donated staff time and some funds for the changes and 
the Welcome Center accessed a small state grant to supplement the funds 
that would be needed. With feedback gathered, design drawings were 
created and prototyped components were developed to try-out with 
families and caseworkers in the supervised visitation rooms. A final 
design was approved at a meeting of the Joint Planning Committee, which 
included a new parent participant. Changes to one room are now being 
implemented; changes to the second room will follow after observation 
and feedback from families and caseworkers about the success of the 
changes to the first room. Training for caseworkers and cleaning staff 
will be conducted by the Museum. (See Appendix 6--Floor Plans and 
Rendering.)
    Components of the new supervised visitation room include:
    <bullet> a big, inviting, fanciful and colorful storytelling chair
    <bullet> a collection of framed children's art on the walls with a 
mechanism for installing art done by children who use the room
    <bullet> a large-size tic tac toe inset in the floor, with giant 
playing pieces
    <bullet> a loveseat, kids round table with chairs, and the 
storytelling chair form the parent/child interaction zone
    <bullet> Ceiling murals (4) that represent different kinds of 
skies--starry, cloudy, sunny and stormy with lightning
    <bullet> A toy bench with a small number of developmentally 
appropriate toys in good shape
    <bullet> An art supply cart
    <bullet> A bookshelf filled with books to use with the storytelling 
chair
    <bullet> A food prep counter
    <bullet> A caseworker chair
    <bullet> Rooms painted an inviting color
    <bullet> New linoleum and rugs (with tic tac toe inset)
    <bullet> Softer, colored lighting
    <bullet> New furniture colorful, attractive, child-friendly and 
easy to clean
    The redesign of the supervised visitation room is a wonderful 
example of a contribution that a museum, with exhibit designers on 
staff who are experienced in designing for children, can make to a 
social service agency. The redesigned room invites and welcomes 
families in, naturally encourages parent/child interaction, and 
communicates respect for the families who must visit with each other in 
this supervised setting.
    There are of course challenges in effectively implementing this 
collaboration. In particular, caseworkers and administrators are 
dealing on a daily basis with children and families in great need and 
often in crisis. It takes enormous commitment on the part of these 
staff, to make time for meetings with the Museum and to put time and 
effort into implementing new procedures and programs in the face of 
their daily challenges. It also takes a strong commitment, tempered 
with understanding and consistency, on the part of museum's staff to 
keep moving forward when things get preempted or delayed or move more 
slowly than desired. For this reason, the development of the 
partnership between the two institutions was considered an integral 
element of the important work of the Be Together, Learn Together 
program. (See Appendix 7, Letter of Support from Dr. Louise Skolnik)
    The partners are currently in Year One of a two-year funded project 
and are committed to continuing to work together. Independent program 
evaluation, conducted by the Institute for Learning Innovation (see 
Appendix 8, Quick Response Memo, Year One Evaluation) was designed into 
the program to guide partners toward their goal of full program 
implementation and to ensure long-term program sustainability,
    Be Together, Learn Together is neither the only nor the first major 
program initiative the Museum implemented to serve low income or 
otherwise vulnerable children and families. In 2002, with substantial 
corporate funding, Long Island Children's Museum initiated the 
KICKstart (Kids Ideas Create Knowledge) program, a multi-year 
initiative developed to deliver museum and outreach programming to all 
Head Start, second and third grade (and some fourth grade) students and 
their families in four of Long Island's most high-need school 
districts--Hempstead, Roosevelt, Central Islip and Wyandanch. This 
multi-year grant allowed the Museum to build trust in these communities 
with families, administrators and teachers and to offer consistent 
staffing, programming and services over several years. (See Appendix 
9--Community Access Fact Sheet--KICKstart.) A program evaluation, 
looking at impact over time, was conducted this year by the Institute 
of Learning Innovation, who also conducted yearly evaluations of the 
last few years of the program. (See Appendix 10--KICKstart Critical 
Review Year 6 Evaluation.)
    The Children's Museum has a multi-faceted early childhood program 
initiative that includes an exhibit for children from birth to five and 
their families, daily workshops for very young children and their 
families (Music and Movement, Story and Art, Creative Connections and 
Messy Afternoons). Parent workshops are offered on such topics as 
Parenting a Strong-Willed Child, and Living with Autism: A Team 
Approach. In addition, the Museum has begun offering a kindergarten 
readiness program for low-income families, which includes daily classes 
for children about to enter kindergarten and weekly classes for parents 
to prepare them for their role as their child's educational advocate.
    The Children's Museum has a substantial Access program that 
subsidizes visits by individuals and community groups unable to afford 
the admission fee. Relationships have been developed with family 
shelters, boys and girls clubs, groups that serve children with autism 
and their families, groups that serve returning veterans and their 
families and others. This program also subsidizes outreach programs to 
schools, libraries and community groups in low-income areas. LICM 
offers museum family passes to all libraries for purchase that provide 
free admission for library patrons. The passes can be taken out just 
like books; they have been extremely effective in communities that 
serve middle and low-income families, sometimes with a waiting list 
months long.
    The Long Island Children's Museum views itself as a community 
gathering place for important issues involving children and families to 
be discussed and presented. The Museum has a professional 150-seat 
theater offering an ideal location to host meetings, training seminars 
and other types of events. In the last few years, the Museum has hosted 
the launch of the Early Years Matter campaign, a two-day training for 
teachers and community workers on bullying, a Department of Health and 
Human Services county-wide meeting for all school district personnel to 
provide an update on Child Protective Services Laws and Protocol, the 
launch of the Long Island Index--an annual report on the state of the 
communities of Long Island, an annual expo featuring the programs and 
services of all Nassau County libraries, and recently, an Institute of 
Museum and Library Services meeting to outline grant opportunities for 
museums and libraries.
    The title of this subcommittee session--``Examining the Role of 
Museums and Libraries in Strengthening Communities'' is very relevant 
to the ways that museums are increasingly viewing themselves--as 
institutions with much to offer their respective communities in ways 
that serve the whole family, build partnerships, address community 
needs and serve as a vehicle for groups to come together and find 
common ground. Sally Osberg, previously the executive director of the 
Children's Museum of San Jose, noted ``Children's museums speak to a 
deep desire to be anchored in a community and to see your children 
anchored in a community.'' (See Appendix 1.) Museums and libraries have 
been and continue to be important institutions that can have great 
impact on families and communities. The Institute of Museum and Library 
Services play a key role in enabling these institutions to pilot unique 
programs, to work together in museum/library partnerships and to take 
leadership roles in strengthening their communities. As a recipient of 
IMLS funds, both at the Long Island Children's Museum and at the Lied 
Discovery Children's Museum in Las Vegas, I am familiar with, and 
deeply appreciate the impact of IMLS funding toward the creation of 
strong and vibrant community partnerships.

                           LIST OF APPENDICES

Appendix 1. LeBlanc, Suzanne. ``The Slender Golden Thread, 100 Years 
        Strong.'' Museum News, Nov. /Dec. 1999, 49-55, 63.
Appendix 2. Waleson, Heidi. ``Child's Play.'' Oberlin Alumni Magazine, 
        Spring 2008, 18-21.
Appendix 3. ``Suozzi Unveils ``No Wrong Door'' for Nassau County 
        Residents''--Nassau County Press Release, November 29, 2004
Appendix 4. LICM Community Access Fact Sheet--Be Together, Learn 
        Together
Appendix 5. LICM--2007 IMLS MFA--Grant Narrative
Appendix 6. Floor Plans and Rendering for proposed transformation of 
        Nassau County Department of Health and Human Services' 
        Supervised Visitation Rooms.
Appendix 7. Skolnik, DSW, Louise. Letter of support for Be Together, 
        Learn Together 2007 IMLS MFA Grant Request.
Appendix 8. Institute for Learning Innovation--Quick Response Memo: 
        Year One Evaluation
Appendix 9. LICM Community Access Fact Sheet--KICKStart
Appendix 10. Kessler, Cheryl and Storksdieck, Ph.D, Martin--KICKstart 
        Critical Review Year 6 Evaluation. Institute for Learning 
        Innovation, February 2008.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Zales?

 STATEMENT OF MARY CLARE ZALES, DEPUTY SECRETARY OF EDUCATION, 
     COMMONWEALTH LIBRARIES AND COMMISSIONER FOR LIBRARIES

    Ms. Zales. Good morning. Madam Chair McCarthy, 
Representative Platts and honored members of the committee, 
thank you for allowing me to testify today. I appreciate the 
opportunity to discuss the essential impact libraries have on 
America's 21st century communities.
    I would like to focus on the innovative and creative ways 
libraries have reached far beyond their traditional role, to 
incorporate emerging technologies so they can better meet the 
changing needs of changing populations, and how, as a result, 
the library has a new and expanding role in the community.
    Libraries are the information and cultural hub of the 
community. And all are welcome at the library, regardless of 
age, income, education, physical ability, or address. Libraries 
strive to serve their patrons throughout the lifecycle, from 
birth through end of life. And children have always been a 
priority for the libraries, and the work we do on their behalf 
will always be our most important work.
    This committee, in particular, is aware of the emerging 
brain research which shows that pre-literacy experiences are 
irreplaceable in a child's brain development. Successful pre-
literacy experiences influence academic success, which leads to 
career success, which, ultimately, impacts the health and 
vitality of our families, our communities and our nation. And 
libraries are uniquely positioned to help.
    To help meet this need, and in so doing, they have an 
indelible impact on child development. In Pennsylvania, we 
incorporated this research into our children's programs, ``One 
Book Every Young Child'' and ``Family Place,'' where libraries 
bring together children and their parents with community 
resources and professionals in child development.
    Pennsylvania also participates in the Summer Reading 
program, where over 280,000 children read through the summer 
and return to school ready to learn. This is more children than 
participate in Little League.
    A recent Pew Foundation study on how Americans search for 
information showed people who used the Internet are more likely 
to use the library. This was true regardless of income.
    This report is valuable because it refutes the lingering 
opinion that the Internet will replace the library. As public 
libraries provide many essential services to their communities, 
our school libraries have become sophisticated 21st century 
learning environments.
    Across the United States, studies have documented that 
students score higher on standardized tests where there is a 
strong school library program. In Pennsylvania, middle schools 
with the highest state reading scores spend twice as much on 
their school libraries as the lowest-scoring schools.
    States like Pennsylvania invest well in technology when 
they invest in programs that offer access statewide to vetted 
databases beyond what is available free on the Internet. And we 
share resources through shared online catalogs of schools, 
public and academic libraries. And to satisfy the public and 
the middle-of-the-night student, we offer around-the-clock 
virtual reference. For Pennsylvanians, and for a growing number 
of Americans, the library is never closed.
    Services on behalf of libraries are more valuable and more 
heavily used during times of economic downturn. This is true 
whether it be personal or national. One Pennsylvanian noted, 
``The savings from borrowing one hardback book equals half a 
tank of gas.''
    And patrons are coming to the library for more that 
borrowing free books. They come for the computer, for Internet 
access, databases with job listings, training on resume 
development, techniques for interviewing and learning 21st 
century skills needed to find a new or a better job.
    Recent statistics show nationwide libraries host 1.3 
billion visits, and loan 2 billion items each year. This 
increase in activities equivalent is echoed in Pennsylvania--
for, half the adult population, those over 18, physically 
visited their library last year.
    Obviously, to meet the changing needs of our communities, 
libraries need adequate funding from all sources--local, state 
and federal. Allow me to state strongly: The innovation, the 
outreach, the spark of idea, the creative solutions that are 
responsible, in large measure, for the contribution by 
libraries to education and communities nationwide, would not 
have been possible without the Library Services and Technology 
Act.
    In closing, I thank you for this opportunity. I report to 
you with confidence the funding invested in public libraries is 
a wise and fruitful investment, as all aspects of a community 
benefit. Libraries are continually advancing to meet the 
information, education and enrichment needs of our nation. And 
as we can all testify, learning begins at the library. I thank 
you.
    [The statement of Ms. Zales follows:]

  Prepared Statement of Mary Clare Zales, Commissioner for Libraries, 
                         State of Pennsylvania

    Chairwoman McCarthy and Ranking Member Platts, thank you for 
allowing me to testify today. I appreciate the opportunity to discuss 
how libraries are essential to America's 21st Century communities.
    My name is Mary Clare Zales. I am the Commissioner for Libraries in 
Pennsylvania which is the position equivalent in other states to the 
state librarian.
    I am also a member of the American Library Association, the oldest 
and largest library association in the world with 66,000 members who 
are primarily school, public, academic, and some special librarians, 
and also trustees, publishers and friends of libraries.
    As Pennsylvania's state librarian, I am a member with my 
counterparts nationwide of the Chief Officers of State Library Agencies 
(COSLA). Its purpose is to identify and address issues of common 
concern and national interest; to further state library agency 
relationships with federal government and national organizations; and 
to initiate cooperative action for the improvement of library services 
to the people of the United States.
    As Deputy Secretary for Libraries I lead the development of library 
services in Pennsylvania and oversee the State Library of Pennsylvania, 
one of four major research libraries of the state, that has recently 
completed a refocus of its mission placing an emphasis on its historic 
collections and becoming the destination library for Pennsylvania 
related materials and resources. Working most recently with various 
Commonwealth agencies and stakeholders, Pennsylvania completed the 
construction of a Rare Collections Library in preserving thousands of 
Commonwealth and national treasures. Among them is the 422-volume 
Assembly Collection purchased in 1745 by Ben Franklin and Franklin's 
1754 Pennsylvania Gazette in which he describes his ``Key & Kite 
Experiment.''
    I am here today representing the American Library Association, the 
Chief Officers of State Library Agencies, and most personally to 
represent library service in Pennsylvania.
    I am proud of the role libraries play nationwide and of the role 
libraries play in improving and enriching the lives of Pennsylvanians. 
Pennsylvania has 458 public library systems with 635 library locations 
and 35 bookmobiles to serve our twelve million residents. There is a 
state-funded library meeting state standards in every one of our 67 
counties with 97% of our population eligible for a library card without 
charge. Pennsylvania represents 4% of the country's population, and we 
have 5% of the nation's public libraries. As it is true nationwide it 
is true in Pennsylvania, there are more public libraries than 
McDonalds!
    With this testimony, I would like to focus on how libraries are 
reaching new populations in new ways; and how their presence in the 
community is growing. First, I would like to say the time honored and 
traditional role of the library is intact. We remain a resource and 
repository of the printed word. I believe reading and lending books 
will continue to be the fundamental role of libraries. That said, let 
us open the door of today's library and see the many ways they serve 
our communities.
    Every day across the country knowledgeable librarians provide 
culturally diverse communities with a broad range of services for 
people of all ages and backgrounds. In Pennsylvania, anyone can come 
into a state-aided library and access the materials before them. This 
is true regardless of income, education, physical ability or address. 
Actually, even if you don't have an address, you are welcomed. And you 
are welcomed to remain anonymous. We only ask that you apply for a 
library card if you choose to borrow from the library or participate in 
programs.
    Libraries in Pennsylvania, like libraries nationwide exist to 
serve. This means at the core, the mission of every library regardless 
of type or location is the same: to meet the information, education and 
enrichment needs of those they serve. And libraries serve the full 
community throughout the life cycle * * * from birth through the end of 
life.

Services to Children
    Libraries are often the first opportunity a child has to interact 
with books. Libraries across the country are providing important early 
literacy services for young children as well as a wide assortment of 
books, music, audiobooks, DVDs, computer programs, and so much more 
that can be used in the library or at home. Story times are popular as 
they offer preschoolers an engaging experience with books.
    In Pennsylvania, we have a strong focus on infants, toddlers and 
children. I suspect this committee in particular is aware of the 
emerging brain research which demonstrates that pre-literacy 
experiences are irreplaceable in a child's brain development and 
influences academic success. The absence of pre-literacy experiences 
has an impact on career success and ultimately impacts the health and 
vitality of our families, communities and our nation
    The library community of Pennsylvania recognized the need to 
incorporate these findings in our programming. As a result, we 
initiated the One Book, Every Young Child program using the one-book-
one-community model. Every April we select a pre-literacy book that 
will be read to young children across the Commonwealth. The program 
prompts child care centers, pre-schools and libraries to plan events 
and activities related to the theme of the selected book which will 
engage children, parents and caregivers in early reading practices.
    This year's title was read to 21,000 children in home-based child 
care and class-based early care and education programs in addition to 
being read in virtually all our public libraries. All 67 counties 
participated in One Book Every Young Child events and over 90,000 
copies of the book were distributed through libraries and their 
community partners. In all, approximately 560,000 preschool children 
were reached this year by the program. We are working with 
pediatricians and health care clinics to put a copy of the One Book 
title in waiting rooms across the state. I am proud to report our One 
Book Every Young Child program won the 2007 John Cotton Dana award, one 
of the most prestigious awards bestowed by the American Library 
Association. Since 2004, we have sponsored an Early Learning Forum and 
Best Practices Awards program each year. Identifying best practices and 
providing evidence of the importance of early literacy has elevated 
children's programming statewide. Over 30 years of research confirms 
the foundational importance of early education and care for children's 
school and life success.
    If we expect our students to achieve high levels, we must start 
them off early and start them off right. Early education and care 
provide a critical focus for our efforts. Strong libraries play a vital 
role in this early learning for tens of thousands of Pennsylvania 
families.
    Pennsylvania is proud to participate in the national Family Place 
Program that builds on the role of the library as the core of the 
community. Family Place Libraries reserve physical space in the library 
to conduct programs for young children and their parents, bringing them 
together with community resources and professionals in child 
development. In Doylestown, Pennsylvania, a parent attending Family 
Place Programs at the Bucks County Free Library commented that ``I 
thought that the library just had to do with reading and books. This 
was a different opportunity for using toys, play and social 
interaction. The library has a bigger role. You went beyond what I 
expected.''
    The Yeadon Public Library in Delaware County reported that during a 
Family Place workshop a mother expressed strong concern about her son 
who was diagnosed with autism. The library connected the parent with 
child development specialists and the next week her son was receiving 
assistance. Pennsylvania leads the nation in the number of Family Place 
Libraries.
    A perennially popular children's program is the Summer Reading 
program which is now more than one hundred years old. It is also the 
very first program public libraries offered and it began in Pittsburgh, 
Pennsylvania. This summer in Pennsylvania, more than 280,000 children 
of all ages joined with children nationwide and in American military 
bases to read under a common theme.
    The work on behalf of our children is the most important work we 
do. This emphasis in Pennsylvania is reflected in the Sullivan Award 
for Public Library Administrators Supporting Services to Children 
having been awarded in 2006 to Janice Trapp, Director of the Lycoming 
County Library System in Williamsport, PA. An example of one program at 
her library is ``Celebrating the Birth of Each Child.'' When each of 
the 1,500 or so babies born each year in Lycoming County leaves the 
hospital, mom takes home a tiny backpack, courtesy of a community-
funded program of the library. Inside is information about library 
programs, a book, a stuffed animal--and a Baby Library Card.

Services to Seniors and Special Populations
    Older adults enjoy the many services and resources of the public 
library. From book clubs to health seminars to travel and medical 
resources, older Pennsylvanians like older adults nationwide feel right 
at home in their public library. For example, the Adams County Library 
System is one of many libraries that partner with American Assoication 
of Retired People (AARP) to offer seniors tax services to more than 500 
seniors. In Cumberland County the library system and Hospice of Central 
Pennsylvania developed a partnership to provide homebound service to 
hospice clients and their families.
    Libraries also provide important community services and programs 
for non-English speakers. Nationwide 78% of libraries reported Spanish 
as the main non-English language used in the library. Libraries work 
with the Spanish-speaking community by offering specially developed 
story times and Spanish and bilingual library materials.
    Public libraries partner with the National Library Services for the 
Blind and Physically Handicapped in the Library of Congress to serve 
those who cannot use a traditional book due to visual or physical 
handicaps. This program opens up the world of books to Americans with 
disabilities that would otherwise make it impossible for them to read. 
Though traditionally viewed as a service to the aging community, in 
Pennsylvania alone there are 261,000 children between the ages of three 
and eighteen, many of whom would not be able to succeed in school 
without recorded materials.
    The two Regional Libraries for the Blind and Physically Handicapped 
in Pennsylvania located in Philadelphia and Pittsburgh lend two million 
recorded, Braille and large print books and magazines each year. The 
Libraries for the Blind and Physically Handicapped reach out to those 
in short term and long term need with the most recent outreach being to 
returning soldiers
    Currently the National Library Service for the Blind and Physically 
Handicapped is undertaking a transition from a cassette based format to 
a new digital format that will be much easier to use and offer a 
downloadable option.
    Helen Jane Kane of Butler County in Pennsylvania captured the 
intrinsic value of this service when she said: ``The books have really 
helped me keep a more positive mental attitude and added another 
dimension to my life.'' Grace Bussler, also from Butler County, added 
``These books have been a godsend to not just me but my family also, 
because if I'm happy and satisfied, so are they.''

Libraries and Technology
    While computer use has increased substantially in the United 
States, many American households still do not have home computers or 
home Internet access. Libraries are working to close this ``digital 
divide'' in many of our nation's distressed communities by providing 
no-fee, public access to computers and the Internet. Nationwide 73% of 
all libraries report they are the only provider of free Internet access 
in their communities. In rural areas, the role of the library is even 
more critical as 83% of libraries are the only free Internet provider.
    The report ``Libraries Connect Communities: Public Library Funding 
& Technology Access Study 2007-2008'' was released last week. This 
report assesses public access to computers, the Internet and Internet-
related services in public libraries of the United States, and the 
impact of library funding changes on connectivity, technology 
deployment and sustainability. Chairwoman McCarthy, I request the 
executive summary of the report be submitted into the record as 
Appendix A of this testimony.
    The report found that America's 16,543 public library buildings are 
leveraging technology to help students of all ages succeed in school 
and support lifelong learning. More than 83% of libraries now offer 
online homework resources, including live tutors and collections of 
reliable Web sources--an increase of 15% in one year. Libraries also 
reported significant increases in the number of audiobooks and podcasts 
(33% increase) videos (32% increase), e-books (13.5% increase) and 
digitized special collections (13% increase). As Americans are changing 
the ways they meet their educational, entrepreneurial and entertainment 
needs, libraries are changing with them and making access more 
convenient in person and with expanding services online.
    As stated in the report, a student in Kentucky without a computer 
or Internet at home used her public library and the free online 
tutoring program every week of her last two years of high school to 
assist with AP level courses in algebra and physics. Heather told 
library staff her grades went up and her stress levels went down 
because of the library services and resource. Heather is now in college 
and has plans for medical school.
    A Pew Foundation study on how Americans search for information was 
released in December.\1\ The study showed people who used the Internet 
were more likely to use the library than people who do not use the 
Internet. This was true regardless of income.
---------------------------------------------------------------------------
    \1\ Leigh Estabrook, Evans Witt, and Lee Rainee, ``Information 
Searches That Solve Problems: How people use the Internet, libraries, 
and government agencies when they need help,'' (Pew Internet and 
American Life Project, December 30, 2007). Available on the Internet at 
http://www.pewinternet.org/PPF/r/231/report--display.asp.
---------------------------------------------------------------------------
    This refutes the supposition by some that the Internet will render 
libraries obsolete. This study also revealed significant new 
information on who is using our libraries. Traditionally, the profile 
of the library user was a middle-aged female. This study shows a 
dramatic shift in that profile to young people ages 18 to 30. This 
shift indicates two current realities about our libraries 1) libraries 
are successful in offering technology that attracts younger users and 
2) it charges libraries with keeping pace with emerging technologies to 
continue to support the information needs of young adults as they grow 
into adulthood.
    Libraries use technology to link communities around the country and 
provide users access to information through state, regional, national 
and international networks. Many states offer a statewide network to 
provide enriched content databases and to open access to resources 
statewide. Pennsylvania offers three major programs that support the 
use of emerging technology and open access to on-line, vetted 
databases.
    The Pennsylvania On-line World of Electronic Resources--POWER 
Library--allows access to authoritative resources for children, 
students and adults through their school or public library or remotely 
through the public library website. The POWER Library extends access to 
journals, e-books, dictionaries, encyclopedias, the AP photo archive 
and much, much more. Last year over 35 million articles and items were 
examined, which is a 71% increase in usage over the past three years.
    Pennsylvania also offers a statewide electronic library catalog 
called the Access Pennsylvania Database. This on-line catalog shows the 
holdings of more than 3,000 school, public, academic and special 
libraries throughout Pennsylvania. The database has more than 67 
million holdings and 15 million unique titles.
    Virtual reference service is a relatively recent addition to 
Pennsylvania's on-line services. The Ask Here PA program was launched 
in September 2006 as a virtual reference service available to all 
residents twenty-four hours a day, seven days a week. There is a second 
tier to the Ask Here PA program for college level and more in-depth 
questions. To date, over 42,000 live chat questions were asked. If this 
level of activity continues through December 2008, as it is expected 
to, Ask Here PA will be the most active virtual reference service in 
the nation. Greater than 50% of the activity is from Pennsylvania's 
students.
    Through these programs in particular, Pennsylvania's libraries, 
like a growing number of libraries nationwide, are now serving our 
communities 24-7--The library never closes!

Libraries and Economic Development
    Libraries play a valued role in the business community. In a 
growing number of communities, libraries are opening business branches 
offering specialized collections, providing business-specific training 
in discerning credible research, studies, even grant opportunities as 
well as assisting with business development initiatives.
    For many small businesses, the library is the source for research 
and a specially trained and experienced staff they could not otherwise 
afford. Greg Skoog credits the Hickory Public Library in North Carolina 
for getting his transport company started. He used books from the 
library on writing a business plan and cash flow analysis; he used the 
Internet for research and wrote his business plan. Mr. Skoog said that 
basically, the library was his office for three weeks. He now employs 
135 people.

Libraries in Tough Economic Times
    The public library plays an even more important role as Americans 
are facing tough economic times. Library usage is up ten percent from 
the last economic downturn in 2001. Debbie Long of West Goshen in 
Chester County, Pennsylvania noted the price of borrowing one hardback 
book from the library saves her enough to fill her gas tank halfway. So 
this year, she is frequenting the West Chester Public Library instead 
of the bookstore. ``Between the price of gas and that little extra 
money that we've lost, I'm not buying books and music like I used to.'' 
She is driving to her nearby library and using its free services. ``I 
love it,'' she says.
    Patrons are visiting their library for more than the borrow of free 
books. Libraries offer databases with job listings, training on resume 
development, techniques for interviewing and 21st century skills needed 
to get that new job. The Washoe County Library System's Community 
Resource Center in Nevada helped Stephanie D'Arcy, who hadn't had full-
time employment for several months; successfully get a job with the 
local parks and recreation department. ``I needed guidance,'' D'Arcy 
said. ``The library staff offered me encouragement and assistance 
filling out the application, including pointing out the transferable 
skills I could list, plus some tips for interviewing. If it were not 
for the library's help, I wouldn't be where I am today.''
    That library attendance has increased is not a surprise. Studies 
from generation to generation have shown that in times of economic 
downturn, libraries become busier.
    Looking at Pennsylvania for example, the number of items lent 
continues to increase. Since 2000 there has been a 24% increase in the 
lending of library materials in Pennsylvania from 54 million to 67 
million books and other items. Unfortunately, this increased use comes 
at the very time communities are least able to support their libraries. 
Many states across the country will be struggling to meet their 
maintenance of effort requirements to maintain eligibility to receive 
LSTA funds.

Increasing Use
    In states across the nation and in counties across Pennsylvania, 
the role of the library has emerged as both a destination for resources 
and a place to engage with the community.
    In Pennsylvania, libraries are becoming better and better at 
identifying and meeting the changing needs of their communities, and 
are becoming the information and social center of that community. This 
role is a natural fit for libraries as they open access, expand 
services, offer targeted programs and invest in technology that is 
valued by the community--from the youngest to the oldest. The effort 
shows as more people are visiting and using libraries than ever before. 
Nationwide, recent statistics show libraries host more than 1.3 billion 
visits and circulate more than 2 billion items in each year.
    Attendance figures continue to go up in Pennsylvania as well. Last 
year there were 45 million visits to libraries, including 3.5 million 
people attending library programs. We are also pleased to note that 
last year in Pennsylvania half the population aged 18 and over 
physically visited a library. This does not include those who used the 
library remotely only.

Libraries Contribute to the Economic Community
    An investment in libraries is an investment in the community. In 
Pennsylvania a study conducted by the University of North Carolina at 
Chapel Hill recently showed that for every dollar invested in the 
public library, the community receives a return on investment of $5.50. 
Studies in other states across the country have shown similar results.
    Not only is there an economic return on investment to citizens and 
organization users, the surrounding communities receive an economic 
return in ripple effects from salaries and wages paid to staff, library 
purchases made, and a halo effect from spending in the nearby community 
by visitors during their trips to the public libraries.

The Significance of LSTA Funds
    In addition to state and local funding, libraries would not be able 
to have the enormous social impact on their communities without the 
Library Service and Technology Act (LSTA). LSTA is the only federal 
program exclusively for libraries, and it is administered by the 
Institute of Museum and Library Services (IMLS).
    LSTA expands services for learning and access to information 
resources in all types of libraries for people of all ages. 
Pennsylvania, for example, uses LSTA funds to support their summer 
reading program in which more that 280,000 children and teens 
participated--the largest number to date. More Pennsylvania students 
participated in the summer reading program than played Little League!
    Other significant uses of LSTA funds in Pennsylvania include grants 
to libraries to develop innovative services including state of the art 
electronic networks, training programs for school, academic and public 
librarians and for library trustees. A School Librarian Toolkit was 
developed to alignthe school library resources and services with 
Pennsylvania's academic standards. LSTA also made possible the POWER 
Library online databases, the One Book Every One Child program, and 
collection development grants for public and school libraries.

The Contribution of our School Libraries to Student Achievement
    At the same time public libraries provide many essential services 
to their communities, school libraries have become the cornerstone of 
the school. School libraries are no longer just for books. Instead, 
they have become sophisticated 21st century learning environments 
offering a full range of print and electronic resources that provide 
equal learning opportunities to all students, regardless of the socio-
economic or education levels of the community.
    Across the United States, numerous studies have shown that students 
in schools with strong school libraries learn more, get better grades, 
and score higher on standardized tests than their peers in schools 
without libraries. A recent study showed that Pennsylvania middle 
schools with the best PSSA reading scores spend twice as much on their 
school libraries as the lowest scoring schools.
    The skills needed to function successfully in a 21st Century global 
workforce have gone beyond reading. Business leaders are concerned that 
too many workers are entering the workforce without information 
literacy skills--those skills needed to find, retrieve, analyze and use 
information. These are the skills that equip workers with the ability 
to think critically and work proficiently. Who better to teach 
information literacy than librarians, the information experts?
    Some of the major skills that school library media specialists 
teach are the techniques and methods for locating and answering 
curriculum needs through critical thinking. Using the library's many 
and varied resources, school librarians also teach students how to work 
collaboratively, which, combined with the information literacy skills, 
is ideal for ensuring college readiness and success in the workforce.

In Closing
    Thank you again for this opportunity to share with you the 
traditional and emerging roles of our libraries and their dedication in 
meeting the needs of our communities nationwide. I report to you with 
confidence, the funding invested in public libraries is a wise and 
fruitful investment as all aspects of the community benefit. Libraries 
support the development and care of young children and families, 
support formal education and strengthen local economies. Libraries add 
richness and quality to the life of adults and seniors and special 
populations. There is so much more libraries do for our communities 
that cannot be quantified in data or studies. Libraries satisfy the 
curiosities of the lifelong learner throughout life--and as we can all 
testify, learning begins at the library.
    An investment in libraries is an investment in communities.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Ms. Nunez?

    STATEMENT OF ANNA NUNEZ, ARIZONA HEALTH SCIENCE LIBRARY 
                LIBRARIAN, UNIVERSITY OF ARIZONA

    Ms. Nunez. Good morning, Chairwoman McCarthy, and members 
of the Healthy Families and Communities----
    Chairwoman McCarthy. Is your mic on?
    Ms. Nunez. Thank you, Chairwoman McCarthy, and members of 
the Healthy Families and Communities Subcommittee. I am honored 
to be here this morning on behalf of Dr. Jana Bradley, Director 
of SIRLS, the School of Information Resources and Library 
Science, at the University of Arizona, in Tucson.
    I am a medical librarian at AHSL, the Arizona Health 
Sciences Library. I am a graduate of K.R., the Knowledge River 
program, at the School of Information Resources and Library 
Science. This program is IMLS-funded, designed to recruit 
Hispanics and Native Americans to the field of librarianship.
    Over the past 2 years, I have served as co-advisor to the 
SIRLS Wellness Education program, known as ``WE Search,'' an 
initiative funded by the Laura Bush 21st Century Librarian 
Program. I have personally experienced the benefits of this 
federally funded initiative.
    I was accepted into the SIRLS Masters of Library Science 
Degree Program as part of the first cohort. As a student, I 
served former Knowledge River Director Patricia Tarin, as a 
graduate research assistant and program manager. We developed a 
strategy for recruitment and retention.
    Shortly after graduating, I was employed at the Arizona 
Health Sciences Library. The course of study provided by the 
K.R. program focuses on training Hispanic and Native American 
students to enter the profession of librarianship, and, in 
doing so, to improve information access and services to these 
communities from a culturally and linguistically appropriate 
perspective.
    My own path led to a newly created position at the Arizona 
Health Sciences Library, as the Arizona Hispanic Center of 
Excellence services librarian. As the first HCOE librarian, I 
serve the university's College of Medicine in its goal to 
recruit and retain Hispanic medical students and faculty, to 
provide research support to faculty, and to provide support for 
researchers and research conducted on and in the Hispanic 
community.
    My work included creating a Web site of Hispanic health 
resources, to increase the library's collection of culturally 
and linguistically appropriate materials, and to expand the 
library's outreach services to community and health-care 
organizations that serve the Hispanic population in Arizona and 
along the U.S.-Mexico border.
    In all of my work at the Arizona Health Sciences Library, I 
have remained committed and involved in Knowledge River. The 
Laura Bush 21st Century Librarian Grant has supported the WE 
Search program, a component of the Knowledge River program.
    During their summer recess, both Knowledge River students 
and high-school students from Sunnyside High School, our WE 
Search partner, participate in a weeklong institute. They learn 
to use information technology and tools, and developed 
information-seeking skills to serve as peer-health-information 
advisors.
    They provided classroom presentations and community 
presentations, and health-information resources targeting 
health issues of concern for the community. The teams worked 
with their Knowledge River mentees to develop information 
resources, making them available to high-school teachers, and 
having them at health fairs and community events.
    The WE Search blog truly chronicles some of the successes 
of the program. To quote, ``WE Search taught me that the 
library is not just a place for reading, but is also a place 
that offers fun activities for all ages, and is well equipped 
with good resources. WE Search has also prepared me for 
college.''
    Another student states, ``After WE Search is over, I plan 
on continuing on helping students, as well as my community, by 
informing them about how useful the library is, and also about 
how useful many Web sites can be, such as MedLinePlus and 
KidsHealth.''
    I, personally, have seen a transformation in the students. 
They have become confident public speakers and well informed 
health-information purveyors. A former WE Search teen is now 
employed as a page at the neighborhood public library. During 
WE Search, several students had expressed an interest in 
pursuing a health career--of course, one of which is a medical 
librarian.
    Since this grant was awarded, over 50, if not more, 
Hispanic and Native American librarians have joined the library 
workforce. We are in a variety of library-information 
environments, and are serving these two cultural communities 
bilingually and biculturally.
    As a Knowledge River graduate and a WE Search advisor, I 
truly believe these programs have contributed to the diversity 
of libraries, has increased the access to information for these 
two cultural communities, and has laid the foundation for a 
model for other institutions to adopt or to adapt, for 
successful connection to their community.
    I am extremely grateful for this opportunity to share with 
you the contributions of our programs, and I would be happy to 
answer any questions you may have. Thank you.
    [The statement of Ms. Nunez follows:]

   Prepared Statement of Anna Nunez, Arizona Health Science Library 
                    Librarian, University of Arizona

    Thank you, Chairman George Miller and members of the Committee, for 
the invitation to be a witness at the Subcommittee on Healthy Families 
and Communities of the Committee on Education and Labor of the U.S. 
House of Representatives, hearing on ``Examining the Role of Museums 
and Libraries in Strengthening Communities.''
    I am honored to contribute to your examination of the roles that 
libraries play in strengthening communities, and in particular, on the 
contribution of the program at the School of Information Resources and 
Library Science, funded by the Laura Bush 21st Century Librarian 
Program and titled ``Knowledge River. This program recruits Native 
American and Latino students in a program leading to a master's degree 
in library and information science and includes community outreach to 
teens to address health concerns in Tucson.
Background
    Libraries and librarians have changed greatly in the last several 
decades. They now see their role as connecting individuals and 
communities with information, both print and electronic, to improve and 
enhance their lives. Public libraries see themselves as service 
agencies, often working with other service agencies to use information 
as part of a unified strategy to address community problems. Public 
libraries also work with health agencies and with health libraries, as 
a distribution and outreach point for consumer health information. And, 
increasingly, public libraries have after school programs, providing a 
safe place for children and teens to gather, have fun, and learn. 
Libraries in high schools, community colleges and universities see 
their role as information coaches, providing students, often first 
generation college students, with help to find and use information.
    Additionally, as our society has become increasingly digital, 
libraries are a public resource for providing computers to those who 
don't have other access to them. Access to computers alone is not 
enough. Librarians also provide instruction in how to use computers to 
find accurate and trustworthy information. In the information world of 
the Internet, with its chaotic mix of fact, advertising, and 
misdirection, learning to find and identify trustworthy information is 
probably one of the new literacies Americans need to improve their 
lives.
    Education to be a professional librarian requires a master's 
degree. Any subject studied at the undergraduate level can be the 
foundation for graduate work in library and information science. 
Schools that grant a master's degree in library and information science 
are accredited by the American Library Association (ALA). The grant 
that is the subject of this testimony, the Knowledge River grant, was 
given to the School of Information Resources and Library Science, at 
the University of Arizona, as part of its ALA accredited master's 
program

Knowledge River
    The Knowledge River (KR) grant, awarded by the Institute of Museum 
and Library Studies in 2005 to the School of Information Resources and 
Library Science (SIRLS), had as its overarching goal to ensure that the 
work of librarians, described above, extends into Hispanic and Native 
American communities, historically communities that have not had access 
to library and information services, and also communities where 
information is vital to improving and enhancing their lives.
    KR employed two strategies to achieve this goal:
    <bullet> Recruiting and educating Hispanic and Native American 
graduate students to be librarians, including coursework that focuses 
on library and information issues and services from Hispanic and Native 
perspectives.
    <bullet> Providing opportunities for KR students to participate in 
outreach and workforce development by mentoring high school students in 
health information-seeking skills and showing them firsthand the power 
of information to change lives. In addition, the mentor/mentee 
relationship provides role models for Hispanic and Native American 
teens and makes them aware of the routes through college and graduate 
school available to be health care professionals or library and 
information professionals.
    Each of these strategies will be described briefly.
    1. Recruiting and educating Hispanic and Native American graduate 
students to be librarians, including coursework that focuses on library 
and information issues and services from Hispanic and Native 
perspectives.
    During the period of this grant, 52 Knowledge River scholars were 
recruited, 19 Native Americans and 33 Hispanic/Latinos. The grant 
exceeded its projected outcome by four students. Thirty students have 
already graduated, and when the remaining students graduate, we will 
have met our target goal of graduating 45 Hispanic and Native American 
librarians. These librarians are well trained in the fundamentals of 
Library and Information Science, in library and information services 
from Hispanic and Native American perspectives and in the use of 
information technology to find and use information.
    The importance of adding nearly 50 Hispanic and Native American 
librarians during this grant to the workforce of trained professional 
librarians cannot be underestimated as an essential part of providing 
library and information services to these cultural communities. Only 2% 
of librarians are Hispanic and less that 1% are Native American, 
according to a recent study by the American Library Association based 
on the 2000 census. Increasing the number of these librarians is vital, 
because ``institutions must have the face of the communities they 
serve,'' according to Patricia Tarin, who helped start the program and 
was its director from 2001 to 2007. Again from Patricia Tarin: ``For 
many people who don't have access to books and technology, libraries 
can be the gateway for information, knowledge and empowerment. But many 
won't use a library if there's nobody there who shares their culture or 
speaks their language.'' (Appendix 4: Tucson Citizen, January 4, 2007).
    And a 2006 study conducted by researchers at the School of 
Information Resources and Library Science demonstrates that having 
Hispanic and Native American librarians in libraries DOES increase 
services to these communities. Although the data indicate that 
information services to Latino and Native American cultural communities 
among institutions employing Knowledge River graduates remains 
problematic, fully 80% of the respondents indicated that they 
personally provide information services to these cultural groups, and 
more than half report that they or their institutions are offering new 
services to these communities since beginning their employment. 
(Appendix 1: Fulton, Tarin, Bradley, 2006).
    2. Providing opportunities for KR students to participate in 
outreach and workforce development by mentoring high school students in 
health information-seeking skills and showing them firsthand the power 
of information to change lives.
    The WE Search (Wellness Education) program is one of the highlights 
of the Knowledge River program. I strongly suggest that you glance 
through Appendix 3, which is the summary of the program in the KR 
students' own voices. This is authentic testimony to the truly amazing 
accomplishments of both the KR graduates and the WE Search high school 
students in the six-month program.
    I also suggest that you visit the website created by the KR 
graduate students and the WE Search high school students, showing 
graphically who they are, what they did, and an annotated list of 
trustworthy health information resources they discovered. The url is 
http://wesearch07.googlepages.com/. Another way to experience the 
authentic voices of both the KR graduate students and their high school 
mentees is to visit the blog they created as the course progressed. 
http://wesearch.wordpress.com/
    Highlights of the program are described below:
    <bullet> The WE Search program is a partnership of the Knowledge 
River program and Sunnyside High School, a high school of predominantly 
Latino and Native American students. The KR graduate students served as 
mentors to the high school students.
    <bullet> The KR graduate students prepared for their role by taking 
two graduate courses during the summer, one on health disparities and 
cultural competencies, and another on health information resources.
    <bullet> The KR graduate students and their high school mentees 
participated in a week-long summer institute, filled with bonding 
activities, fun and games, and also serious learning. The high school 
students learned presentation skills and other information technology 
skills, while the KR graduate students were instructed in teaching 
skills.
    <bullet> During the fall semester, the KR mentors and mentees met 
in small groups once a day. The KR graduate students themselves met and 
planned the curriculum and the teaching modules so that all the high 
school students received the same material.
    Topics and activities were:
    <bullet> Health disparities and valid resources documenting these 
(Center for Disease Control, U. S. Census Bureau, etc)
    <bullet> Learning about free, authoritative resources addressing 
health disparities (Medline Plus from the National Library of Medicine, 
etc)
    <bullet> Creating information pamphlets for their peers and giving 
presentations to classes
    <bullet> Taking information to the community through outreach 
events, such as
      - Junior Scientists Kids Day at the University of Arizona
      - Tucson Hopefest
      - Academic Night at Sunnyside High School
    <bullet> Creating a permanent web resource documenting what they 
had done
    <bullet> The KR graduate students took their high school mentees on 
a field trip to a predominately Latino neighborhood library that had an 
after school program for children and teens. The high school students 
got right into the spirit, playing games and Dance Revolution with the 
kids. This gave them a firsthand view of the role many libraries are 
playing in their communities by providing safe places for children and 
teens to congregate and constructive games and activities for them, 
often when there are no other such services in the community.
    <bullet> Outcomes: All the high school students reported that they 
had a new understanding of the importance of health information and the 
roles librarians could play. Several indicated interest in health 
careers or careers as librarians or information professionals. All the 
KR graduate students can serve as consumer health information 
resources, no matter what type of library they choose.
    We at SIRLS and Knowledge River are very proud of our Knowledge 
River graduates and all they have accomplished, and will accomplish, 
and it is our pleasure to share these accomplishments with you.

                              APPENDICES:

1. Knowledge River: Community Impact and Service to Latino and Native 
        American Cultural Groups. This is a study of the impact of KR 
        graduates on their workplaces and communities after graduation.
2. WE Search Final Report. This is a report written by the Knowledge 
        River graduate students, summarizing what they and their 
        mentees did, and their evaluation of the success of the 
        program.
3. Turning the Page. This is an article that appeared in the student 
        newspaper, the Arizona Wildcat, in 2007 about the Knowledge 
        River program
4. UA Pushes for More Minority Librarians. This is an article that 
        appeared in the Tucson Citizen, a local Tucson newspaper, about 
        the Knowledge River Program
                                 ______
                                 
    Chairwoman McCarthy. Thank you for your testimony.
    Dr. Jolly?

STATEMENT OF ERIC JOLLY, PRESIDENT, SCIENCE MUSEUM OF MINNESOTA

    Mr. Jolly. Madam Chairwoman, Mr. Davis, distinguished 
members, counsel, and guests, thank you for allowing me to be 
here today to talk about what I believe is one of the most 
essential parts of serving our community, helping us advance 
all forms of literacy. And for the Science Museum of Minnesota, 
that literacy includes science, technology, engineering, and 
math. And when I speak of science, I refer to all of these 
literacies as essential literacies.
    We believe these literacies are essential on many 
dimensions, too; chief among them, these literacies are 
essential for civic engagement. At a time when our nation is 
confronting issues about E-85 ethanol, about the use of 
genetically modified organisms, nanotechnology, stem-cell 
research, vaccination challenges in our schools, having a 
citizenry that is informed on issues of science literacy is 
essential.
    It is also essential not simply for civic participation, 
but for economic participation. We are looking at--three out of 
five jobs in the future economy that will pay more than minimum 
wage are going to require more than a passing knowledge of the 
STEM disciplines. Yet, this essential literacy is neither 
equitably nor broadly distributed.
    It is a shame that when surveyed by the National Science 
Foundation, fewer that 48 percent of Americans could identify 
accurately that it takes the earth 1 year to revolve around the 
sun. These are our voters. We owe them better than that.
    Civic participation, economic participation, needs to be 
broadly disseminated, and it needs to be equitably 
disseminated. We see an equity challenge in the achievement gap 
between minority and non-minority students in math and science 
scores, between rich and poor. But we also see an aspiration 
gap, with fewer women entering engineering today than any time 
in the last decade.
    The role of museums has never been more relevant to the 
future of this country's well-being. And the opportunities that 
they have to enforce change is dramatic. Consider this: School 
day is 6 hours, school year 180 days; less than half a year, 
less than a quarter of day. Add in some absenteeism, and by the 
time a child graduates from high school, they will have spent a 
remarkable 9 percent of their life in school.
    Schools do a remarkable job with 9 percent of a child's 
life. They spend more than a third sleeping. Roughly 3 percent 
eating, occasionally bathing and other life skills, leaving 
more than 42 percent of their life un-programmed, with an 
opportunity for museums and libraries to reach into their homes 
through their community and through their experience, to 
inspire them.
    We could do many things. When researching what it takes to 
help students achieve in the stem disciplines, it was very 
clear--research funded by the G.E. Foundation that there are at 
least three essential elements that must appear at some level 
in every child's life. There must be engagement. They must have 
the spark, the curiosity, the interests to pursue these 
disciplines.
    But if they are engaged but we haven't given them the 
capacity, if we haven't given them the knowledge and skills to 
advance to more rigorous disciplinary content, they can't go 
on.
    If you fail algebra I, you are not going to pass A.P. 
Calculus. We need to get kids excited and engaged. We need to 
give them the capacity, and we need to point the way for 
continuity, so that they have taken the programs necessary to 
advance to the next level.
    We need children on track for the mathematics of their 
future, not the mathematics of our past. And we need to, at the 
level of each child, partner with institutions that can, like a 
science museum, spark that engagement and curiosity; that can, 
like a library, assure a level of capacity; that can, like any 
other community center, provide continuity.
    We need to do this in many ways. We need to do this out of 
our building, as well as in our building. At the Science Museum 
of Minnesota, we placed learning centers in low-income-housing 
community centers, so that preschool children can come in and 
just play with science and the ideas of science; their own 
laboratories, their own places to learn.
    We involve parents in giving them hopes and dreams for 
their children's future. We work with over 100 United Way 
agencies and allow them to deliver tickets to the Science 
Museum--low-income memberships--so that everyone who walks 
through the door with a ticket to our museum, whether they get 
it through an agency that served them, or through our box 
office, walks in with the same ticket and the same credibility.
    We want to serve our people by being in their community.
    In summary, we know that we have a tremendous opportunity 
to advance what I believe is the most liberating force in human 
development, education; whether it happens formally or 
informally, in the 9 percent or the 42 percent. And we can 
advance that when we start attending to who informs our work 
and diversify who gets to set our agenda and tell us what is 
needed next--who forms our work; who actually constructs the 
product that we bring into our communities, and we start 
measuring who benefits from the work.
    We will close the achievement gap. We will close the 
aspiration gap. And we will do it because we are a trusted 
member of a community, and we have the passion to serve. Thank 
you.
    [The statement of Mr. Jolly follows:]

 Prepared Statement of Dr. Eric J. Jolly, President, Science Museum of 
                               Minnesota

    Chairwoman McCarthy, Ranking Member Platts, and members of the 
subcommittee, thank you for inviting me here today. My name is Eric 
Jolly, and I am the president of the Science Museum of Minnesota. I'm 
grateful for the opportunity to discuss the role that museums and 
libraries can play in strengthening our communities. At the Science 
Museum of Minnesota, we reach well over a million people each year 
through visits, training, classes and outreach, but we strive to always 
increase the quantity and quality of our relationships. Our challenge 
and opportunity is to use our deep capacity, even more fully, in 
response to the nation's quiet crisis in science and math education: We 
continue to believe deeply that science is an essential literacy for 
civic and economic participation.
    Science and technology based industries represent the fastest 
growing segment of our economy and the highest paid jobs in our future. 
In the next decade, three out of five leading employment growth 
opportunities will require a capacity in science and mathematics. We 
must equip the next generation for their future, not our past; it is a 
future highly reliant on science and mathematics literacy. Citizens 
must be able to ask the important questions and engage in sound and 
equitable public policy. Science is an essential literacy and we must 
address the fact that this literacy is neither widely nor equitably 
distributed and this deficit threatens the quality of life for our 
nation.

Nine Percent
    Science museums--like libraries and other places of informal 
learning--play a critical role in education. Consider that, by the age 
of eighteen, a child will have spent, at most, nine percent of his or 
her lifetime in school. If a child spends about six hours a day in 
school, for each of the one hundred and eighty days of the school year, 
he or she will spend little over one thousand hours in school in a 
year. And that doesn't include homework. And it assumes perfect 
attendance.
    Nine percent of a childhood is a great deal of time for one single 
activity such as schooling. But from the perspective of examining all 
opportunities for learning, it's a small number. I consider it 
commendable that schools have such an impact after only taking nine 
percent of childhood. But even allowing for sleep, play, and social 
development, that still leaves a large portion of a child's life that 
can be filled with joyful learning. The kind of learning that happens 
with their families, in the community, in libraries, in museums.

Trust
    Museums have earned a place of trust in the community. A seminal 
study in 1999 by Lake Snell Perry & Associates found Americans trust 
museums above all other sources of objective information--above books 
and television, and far above newspapers, the Internet, radio, and 
magazines. Why this high level of trust? Because museums care for our 
most precious collections, interpret our history, are research-
oriented, and they deal in facts. And families follow through with 
action--one-third of Americans say they have visited an art museum, a 
history museum, an aquarium, zoo, botanical garden, or science and 
technology center within the past six months.
    I think I can speak for my colleagues across the country when I say 
that we take that trust very seriously. And we're working to leverage 
it, and find new ways to increase the quantity and quality of science 
learning and nurture healthy communities. Not surprisingly, most 
people's impression of museums is of our exhibit galleries, and we 
continue to develop exhibits that engage and excite. But some of the 
most innovative work is being done outside our institutions, in our 
communities, and beyond.

Relevancy
    Relevancy is at the core of what we do. How do we achieve 
relevancy, and to whom? Museums are always striving to increase the 
value and reach of our programming to support individual engagement in 
the sciences--especially through families. Being relevant and 
interesting to an adult audience, we're expanding the range of those we 
serve through our exhibits and public programs. At the same time we are 
working to broaden the diversity of the community we reach both inside 
our facilities and beyond.
    In addition to individuals and families, we've created partnerships 
that provide relevancy to formal education, at its core a focus on 
educators, administrators, and the programming that supports student 
outcomes.
    And we're making new strides in our relevancy to policy makers--
governing officials, business leaders, foundations, and individual 
thought leaders in our community who can use our expertise to make 
informed decisions with respect to public policy.
    I'd like to share some examples of partnerships and programs that 
have been especially innovative, successful, and worthy of replication.

Achieving Relevancy to Individuals: Talking Circles
    One of my proudest moments in our museum's galleries was when we 
opened the world premiere of the RACE exhibit last year. This touring 
exhibit--created in partnership with the American Anthropological 
Association will open later this month in Cleveland. It explores three 
themes: the everyday experience of race, the contemporary science that 
is challenging common ideas about race, and the history of this idea in 
the United States. As part of the planning for this exhibition, we 
created a program of Talking Circles.
    Talking Circles, as they were used in the RACE exhibit, are 
facilitated discussions for groups of 20 or less based on Native 
American traditions in which all participants are invited to reflect on 
their experiences in learning about and experiencing race as a factor 
in their lives and communities. The Department of Corrections in 
Minnesota has used this format successfully, and we saw it as a way to 
extend the learning in the exhibit to a group setting. Designed for 
business, community and government groups, and schools, the RACE 
Talking Circles are a valuable, non-confrontational way to explore 
difficult issues in a safe environment, as well as to learn a valuable 
communication technique.
    The museum offered two private rooms next to the exhibit for groups 
visiting the RACE exhibit to continue the learning opportunity afforded 
by the exhibit experience. Because the museum trained Circle Keepers 
from local United Way agencies to facilitate the discussions those 
skills are now used in dozens of non-profit agencies across the 
community, creating an enduring legacy of capacity-building. The 
results were deeply gratifying--more than 4,000 visitors participated 
in Talking Circles, and nine out of ten participants would recommend a 
Talking Circle to others coming to see the exhibit. The Talking Circles 
were funded in part by an IMLS grant, and we appreciated the 
opportunity to bring a new form of learning to the museum experience, 
and one that has gone on to other communities across the country.
    I learned how I want to be treated and how others want to be 
treated. We are not all the same but shouldn't be treated differently. 
(Age 12, African American/White female)

Great Partners and Great Tix
    Museums are always striving to serve as many visitors as possible, 
and we don't want income to be a barrier. Since 1996, the Science 
Museum of Minnesota has offered reduced-rate admission to families with 
limited-incomes. The museum is theirs for a dollar. The Great Tix 
program encourages them to visit the museum on any day and any time of 
their choosing.
    In 2002, the museum began collaborating with community 
organizations across the Twin Cities and the state in a program called 
Great Partners. In exchange for recruiting at least 10 families to sign 
up for the Great Tix programs, these Great Partner agencies receive a 
batch of free vouchers to be used as they wish for their clients, their 
staffs, or their supporters. Some organizations use the vouchers to 
bring clients as a group, some distribute them to individuals--we don't 
care how they're used. We see ourselves as a resource to our 
community--ALL of our community. The majority of low-income visitors 
who come the first time through one of our Great Partners then sign up 
to be a part of the Great Tix program. A second program for families 
with limited incomes--Great Membership--offers the same benefits as our 
regular membership, but at half price.
    Thanks to the active engagement of the Great Partners the museum is 
signing up 240 families or individuals a month for the discount cards, 
and 50 families a month for memberships. And those card holders are 
using the museum--21,000 parents and children each year, people who 
would otherwise not visit this museum.
    PRISM is also delighted to request a Great Partner status with the 
Science Museum of Minnesota. The families we work with are very 
deserving and are struggling to maintain a sense of dignity about their 
situations. I find it truly gratifying that you have designed this 
Great Tix program to encourage use of your center by a wider and 
perhaps more economically diverse audience. Not identifying our 
families as ``different'' from any other family visiting your museum 
will add to their enjoyment and ultimate success of your program. PRISM 
(People Responding in Social Ministry), Minneapolis

Mentor Buzz
    There is tremendous resource in the community in the form of 
dynamic, experienced adults with a wealth of knowledge to share. Mentor 
Buzz, a collaboration among the Science Museum of Minnesota and the 
Mentoring Partnership of Minnesota and GE Foundation, is a unique, web-
based program to bring those adults together with youth in search of 
knowledge and guidance. Mentor Buzz creates on-line features and 
resources for mentors and youth, designed to increase exploration and 
interest in science, technology, engineering, and mathematics (STEM). 
The mentors and youth engage using Science Buzz, an award-winning 
website devoted to developing, growing, and sustaining an informal on-
line learning community centered on current science topics.
    Mentor Buzz builds upon the ongoing efforts of the GE Capital 
Solutions employee volunteer mentoring program with Minneapolis 
Roosevelt High School. With funding support from GE, mentors will 
continue to play a critical role in piloting and evaluating the use and 
impact of Mentor Buzz. Other GE sites across the country will be 
invited to participate in a national rollout of Mentor Buzz in 2009 & 
2010.

Learning Places
    It can be challenging to reach deep into communities to provide 
support. Learning Places brings learning home--literally. Funded by the 
National Science Foundation this program hires teenagers from local 
community organizations serving underserved populations to work in 
teams to design science learning environments for children. Through 
this work teen participants bridge the museum and community 
organization cultures to make science learning accessible to their 
communities. SMM has recruited and hired teens from community centers 
in St. Paul, MN that largely serve low-income, African American, Hmong, 
Somali and Hispanic populations. Once hired, teens receive extensive 
training and support as they work collaboratively with museum and 
community partners to design, develop, evaluate and create hands-on 
activities and environments rich in STEM content for nine after-school 
centers. The Joe Eriggo award was given to the Learning Places team by 
Common Bond in fall 2007 in recognition of contributing to community 
well-being.
    CommonBond Communities in St. Paul, a nonprofit that develops and 
manages affordable housing and supports education and health--was our 
partner in using their staff of 150 to guide the team of 9 teens who 
over a year's time engaged more than 150 youth in hands on activities. 
For instance, one activity used an air tube in which a fan blows air 
through a vertical plexiglass tube. Children made simple air foils of 
different shapes to see what would happen when they were dropped into 
the tube. They made predictions, experimented to see what would happen, 
and then changed the shape of the object to experiment again.
    In this, the final year of the project, the youth team's work will 
end and the focus will move to supporting 5 small science centers 
nationally who will draw from lessons learned in the first 3 years and 
develop their own unique projects. We look forward to helping launch 
Learning Places at museums including Explora! In Albuquerque, New
    Mexico, Headwaters Science Center in Bemidji, Minnesota, Sci-Port 
Discovery Center, Shreveport, Louisiana, Lower Hudson Valley Challenger 
Learning Center, Airmont, New York, and the Pacific Science Center in 
Seattle, Washington.

Collector's Corner
    One of the most popular exhibit areas of the Science Museum of 
Minnesota is a unique participatory program called the Collector's 
Corner. It is a natural history trading post for kids of all ages where 
participants can explore natural science by bringing in things they 
find in nature: rocks, shells, snake skins, skulls and bones, insects, 
or plant pieces.
    Traders tell the museum staff what they know about the objects they 
bring in and earn points for their objects and their knowledge about 
them. The more they know, the more points they earn. Traders can then 
use those points to trade for other natural objects displayed in the 
Collector's Corner, or they can save their points for a future visit. 
There are more than 11,000 active traders, with 45% being girls, 55% 
being boys and most between the ages of 4-14. The Collectors Corner 
reinforces both children's and adult's natural curiosity about the 
world, and teaches important lessons about the ethics of collecting, 
conservation, and environmental stewardship.
    As a tribute to its success, the museum is initiating a pilot 
project to establish several satellite Collector's Corners to be run 
collaboratively through urban and rural Minnesota libraries. Libraries 
are the perfect partners for the museum: they are highly popular and 
accessible destinations for families (including large numbers of under-
served families), they are reference repositories, and they boast 
knowledgeable staff that can help children find more resources. Library 
administrators are strongly interested in offering more programming 
related to science, technology, engineering and math, and the 
Collectors Corner offers a unique opportunity for serving that 
important public education agenda.

Achieving Relevancy to Educators: Science House: A Resource for 
        Teachers
    Our relationship with teachers goes back decades. But we recently 
started an exciting new chapter in our partnership with formal 
educators. Science House was created to provide a vibrant, professional 
home for teachers at the Science Museum of Minnesota. The resource 
center provides curricular materials loans, formal and informal 
consultation, professional development program support, and community-
building.
    In its inaugural year, it has been very well received by 
participating school districts, and we are confident this program will 
create fruitful partnerships between the museum and teachers, and among 
teachers themselves.
    Curricular Materials Loans: The museum provides loans of materials 
that can be used in the classroom, but may not be available to district 
instructors--materials like 15 medical-school grade Leica compound 
microscopes, 40 student field microscopes, three 6-inch reflector Orion 
telescopes, skulls of 120 different animal species, and 184 Vernier 
probes. Current materials focus on science standards and amplify 
resources through the Museum that would either not be available (such 
as de-accessioned artifacts from SMM collections) or be cost-
prohibitive from a school or district standpoint.
    Informal & Formal Consultation: Teachers can drop-in for support on 
lesson design, identification of resources, and potential partners or 
programs. After-school and in-service workshops and seminars on 
specific topics or grade levels are available for more formal support.
    Program Support & Integration: Science House is integrated with 
professional development programs from our museum and our partner 
institutions to provide seamless continuity of service. Follow up 
workshops are vital to incorporating the skills and relationships that 
begin at Science House.
    Social Networking & Community-Building: Science House is a place in 
which educators can network across grade-levels, schools, districts, 
and institutions. We strive to support new teachers and promote teacher 
retention
    Initial support from 3M launched the program, and a special state 
appropriation for teacher professional development has allowed to allow 
the Museum to expand our discipline focus so math and engineering 
instructors, as well as science teachers, can be part of our 
programming.

TRIBES
    TRIBES (Teaching Relevant Inquiry-Based Environmental Science) 
works to increase the number of Native American middle-school students 
taking science courses and going on to pursue post-secondary science 
degrees, ultimately to have careers in the science disciplines. In 
2004, the museum began working with public schools, tribal colleges, 
and universities in northern Minnesota on an innovative program to 
better serve Native American science learners. TRIBES was designed to 
enhance science teachers' ability to teach inquiry-based science and 
increase cultural awareness by integrating indigenous ecological 
knowledge of the Anishinaabe into science curricula, with the 
environment of the Headwaters region--the source of the Mississippi 
River--as the unifying context.
    The 24-member cohort of TRIBES teachers met each summer in July for 
two weeks and on three Saturdays during the school year, usually on the 
Bemidji State University campus in northern Minnesota. During the 
summer institutes, faculty from BSU led participants in a variety of 
field and laboratory investigations, including sessions on cultural 
knowledge and on classroom practice. School year sessions mostly 
focused on cultural topics or activities, featuring stories, a day 
harvesting wild rice, and another day maple sugaring.
    The partnership has recently been expanded to include a much 
broader geographic reach and to include teachers of younger students. 
The new cohort includes 30 teachers; twenty of the participants are new 
to the program, 10 are returning. The summer program is now split 
between Bemidji and Saint Paul, continuing to use the Mississippi River 
as the central context, now using different points on the river to 
explore spatial and temporal differences.

Achieving Relevancy to Policy Makers Brighter Futures
    We all know there is a period of tremendous opportunity in the 
first years of a child's life. A new program promises to draw together 
early childhood efforts in exhibits, research, and public policy in 
exciting new ways. The Science Museum of Minnesota, partnering with the 
Center for Early Education and Development at the University of 
Minnesota is launching Brighter Futures: Public Deliberation about the 
Science of Early Childhood Development. This ambitious project will use 
small group conversations, citizen conferences, and public forums, 
along with a highly interactive 1,600 square-foot, exhibition, and two 
research studies. We aim to engage policymakers, the general public, 
and caregivers in conversations around the latest early childhood 
development research. And as each component is completed, audiences 
will better understand how environment and experience impact a child's 
development and what we as a society can do to support our youngest 
citizens.
    Brighter Futures specifically addresses the needs of caregivers in 
the region who are supporting the young children of a rapidly growing 
Hmong, Somali, and Liberian immigrant communities. Partnerships are 
critical to reaching the community, so we are collaborating with 
Minnesota Head Start and the Minnesota Brain Conference led by the 
White Earth Band of Ojibwe, to extend our impact. I'm excited about how 
it can be useful to our visitors and our community, but beyond its 
impact in Minnesota, the study will shed light on how museums can 
engage the public in dialogue on science-related issues, and how 
legislators apply the exhibit and programming experiences to policy. 
Brighter Futures is driven by an underlying commitment to expanding the 
civic engagement role around this urgent social issue of early 
childhood development.

Plotting a Course for the Future
    So taken together, what do all these projects mean? Museums are 
working to take science learning beyond our walls and into communities 
around the nation, and we're doing it with a guiding philosophy of 
integrated community involvement.
    In 2006, I co-authored a study on education and careers in science, 
technology, engineering and mathematics (STEM). The report, titled 
Engagement, Capacity and Continuity: A Trilogy For Student Success, 
analyzed why successful individual reform efforts have not led to 
broader increases in students achieving at high levels nor entering 
science and math oriented careers and identifies three components 
necessary to increase success in quantitative sciences:
    Engagement--an awareness, interest, or motivation (the spark) 
Capacity--the knowledge and skills to advance in increasingly rigorous 
subject matter (the skills) Continuity--opportunities, resources, and 
guidance to support advancement (the pathways)
    The report maintained that when any one of the ECC components is 
missing, student achievement falls off. Essentially, while many 
programs have supported individual components of engagement, capacity, 
and continuity, there has never been an effort to integrate all three.
    My co-authors and I gave recommendations based on the ECC Trilogy 
for what educational policy makers, sponsors, curriculum/program 
directors, evaluators, district/school administrators, teachers, 
museums and other informal science institutions can do to bring about 
student success in the sciences and quantitative disciplines in their 
realm of influence.
    That study has helped direct my leadership of the Science Museum of 
Minnesota, as I've sought the kind of partnerships that can guide 
students from the earliest awareness of science to gaining the 
necessary skills and then the fulfillment of the potential as they 
navigate challenges in academics and careers.

Building Healthy Communities
    At every turn, libraries and museums offer the resources to spark 
imagination, access greater knowledge, and learn where to go next for 
mastery of skills. The ECC trilogy of success outlines the strategies 
at the core of how museums and libraries can strengthen their 
leadership in partnership, and nurture a healthier community.
    Museums can and must grow and change, providing real value as part 
of a larger effort in order to remain relevant. We will never stop 
being a destination, but must also be a part of the fabric of learning 
throughout the community--partnerships with libraries, formal learning, 
community groups. We are committed to being at the forefront of making 
our communities more scientifically literate, more engaged, and 
prepared for the challenges of the 21st Century.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much, Mr. Jolly.
    I have to say, after hearing your testimony--and I have had 
the privilege of, because of the position of my job, going into 
libraries, going into our museums--especially, our children's 
museums--they are certainly not the museums that I grew up 
with. Everything is hands-on, opening up the eyes of our young 
children, and our adults, by the way, when they bring their 
children to be able to see science physically, and touching.
    I find it a just totally amazing. So we are making a good 
step. We have a long way to go, especially with the young 
people, and with the way they are learning today versus the way 
I learned as a child. And we have to keep pace, because the 
world they are facing--for the economy and the security of this 
nation--we have to go forward.
    And I do believe we are starting that track. And we have 
got to make sure that we continue. That is our job. And, 
hopefully, this committee and all the other committees of 
education will do that.
    I would like to start with my first question, as far as Dr. 
Radice.
    You stated in your written testimony that collections are 
at a risk. What are you doing to ensure that collections are 
maintained?
    And, obviously, with all the flooding that we have seen, 
the storms that we have seen--not even here in this country, 
but in other countries--seen things wiped away. I mean, we are 
not talking about 1 foot, 2 foot. We are talking about extreme 
flooding. New Orleans is probably a perfect example, when I 
think about what was lost there in the history of that 
particular area.
    Ms. Radice. As I mentioned, Madam Chairwoman, we began an 
initiative, and been very active in something called 
``Connecting to Collections.'' And it is more than, you know, a 
lot of air time about the situation as we found it, but, 
rather, on-the-ground, practical help.
    We have taken our message across the country. We have five 
national forums that deal with very specific types of 
conservation issues. In Atlanta, we dealt with special 
collections--Native American, African American. In Denver, we 
dealt with how to digitize, and the whole--how to preserve 
information--especially useful for archives, libraries and, of 
course, the records of museums, and visual records.
    We will be dealing with living collections in San Diego. We 
will be dealing with job creation and training trustees and 
training new conservators and people to take care of objects in 
Buffalo, New York.
    But we have also developed a network. I am especially 
committed to small-to-mid-sized organizations. They don't have 
the funds readily available. They might not even have a staff 
member capable of doing some of the work that is needed for 
preservation.
    So we have developed a network. People get to know each 
other. We provide materials for reference. Bringing people 
together in these convocations--now, they have phone numbers. 
People will take their calls. It is really a very strong 
grassroots-type of operation.
    Also, we have been very fortunate. Bank of America has 
entered into a partnership with us to give small grants to 
these smaller organizations. So they can take an object, a 
book, whatever, that, in a way, synthesizes what that 
collection is about, and highlight it, restore it, show it to 
the world. It is about getting engaged and putting this kind of 
preservation as one of the priorities of collections 
management.
    So, yes, it is a hard row to hoe. And you saw the video. 
And thank you for presenting it. But we have made some real 
progress. And the next video, I think, will be even--we will be 
able to lower some of those figures.
    Chairwoman McCarthy. That is what we like, going forward.
    Ms. Radice. Yes.
    Chairwoman McCarthy. Ms. LeBlanc, in your written 
testimony, you discussed the necessary casework and staff buy-
in of your collaborates to achieve program success. Can you 
describe to us the process and some of the challenges you 
encountered, and how you overcame those challenges?
    When you and I talked several months ago, and the program 
had, basically, started, I mean, number one, I thought it was 
brilliant. But if you could go into what the challenges you 
faced----
    Ms. LeBlanc. Sure.
    From the very beginning we realized, just before we wrote 
the proposal, that the development of the partnership was as 
important as anything else we were doing, because we were a 
museum entering a system--a government system--that has a 
certain way of doing things, and its own challenges.
    So we wrote the proposal with the county Department of 
Social Services and Family Court, and spent a lot of time with 
them in their proposal planning--started to build the 
relationship with all the department heads, that I talked 
about, that visited--Family Court judges.
    I went to Family Court with that judge to see what that was 
like. And it was really, emotionally, a very, very tough thing 
to see. But, also, what I saw was that this Family Court system 
was really trying to work with a very positive way. And it made 
it clear to me how strong the need was, and how much they 
wanted to work with us.
    As women came in, and most of the women who have had the 
children taken away, it is either because of drugs or partners 
who have been abusive to children. And the women I saw were 
all--had been in drug programs. And when they came in, all 
those agencies that are now together in that Welcome Center, 
were there in the court, and supported the women as they 
reported that they had had a drug test and that the drug test 
was, I guess negative, if they haven't had any drugs. And 
everyone clapped and gave support to the women.
    And I was really impressed with the people working in that 
system, and what they were trying to do, and he changes they 
were trying to make.
    So we worked together on a proposal. And then one of the 
important things we decided is that we needed to meet every 
month. We needed to form a joint planning committee and meet 
every single month. And the head of Social Services made a 
commitment; Louise Skolnick--Dr. Louise Skolnick, the 
director--myself. I am part of the meetings.
    All those department heads and the Family Court personnel 
are all part of those monthly meetings. And it is hard to have 
an afternoon every month, where we all get together, but it 
builds our relationship and it keeps everything moving, 
because, as I said, there are a lot of crises with families and 
overworked caseworkers. And it is hard to stop and really try 
to do some things differently. So that meeting that we have has 
been very important.
    We have put together our National Advisory Committee, which 
gives some expertise and, also, some real energy, when we bring 
them in, for local folks that we are working with. That was 
really important.
    The things I described--some of the programs, as we went 
along, came out of beginning the work. The redesign of the 
welcome center--we had thought about it, but hadn't put too 
much thought into it when we started the program. And it became 
one of the central things that we are doing.
    When we went to visit at--it is--there are two tiny rooms, 
white walls, bare, a box of toys with no organization--some of 
them broken, no one keeping them up. And then families come 
into that, that are already separated from their kids and 
having difficulty, and don't know what to do when they have a 
social worker watching them.
    So this has been one of the most exciting things that we 
have been working on. We had our exhibits designer work with 
their staff, and we did a prototype thing. We did focus groups. 
And they are installing it now. And there is this giant 
storytelling chair that parents can sit in. I mean, you press 
it, it says, ``Tell me a story.'' And there are books there. 
And kids can crawl underneath, as well, if they are active. And 
the minute you walk in, it is really--people have described it 
as being, really, a fun thing that they can start working with 
their kids on.
    There are ceiling murals that a designer painted; a 
different kind of paint and lighting; furniture that is easy to 
clean. The other furniture was hard to clean. That was one of 
the big challenges--was trying to get that supervised 
visitation at the county to be more positive.
    From there, we are working with families that are able to 
do supervised visitation at the museum.
    It is tough to enter that system and try to make change. 
And we had to be patient with--when things are, you know, 
preempted or slowed down. And they had to be really committed. 
And, I have to say, after a year, the relationships are very 
strong. But it is not the easiest thing we have done, but it is 
very rewarding.
    Chairwoman McCarthy. Thank you very much.
    My time has expired.
    Mr. Davis?
    Mr. Davis. Thank you, Madam Chairwoman.
    And I would like to say, of all the hearings that I have 
attended, this is one of the best panels that I have had the 
opportunity to hear from. You have done a wonderful job--great 
testimonies. Thanks for what you do in your communities.
    I would like to start with Dr. Radice, if I may.
    You talk about, in your testimony, ``IMLS is a primary 
source of federal support for all the nation's libraries and 
museums.'' Other than by financial means, how does IMLS support 
libraries and museums?
    Ms. Radice. Because of the expertise that is found at the 
agency, many of our program people are former museum directors 
or state librarians--we are able to provide assistance that 
way, which is very practical.
    We sponsor a great deal of research. Librarian Zales 
mentioned the report talking about attendance, and the fact 
that the Internet and visitation actually help each other. We 
are engaged in the presentation of materials that can be used, 
for example, in preservation.
    Our Web site is fantastic. Tons and tons of best practices 
are there. Convening people--it is all about keeping up to 
date, and I think we do that very, very well. Plus, I am always 
very proud to say, when you call our agency, you get to talk to 
people, as opposed to a recorded answer tape.
    Mr. Davis. Thank you so much.
    You stated one of the IMLS goals is to enhance learning and 
innovation. How do you encourage libraries to incorporate 
technology, as well as traditional methods in educating 
children and adults?
    Ms. Radice. Technology is simply part of the daily 
operation now, whether it is through digital programming or 
providing up-to-date equipment or training for that. The 
mention was made of the Laura Bush 21 Program, bringing new 
librarians in, very--being very supportive of having 
technological experts in libraries, and in school libraries as 
well. And, simply, we are just part of looking ahead, as 
opposed to looking behind.
    I share the frustration that Madam Chairwoman has, because 
the way we went to the library, or the way we learned 
technology, is a whole different scene. So we try to have some 
of our younger staff members involved with that.
    Mr. Davis. Thank you.
    Ms. Radice. You are welcome, sir.
    Ms. Nunez, you mentioned the Laura Bush grant. Could you 
talk to me a little about that--just enhance that a little bit 
so I can understand it better; how it would help districts 
across America?
    Ms. Nunez. Sure.
    The grant was received by the School of Information 
Resources and Library Science. And so they created the 
Knowledge River program as an institute to recruit Native 
Americans and Hispanics to matriculate and earn a degree in 
library science.
    So it supported that. It supported students by way of 
offering scholarships for financial need for students who were, 
otherwise, unable to, actually, attend and earn a degree. It 
helped offset the cost of tuition, as well. But it also 
provides financial support, in terms of an assistantship in, 
particularly, library environments. So they are working and 
earning a stipend, or earning money, being in an information 
environment.
    Mr. Davis. Sounds great. Thank you.
    Ms. Zales, you mentioned that you have 280,000 readers in 
the summer. How do you get children--280,000 children in 
Pennsylvania--interested enough to read in the summer?
    Ms. Zales. Our Summer Reading program is, obviously, very 
successful. And we are very pleased that the teens that are 
coming into our program are coming in in larger numbers.
    I think it is of great note that, in the city of 
Philadelphia alone, there were 10,000 teens who are 
participating in our Summer Reading program. So not only does 
it have the advantage of increasing their reading skills over 
the summer, it also has the secondary benefit--it is keeping 
them engaged in the library, in the safe place.
    The Summer Reading program is the very first program that 
public libraries offered. It is over 100 years old. And it 
actually started in Pittsburgh, Pennsylvania. So we have 
history on our side; that there are generations who have 
participated in Summer Reading, and now have their children 
interested in it.
    I think part of the wonderful appeals of Summer Reading is 
they chose a very interesting theme every year. And it is a 
theme that young children and teens can all participate and 
find something interesting. And it is finding an interesting 
and engaging topic that will pull teens into the library and 
get them reading.
    Mr. Davis. Thank you.
    I had one last question. It is for Dr. Jolly.
    Thank you. I have an interest in a health and science 
background myself. I am a respiratory therapist. I own a 
health-care business.
    You talk about the three components necessary to increase 
success in sciences. Could you expand on that just a little 
bit, because we are running out of time?
    Mr. Jolly. Certainly.
    A few years ago, the General Electric Foundation 
commissioned several colleagues of mine and myself, including 
Patricia Campbell, to look at what we knew about what was 
successful. What did research tell us about successful outcomes 
for transforming student success in the quantitative 
disciplines, through programming funded by independent 
organizations and federal organizations?
    We wanted to find out that there was more--what we found 
out in the first case, was that there was precious little 
research. A lot of reform in education happens according to 
what Tom Kibler calls the ``pure of heart'' model: ``If my 
heart is pure and my intentions are good, I must be doing the 
right thing.'' The right thing doesn't always--the pure heart 
doesn't always lead to good student outcomes.
    We found that when we had good student outcomes, generally, 
the programming that was trying to transform the educational 
process had one or more of three primary goals showing up. And 
as we looked at the research, it was even more apparent that 
those programs that succeeded following one of those three 
goals, the program officers supported one of those three goals, 
the participants thought of those three goals, or sometimes 
more.
    We thought we should look at those goals. And the goals 
were quite simple. Capacity: Achieving the requisite knowledge 
and skills to advance to more rigorous disciplinary content. 
And the National Science Foundation, Office of Systemic Reform, 
put hundreds of millions of dollars into teacher preparation, 
curriculum materials, development and other programming to try 
and allow us to give students the capacity to advance to more 
rigorous knowledge.
    But you can have the finest teacher in the world and the 
greatest curriculum; if the child believes math is hard and it 
is not for them, if they are looking out the window instead of 
attending to the class, it doesn't matter.
    And so what students also needed, we found out, was 
engagement; an orientation to an interest, and a belief in 
their own efficacy to learn about these areas; knowing that 
science could be for girls; that science and math could be for 
any child. And so we have put tens of million dollars into 
programs like Operation Smart and Head Start. Girl Scouts of 
America have spent millions to try and get young people 
engaged.
    Today, the secretary of education has a program in New 
York, Chicago and D.C. aimed at getting young people oriented 
to and engaged in math and science, because we have to have 
them interested. We have to have that spark. And if we give 
them that spark and that interest, and the course and rigor 
that they have to develop the capacity to move to more rigorous 
knowledge, then what we need to assure is that they have the 
more rigorous knowledge; they have the continuity.
    We have called it ``systemic reform.'' We have called it 
many things. Over $1 billion, in the last decade, was spent on 
this in America.
    But the question was: Why does so much success--because all 
of these things that you fund, of course, we will write a 
report and say just how successful we were--why is it that all 
this success doesn't add up to more progress?
    And what we found when we looked at the research was that 
when we did a program for engagement or capacity or continuity, 
it worked, if, by happenstance, the other dimensions were 
already there. And what we need is an intentionality that 
coordinates at the appropriate level for each child, an 
assurance that they are engaged; that the capacity is there, 
and that the continuity, whether it is a knowledgeable and 
caring adult who can help them manage the field, or a 
curriculum or advisors in school, or the existence of A.P. 
calculus--that those continuity aspects are also in place.
    Let us be certain. If a child doesn't take algebra in 
eighth grade--and only 27 percent of American students take 
algebra in eighth grade--they cannot be on track to take A.P. 
Calculus. And without A.P. calculus, they will not be able to 
enter into a traditional engineering for 4 years, in which we 
provide support. That means that three out of four American 
students are off-track to be engineers before they can spell 
the word, in eighth grade.
    And so we need to engage them; give them an interest, a 
spark, a joy. Museums and libraries do that well. We need to 
provide the capacity by supporting the teachers, formal 
education, parents and programs that give them the requisite 
knowledge and skills. And we have to assure that, in their 
community, is the continuity that will move them along, put 
them on track for the most successful mathematics.
    We know that the number one predictor of college graduation 
is the number of math courses taken in high school. The top 
five performing states in America--57 percent of their students 
are taking algebra in eighth grade. We can make a difference.
    And our student-graduation rate from college reaches 79.8 
percent in 4 years, for students who have had 4 years of high-
school mathematics, regardless of whether that degree is going 
to be in fine arts, literature, biological sciences, 
respiratory therapy, or physics.
    It is a way to teach children how to think, gain 
discipline, and have an assurance that is staying in--in 
China--that trips off the tongue in far too many students--more 
than in the United States. In the United States, our students 
will tell you, ``Birds of a feather flock together,'' and, 
``Opposites attract,'' and we know both can't be true. In 
China, they will say, ``With knowledge of chemistry, physics 
and math, I can stand anywhere without fear.''
    That confidence from being a successful learner comes when 
our institutions engage them, give them the spark, ignite the 
curiosity and put them into a system that can help them 
succeed--engagement, capacity and continuity in every student. 
Thank you.
    Chairwoman McCarthy. Thank you.
    Ms. Clarke, my colleague from New York?
    Ms. Clarke. Thank you very much, Madam Chair and Ranking 
Member Platts.
    This has been a very engaging hearing. And I am thankful to 
all of you for coming. I am a beneficiary of a very enriched 
environment. I happen to represent a district that has the 
Brooklyn Museum, the Brooklyn Children's Museum, the Brooklyn 
Jewish Children's Museum, the main branch of the Brooklyn 
Public Library, and about 12 local branches, as well as the 
Weeksville Museum.
    And born and raised in this district, I was a beneficiary 
of all of those institutions, with the exception of the 
Brooklyn Jewish Children's Museum, which is one of our latest 
additions.
    So what we are talking about today is really, really--hits 
home for me. I was also a former New York City Council member. 
So I participated in the financing and the growth and 
development of all of these institutions.
    Coming from an environment that is rich, that has a long 
history of developing cultural institutions, museums and 
libraries, one of the challenges that I have found for our 
community is actually not just the preservation and growth and 
development of programming, but capital improvements. How do we 
maintain the facilities that house all of these programs, all 
of these materials?
    And so my question to you, Dr. Radice, is: What kind of 
grants does IMLS provide to support museums and libraries that 
implement programs for at-risk and disadvantaged communities? 
And is their preservation extending to capital improvements as 
well?
    Ms. Radice. Unfortunately, we do not support capital 
improvements. There are other avenues to pursue that. We often 
give hints to people on where they might seek some help. And, 
certainly, that is a real issue.
    With the preservation of collections, has to come good 
housing for them. You have to have a roof over you that is not 
going to collapse and is not going to have rain.
    We have, throughout the history of this federal agency, 
been very supportive of all programs that really go down into 
the communities, all kinds of communities. We also, most 
recently--it is now 3 years old--have supported a tremendous 
leadership program called ``African American History and 
Cultural Grants.''
    These grants are given to institutions--African American 
institutions--who are not only developing programs that are of 
special significance, that can be replicated and shared with 
all museums, but also to help establish a professional track 
for many of the museum workers, who might not have had that 
opportunity.
    So we are very aware that we have to be engaged at the--
right at the beginning, the entry level. And I wish I could 
give grants to help keep the roof on, but we certainly try to 
help.
    Ms. Clarke. We have to take a look at that.
    Ms. Radice. Yes, ma'am.
    Ms. Clarke. When you have an institution that is much 
older, and, perhaps, the population around that institution is 
changed so you don't have the type of benefactors, it becomes a 
challenge for the communities to maintain and make sure that 
these collections that have been around for hundreds of years, 
in many cases, are maintained in the appropriate environment.
    For instance, our Brooklyn Museum has been trying to get a 
correct HVAC system to make sure that the pieces that they have 
don't fade away because the humidity or the heat or the--you 
know, the conditions are not right to maintain some of those 
older pieces.
    So I think this is something that we certainly need to take 
a look at. I commend you on specializing in areas of 
collecting, particularly the pieces that reflect the cultural 
diversity of the environments in which we find many of our 
cultural institutions.
    I am interested, from the rest of the panel--I am sure you 
all have been seeing that all--I am sure you all are--and 
seeing that all parts of our communities are included and can 
share in all that our museums and libraries have to offer.
    My question for all witnesses is: What kind of outreach is 
being done, and should be done to include people who don't 
traditionally visit museums or libraries. I mean, I have a 
knowledge of it. Again, I come from a multicultural 
environment. So, constantly, you are coming in--you have people 
coming in with English as a second language. You have folks who 
are immigrants, people who may be relocating back into the 
community because they were in prison for a certain amount of 
time, low-income, and seniors.
    What strategy is to be used to get them involved? And, just 
shortly, because I know my time is up.
    Chairwoman McCarthy. I am going to have to remind the 
witnesses to try to keep their answers short.
    Mr. Jolly. Madam Chairwoman, Member Clarke, if I may--some 
of the programs that we have done at the Science Museum of 
Minnesota include running a youth group which--in one of our 
groups, 12 young people have 16 languages, other than English, 
among them. We supported and paid them to develop 16 different 
language tours of our museum for their community.
    We have community advisory boards for all of our 
communities. We hold the largest Somali collection in the 
nation--or in the world--the largest public Hmong collection in 
the world; and celebrate our holidays with our community, treat 
our communities in the languages that they wish to be 
introduced to science for; and also helped to create outreach 
through our ticketing programs to community centers around the 
state.
    Ms. Zales. If I could answer on behalf of libraries, 
please, we have recent studies that show, nationwide, that 78 
percent of our libraries reported that Spanish is the main non-
English language being spoken. And our libraries are responding 
in fine fashion to that.
    Not only are we working with those who are coming into the 
library to help them with their language skills, but we are 
catering our collections and tailoring them to have low 
literacy in English so that they can--or easy-reading materials 
in English that are at the adult level, so that we can keep 
adults coming into the library. We are certainly offering our 
program and our story times in Spanish.
    And we are, with the thanks of LSTA funds, investing in 
language labs, so many of our libraries, as in our schools--we 
have 15, 20, 30 different languages being spoken, now. And our 
libraries must respond to that in order to keep the libraries 
relevant in serving those communities.
    Ms. Nunez. Good morning.
    The Knowledge River program, I think, is the perfect 
example of what it is doing to increase the workforce from the 
perspective of the cultural communities. And we are seeing an 
increase of those libraries delivering services to meet the 
needs of those constituencies to come into the libraries from a 
culturally--and a language perspective.
    So I think we are increasing the capacity for libraries to 
serve those communities, particularly through the Knowledge 
River program.
    Ms. LeBlanc. Yes. Recently, we started doing all of our 
library--flower exhibitions in Spanish, as well as English. We 
have initiated a kindergarten-readiness program, a bilingual 
program, for our children about to enter kindergarten, as well 
as courses for their parents--for low-income families with--
who--many of whom, whose children have not attended preschool.
    We work with many community agencies, different cultural 
groups, and do several things with them--give them free passes, 
again, so that they can come--families can come on their own 
and not feel like they have to come and say they don't have 
money. But I also try and give them--the people that are 
interested--memberships, so that they can develop long-term 
relationships with the museum.
    And some of what you have to look at is what--do your staff 
speak other languages? Are your staff culturally diverse? Are 
the images they are seeing in your museum reflective of their 
experience? And what kind of programs are you doing?
    Ms. Clarke. Thank you.
    My colleague, the ranking member of this committee, Mr. 
Platts?
    Mr. Platts. Thank you, Madam Chair.
    My apologies in not being able to be here at the beginning 
of the testimony, but I do appreciate all of our witnesses 
being here to share your knowledge and expertise, especially a 
fellow Pennsylvanian.
    Thank you for being here, representing the great 
Commonwealth.
    I do appreciate the insights shared, and, you know, 
appreciate the importance of our libraries and our museums; 
and, maybe, especially, as a parent of a 12-year-old and 9-
year-old, in both numerous museum visits over many years now--
sometimes my kids would say ``too many museum visits,'' 
perhaps, depending on what type of museum we are visiting, 
whether it is a hands-on, engaging for them, or more of a, 
``Look, don't touch'' museum, and more reading and learning.
    But we have seen the benefits of those visits, and 
especially with libraries--both my children have had their own 
library cards from early on, and have participated from infancy 
in the Summer Reading program at our local libraries in York 
and, in fact, just concluded this year's Summer Reading 
program, documenting their minutes every day of reading.
    And I think one of their rewards that they really 
appreciated was the oldest fair in the United States, York 
Interstate Fair, continuous operation--and they got some free-
ride tickets for their participation in the Summer Reading 
program. So they not only benefitted from reading, but they got 
a few rides. I think, Tuesday night, they took advantage of 
those rides.
    So, as a family, we appreciate the importance of both our 
museums and our libraries. I have seen the benefit of that. And 
I know we still have a ways to go in educating our fellow 
citizens--especially, the great, great benefits of reading from 
early on.
    And one of my colleagues from Illinois and I are co-
sponsors of the Education Begins at Home Act, which is to help 
new parents--especially, lower-income, single moms--you know, 
understand the challenges of parenthood, and how to best do 
right by their children. And one of those is reading to our 
infants. And the research we now have in brain development in 
the 0-to-3 years--and 85 percent of the neurons being developed 
then.
    And I remember sitting in the state capital, not far from 
our state museum, as a state representative with my, then, 
probably 6-month-old son, T.J., who is now 12--sitting there, 
taking a break when he was--spent a lot of time traveling with 
me those first 10 months--and reading a book to him--a 
children's book.
    And a staff member popped her head in the door and said, 
``Todd, you don't really think he understands what you are 
reading, do you?'' And I said, ``I know he doesn't understand 
what I am reading to him in the story, but that brain is 
working and digesting what he is hearing. And that will 
strengthen him on the reading side.''
    And then, Dr. Jolly, your emphasis on math and science--
equally important that we do better conveying the importance of 
that foundation.
    I had the great blessing, as a student--in the same 
building as my 12-year-old, who is now attending middle 
school--it was my junior high, when I went there--of having 
great math opportunities all the way up through calculus, in 
high school--matrix and probabilities, statistics--and know how 
much that benefitted me in my further studies in college and 
law school, and to this day.
    So what you are doing is wonderful. And the importance 
that, individually, and, then, collectively--that you are 
bringing to our nation--and, especially, I think, to our future 
generations--is so important.
    So most importantly, I want to just say thank you for your 
efforts and your leadership in your respective positions, and 
the benefit you are bringing and achieving.
    My one question, in a broad sense--and I know this is not a 
reauthorization hearing. But I know we will be looking ahead to 
the importance of reauthorizing the Museum and Library Services 
Act. Is there any one thing--and I am going to take off the 
table ``more money,'' because I know that is a given--that 
there is always a need for additional funding to expand the 
programs that we know are working, such as the Summer Reading 
program.
    But is there something just to put on the table as we look 
ahead to strengthening this important act, or other related 
acts, that any of you want to share that we should just kind of 
have on the radar as we go ahead next year?
    Mr. Jolly. Member Platts, one of the things that I find 
that has been very helpful in the last decade has been the rise 
of reasonable accountability. And that is asking us to evaluate 
outcomes that really do look at, ``How have we transformed who 
informs our work, who forms our work, and who benefits from our 
work?''
    And adding evaluation, and funding that evaluation within 
the general grant structure is something that is very valuable 
to our institution, and helping to create a collective 
knowledge that informs all of us towards better practices in 
the future.
    Mr. Platts. In my understanding that--the importance of 
that, if you--in requiring that evaluation--that is not an 
eligible expense under the federal act today?
    Mr. Jolly. It currently is, under many federal-government 
programs. But we need a practice that will allow for 
reasonableness in the amount of--and the balance between what 
program is being funded and what the evaluation is; recognizing 
that, in some very new and innovative programs, we may need to 
increase the percentage of our funding which goes towards 
evaluation.
    And we may not need to have higher scrutiny of those that 
are already proven.
    Mr. Platts. Okay.
    Mr. Jolly. And so broader flexibility in meeting those 
accountability guidelines and goals, and greater opportunities 
to support innovative research on cutting-edge programs; 
accepting that the very best science will fail before it 
succeeds.
    Mr. Platts. Okay. Thank you.
    Madam Chair, is it okay--I know I am at my time limit--if--
follow up, here--any others?
    Ms. Radice. If I may just add a word, sir?
    We are listening. And, in fact, the process of 
reauthorization is very complex. And so the reason I am being 
mute is because these are the people who are on the ground. 
Sometimes when you are very close to something, you can't see 
the fine-tuning you need to do.
    And I would suspect that, as we approach reauthorization--
that the stability that IMLS has provided, and the great 
programs and the way in which it is operated, will stay. But I 
am sure there are fine-tunings that we will learn from people 
in the field.
    So as you engage in the reauthorization process, I think it 
is essential to hear from, as they say, ``the field''----
    Mr. Platts. Yes.
    Ms. Radice [continuing]. And from, just citizens, and maybe 
even from some people who don't go to libraries and museums. 
What can we do to help them?
    Mr. Platts. Thank you.
    Ms. Radice. You are welcome.
    Mr. Platts. Ms. Zales?
    Ms. Zales. We thank the LSTA fund, the IMLS. In 
Pennsylvania, the funds have been synonymous with innovation. 
And we are satisfied, all in all, with the administration and 
reauthorization, and ask that the innovation and the creativity 
that is made possible through these funds remain a priority.
    In Pennsylvania, the LSTA funds have truly been the seed 
money for the most innovative and sustained programs. And 
evidence of the successful component of that dimension is, in 
all cases, those programs went on to be funded by a direct 
state appropriation to sustain and allow them to grow.
    So I underscore the significance of allowing these funds to 
be used in innovation.
    Mr. Platts. Okay.
    Ms. LeBlanc. I was involved in programs that were funded by 
IMLS for, maybe 15 years now, and I know that the agency has 
gone through changes in its guidelines and went through a 
process of getting a lot of feedback from its community. And I 
just want to reiterate that that has been very helpful; and 
that the current guidelines really, I think, support innovation 
in a way that it didn't emphasize so much before.
    Mr. Platts. Great.
    Thank you, Madam Chair.
    And if I could just close with a thank you, personally--not 
as a parent, in this case, but myself--I commute daily from 
York, so I spend a lot of time in the car. And the Village 
Library of Jacobus--our local library that we are members of--a 
very small community library--is where all of my books on tape 
or CDs come from--that I survive my 100-mile-each-way commute.
    So I, personally, benefit, and my wife and children are 
there every 2 weeks and pick three of four books for me that I 
get through over the course of the next few weeks. And that is 
what allowed me to stay sane on my daily commute here.
    So thank you, Madam Chair.
    Thank you, again, for your participation, each of you. 
Thank you.
    Chairwoman McCarthy. Thank you, Mr. Platts.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you very much, Madam Chair.
    And thank you, to the panel.
    I have been scrolling through an email I got here from my 
staff that lists al the museums and libraries in my district. 
And I get more and more excited as I am going through the list, 
because I have been to most of them, but I haven't been to them 
all. So now I got some tasks ahead of me--make sure I cover 
those.
    A tremendous resource, obviously, to any community, is the 
libraries and museums that are there. And Baltimore is no 
exception to that. In fact, the spirit of the city has been 
lifted in recent years by the expansion of the Enoch Pratt Free 
Library, with two new branches having opened--brand-new 
buildings, which had not happened for 30 years. And it reflects 
a sense of invigoration in the city, which has got us all very 
excited.
    I had two questions; the first is--and this may have been 
touched on before I came, and, if so, I apologize--but I was 
just curious--your perspective on free admission to, 
particularly, museums. I mean, we think of libraries as being 
free, in most instances. But museums, I know, are experimenting 
with what ``free admission'' means in terms of the relationship 
with the community.
    And I thought you would be a terrific group to get a 
perspective on that--the sort of pros and cons of it.
    Ms. Radice. If I may say, it really depends on the 
community a little bit, sir, because, in some instances, 
museums--they just couldn't function if they didn't have some 
entry fee. Now, there are very creative ways--perhaps having a 
local business subsidize part of the entry fee, or having a 
couple days a week be free.
    In essence, when you get people through that door, you 
hope, not only, they are going to experience the importance of 
being in that place, but, maybe, spend a little money while 
they are there.
    So I agree you can't have the fees so high that once you 
have walked through that door, you have said, ``Well, I have 
spent it now. I have brought the family. That is it.'' But 
developing good business plans and working within your local 
communities as part of the economic engine of that community--I 
think helps a great deal.
    It is a huge, huge challenge. I certainly agree with you. 
And when people come to Washington and they get to see the 
Smithsonian, and it is all free, it is tough to go home. It is 
tough to go home and pay the entry fee. I know.
    Ms. LeBlanc. Yes, our museum receives half of its operating 
budget from earned income, the biggest portion of which is 
entry fees; the other half, from various donations.
    What we try to do is raise money from businesses, 
foundations, other kinds of sources to fund access for families 
and agencies that can't afford to pay the admission fee. And we 
distribute several thousand free tickets in that way, and 
establish relationships with groups. But, because of financial 
pressures, we need to charge the admission fee to people that 
can afford to pay.
    I did a little study from our Visitor Service computer. And 
the number of people that actually paid the full admission fee 
was a very small percentage of the number of people that came 
in. So people are coming at reduced rates, they are coming in 
for free.
    It would be great for everyone to be free, but it is 
unrealistic if you are not funded by a governmental entity.
    Ms. Zales. If I could speak to the libraries, there is a 
long tradition and a long philosophy that information in 
libraries is to be free. It is part of what makes the 
information in the library a common denominator of information 
and resources across the commonwealth.
    We also know that the library is not free, and a library 
card is of no charge to residents of Pennsylvania, if you 
reside in a municipality that contributes to your public 
library--again, the concept being that if you are participating 
from your municipality, giving money to your library, those 
resources are available to you.
    Libraries, like most other institutions, have costs. And 
those costs are increasing, as well. And libraries are trying 
their best to recover. But libraries in Pennsylvania have, and 
will remain--a library card will remain free.
    Mr. Sarbanes. Let me ask you real quick, because my time is 
going to run out: Where there have been strong partnerships 
between schools and museums or schools and libraries--what is 
driving that? Do you find that it is the individual school 
that--where the partnership sort of emanates from?
    Do you find that school systems make a commitment that 
makes it easier to access and build those partnerships--just 
quick thoughts, a couple----
    Ms. Radice. I would say all of the above.
    Of course, with a school, if you have a dynamic, terrific 
principal, you are going to have a leader right away who is 
going to understand those values. But I think the fact that 
museums and libraries are part of the education system, in 
general--I think it is a symbiotic relationship. So I think, at 
all levels, we would like to see that.
    Mr. Sarbanes. Great.
    Thank you all very much.
    Chairwoman McCarthy. I want to thank everybody for their 
testimony.
    And right before I go into my closing statement, I would 
like to put a challenge out to all of you. The collaboration, 
obviously, between all of you who are, in my opinion, 
educators--yes, in libraries, museums--but, next year, we are 
going to be reauthorizing ``Leave No Child Behind.'' Obviously, 
there has been some controversy about it.
    But if you had thoughts, especially on math and science, 
and how we get our young people to be more open to that--and I 
would appreciate it. I mean, you know, it is just information 
for us, because everybody here is on the full committee of 
eduction.
    So if you have any outside thoughts on what possibly could 
go--or how could we even work together a little bit more 
between our schools and between the libraries and museums--I 
would appreciate that information.
    I want to thank each one of you for coming here today to 
share with us the work being done by libraries and museums to 
strengthen our communities. Each of you shared with us strong 
programs happening across the country, which are encouraging 
and inspiring.
    It is through the continued support and strengthening of 
communities, and the people living in them, that our nation is 
growing stronger.
    Today, particularly, on 9-11, is a day for us to remember 
that we must continue to work together to aid our fellow 
citizens and improve the lives around all of us. Museums and 
libraries serve as a unique role in this endeavor, and to do it 
in creative ways unique to each community for which they serve.
    I hope that, as people watch this hearing and learn of 
these programs, that new connections are forged across the 
country and across the world, to connect people to information, 
to ideas and to each other.
    Again, I want to thank each of you for being here today.
    And I thank, to you, my subcommittee members, for their 
continued dedication and support.
    As previously was so ordered, members will have 14 days to 
submit additional materials for the hearing record. Any member 
who wishes to submit followup questions, in writing, to the 
witnesses, should coordinate with the majority staff, within 
the requested time.
    Without objecting, this hearing is adjourned.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairwoman McCarthy, for holding this important hearing 
on the role of museums and libraries in strengthening communities.
    Today's hearing will focus on the Institute for Museum and Library 
Services (IMLS) and the important work they do to help museums and 
libraries connect people to information and ideas in communities across 
the country. In my district in western Pennsylvania, IMLS has provided 
three libraries with grants and, across the state of Pennsylvania, IMLS 
has provided nearly $6 million for the expansion and development of 
museum and library services.
    Museums and libraries provide our communities with a way to better 
understand our communities, our nation and our world. People of all 
ages can visit museums and libraries to gain a better understanding by 
learning from collections, exhibits and programs that are offered. 
Museums and libraries are one of the most important resources for 
education our children and, as we will hear today, offer services that 
no one else can.
    Thank you again, Chairwoman McCarthy, for holding this hearing. I 
yield back the balance of my time.
                                 ______
                                 
    [The statement of Mr. Davis of Illinois follows:]

Prepared Statement of Hon. Danny K. Davis, a Representative in Congress 
                       From the State of Illinois

    Chairwoman McCarthy and Ranking Member Platts, I am pleased that 
the Subcommittee on Healthy Families and Communities is holding this 
hearing on how museums and libraries strengthen our communities. The 
Seventh Congressional District of Illinois is home to some of the 
greatest museums in the country. As its elected official, I know first 
hand that these entities serve as integral elements of the fabric of 
Chicago. In addition to demonstrating how these institutions contribute 
greatly to our communities, I hope that this hearing will generate 
suggestions for how lawmakers can improve the ability of these 
organizations to promote the education of our citizens. For example, 
are there opportunities within the reauthorization of the Elementary 
and Secondary Education Act (ESEA) to better support the high-caliber 
professional development programs operated by these institutions? The 
Chicago Public Library receives 92% of its funding from the City of 
Chicago and 8% from the State of Illinois, receiving minimal federal 
assistance. As Congress examines ESEA, are there provisions that can be 
adjusted to support public libraries in their efforts to educate the 
young and old? Can we develop ways to integrate the museums and 
libraries in improving our curriculum to better engage students to 
prevent drop outs? Are there changes to the Institute of Museum and 
Library Services Act that could facilitate community programming? Given 
the remarkable works taking place in Chicago, I want to take an 
opportunity to describe some of the successful programs operating in 
Chicago. I hope that this sample of programs offered in Chicago will 
help policymakers understand the fundamental value of these efforts. 
Thank you.

Adler Planetarium
    The Adler Planetarium is committed to developing and implementing 
educational initiatives aimed at capturing children's interest in 
science at critical moments in their intellectual development. It 
offers an array of engaging programs, such as Astro-Science Workshops, 
Educational Camps, Scouts in Space Programs, and Professional 
Development Workshops for teachers. The philosophy connecting these 
programs is that there is amazing potential for transformation within 
the classroom and that developing teachers' skills in scientific 
disciplines and inquiry-based learning methodologies that are aligned 
with the Illinois Learning Standards will nurture and unleash this 
potential. The Adler's goal is to equip students with basic knowledge, 
skills and investigative strategies from the scientific world so they 
can succeed in school and the future workforce and understand the 
relevance of science in their daily lives.
    The Adler offers a variety of programs to support quality science 
education in Illinois and across the country. These include:
    Teacher Professional Development Workshops to help teachers further 
their knowledge of the science concepts they are teaching and equip 
them with hands-on learning techniques to use in the classroom. During 
the 2007-2008 school year, the Adler provided 18 teacher professional 
development workshops, which attracted 1,034 from nearly 180 Illinois 
schools.
    Distance Learning Programs via the Adler's website and 
videoconferencing sessions, such as Ask the Expert, give students 
opportunities to ask questions of museum astronomers. Nine hundred 
students at schools outside Illinois participated in one of 36 
videoconferencing programs during the 2007-2008 school year.
    Classroom Kits and Web-based Educational Resources for teachers 
that include everything they need to implement the hands-on learning 
techniques and classroom experiments demonstrated during Adler teacher 
professional development workshops.
    A Pilot 5-week Earth & Space Science Unit developed at the request 
of Loyola University Chicago to serve as part of the 11th grade physics 
course. The unit will be divided between earth and space topics and 
encompass a subset of the Illinois earth and space science learning 
standards. With oversight from Loyola, Adler education staff and 
astronomers also will provide training and professional development for 
science teachers using the unit. The Earth & Space Science Unit will 
encompass two and one-half weeks of astronomy and two and one-half 
weeks of earth science curriculum. This project will have district-wide 
impact, support the Chicago Public Schools' efforts to improve high 
school curriculum, and better prepare students for college.

Chicago Children's Museum
    The mission of Chicago Children's Museum is to create a community 
where play and learning connect. With nearly 800,000 annual visitors 
within the museum and in programs throughout Chicago, Chicago 
Children's Museum is now the second most-visited children's museum in 
the country and the fifth most visited museum in Chicago. Collaborating 
with 400 community partners, a priority of Chicago Children's Museum is 
to represent and reach communities throughout Chicago to provide 
families with resources and access opportunities.
    The museum engages children and adults in culturally sensitive, 
first-person programs that foster an excitement for the arts, science, 
literacy and diverse cultures. This work comes alive in exhibits such 
as My Museum. For this exhibit, Chicago Children's Museum partnered 
with Street-Level Youth Media to unveil a new component ``My Community 
Matters,'' an inspiring audio/video compilation of children's first-
person perspectives about their own communities.
    Chicago Children's Museum strengthens families through its 
implementation of programming in underserved areas and access 
opportunities for those in need. In ArtReach, an after-school, 
intergenerational program, museum educators offer dynamic, high-quality 
art instruction with a strong literacy component. ArtReach provides 
children and their families the opportunity to collaborate and learn 
together, and books and materials to extend the experience at home.
    To empower children from an early age to celebrate each other's 
similarities and differences, Chicago Children's Museum focuses on 
anti-bias education, which allows children to develop empathy, critical 
thinking skills, a comfort level with diversity, and a confident self-
identity. Through programs like Passport to the World, the museum 
exposes visitors to a rich variety of people, beliefs and cultures to 
not only break down stereotypes, but also to help children and families 
build a strong and confident self-identity and an informed and proud 
group identity. Now in its 10th year, Passport is an opportunity for 
communities to explore and showcase the essence of their culture for 
the education of their own children and the children of Chicago.
    Chicago Children's Museum's Student Programs offer opportunities 
for pre-kindergarten through 5th grade students to participate in 
workshops facilitated by museum educators either at Chicago Children's 
Museum or directly in schools. All workshops are linked to state goals 
and standards and are intended to complement classroom curriculum. In 
workshops, such as smART Spaces, the Chicago Children's Museum 
educators help teachers and students turn their classrooms into a 
vibrant art studio, where young students re-shape, re-build, and re-
invent everyday objects.
    A collaboration between the museum and community partners, Chicago 
Children's Museum's Initiatives for Latino and African-American 
Communities create unique, playful learning experiences for educators, 
community organizations, children, and families. Annually, these 
Initiatives engage thousands of children and adults in significant 
creative, cultural, and educational activities. Through these 
Initiatives, the museum offers Community Resource Fairs, which engage 
families in performances and workshops while connecting parents and 
caregivers with important resources in their community to support and 
strengthen families.

The Chicago Public Library
    The Chicago Public Library is comprised of 79 neighborhood 
libraries which serve 2.9 million Chicagoans as well as residents of 
more than 200 surrounding Illinois towns and communities through 
reciprocal borrowing arrangements. More than 1.1 million people visit 
Chicago Public Libraries in person each month and more than 1 million 
visit its website each month to find books and other library materials 
in more than 40 languages; events; programs; and online research 
through more than 70 databases in various subject areas. In 2007, the 
Chicago Public Library provided more than 3.8 million free one hour 
Internet sessions and circulated more than 7.7 million items. The 
Library offers a variety of programs and services to meet the 
developmental needs of residents:
    Preschool Children: The Library offers instruction, special book 
and alphabet collections, and lapsit story times for teachers, parents 
and caregivers that emphasize the importance of reading aloud daily to 
children from birth in order to prepare students to enter kindergarten 
ready to read. Also, there are collection development workshops for 
Head Start and pre-K teachers and special lapsit story times and pre-
literacy programs for infants and toddlers in multiple libraries.
    School Age Children: The Library's annual summer reading program is 
a core service to the community, serving more than 49,000 Chicago 
children who read more than 1.2 million books in 2008. In addition, 
science and conservation programs were taught in every library by 
educators from the City's Department of the Environment, the Museum of 
Science and Industry, and Garfield Park Conservatory. The Teacher in 
the Library program provides certified teachers to work with students 
on homework in 47 branch libraries everyday after school.
    Teens: The Library offers a few key programs for teens. Teen Volume 
provides reading, writing and financial literacy workshops for teens. 
There also are special book collections of fiction and nonfiction 
geared to teens, and the Readers Theater workshops provide teens an 
opportunity to adapt and present content from popular fiction for 
audiences citywide.
    Adults: Multiple programs help engage adults in reading and 
learning. For example, the One Book One Chicago program is a citywide 
reading initiative presented twice a year that is designed to encourage 
all Chicagoans from high school through senior citizens to read, 
discuss and attend cultural programs about the same book. Similar 
programs now offered in more than 150 cities around the world. The 
Museum Passports program allows library cardholders to check out free 
family admission passes to any of Chicago's museums and cultural 
institutions. This service is key to providing cultural opportunities 
to Chicago's citizens. Similarly, the Words and Music program improves 
access to classical music by distributing thousands of free lawn 
admission passes to Ravinia Music Festival's summer classical music 
programs. The Library also offers Adult Book Discussion Groups that 
meet monthly in more than 50 branches, plus a special Summer Reads for 
Adults program that attracted more than 5000 participants in 2008. 
Finally, the Money Smarts program provides free financial literacy 
classes for adults and families citywide, addressing topics such as 
money management, credit cleanup, home buying, investing and saving for 
college.

Chicago Zoological Society's Brookfield Zoo
    Families throughout Chicagoland know that Chicago Zoological 
Society's Brookfield Zoo provides experiences and memories that can 
last a lifetime. These memories make it a valued community institution 
that provides unique educational experiences that foster connections 
with wildlife and nature. In 2007, 250,000 students participated in 
field trips to Brookfield Zoo. With almost 75 years of conservation 
leadership, both Chicago Zoological Society and Brookfield Zoo are 
sources of pride for our community. Less understood is that the 
Brookfield Zoo is a valuable community institution that employs 
hundreds of local residents and generates an economic ripple effect 
throughout Chicago and Illinois. In 2007, with a budget of $56.3 
million, Chicago Zoological Society employed 1,124 people with a total 
of $53.9 million in wages.
    Chicago Zoological education and community programs positively 
impact children and families throughout Cook County. These programs 
supplement existing science curricula for students and enhance the 
capacity and professional credentials of teachers. All content is 
aligned to Chicago Math and Science Initiative Scope and Sequence K-8 
and Illinois State Learning Standards. The Chicago Zoological Society's 
School, Group, and Teacher Programs are divided into three major 
service delivery areas:
    School Programs offer classes for students from preschool through 
high school. The Connections series of classes explores a wide array of 
topics, including animal survival, critter coverings, wetland wonders, 
animal behaviors, ecosystems, and primate populations. Classroom 
presentations offer hands on experiences, experiments, songs, live 
animals, and expert facilitators. Brookfield Zoo is used as a living 
classroom to offer engage students in animals and conservation. In 
2007, almost 19,500 students participated in Connections series at 
Brookfield Zoo. As part of the School Programs, inclusion is a focus. 
Several classes are designed with inclusion students specifically in 
mind; especially Every Student is a Scientist. In 2001, the program 
increased outreach to Chicago Public School as well as deepened our 
relationships with individual schools. Additionally, two programs, Good 
Works and Bridges, allow special needs citizens volunteer and work 
opportunities at the Zoo.
    Teacher Programs offer unique learning experiences that enrich 
educators' classroom curricula. Workshops, classes, exhibit previews, 
and Zoo experiences all provide professional development opportunities 
for teachers. As an approved Illinois State Board of Education 
provider, continuing education credits are offered. Graduate and 
undergraduate credits are offered through an academic partnership with 
Aurora University, National Louis University, and Triton College. In 
2007, 1,265 teachers participated in Chicago Zoological Society teacher 
training programs that annually will indirectly reach at least 38,000 
students.
    The School Partnership Program is a unique partnership with 
Riverside-Brookfield High School. An interdisciplinary curriculum for 
freshman combines algebra, biology, English, and physical education 
while focusing on local environmental issues and environmental 
literacy. Brookfield Zoo assists with coordination, science expertise, 
and the use of the Zoo as a living classroom. Students experience a 
coordinated approach to learning while enjoying such adventures as 
kayaking, rock climbing, fishing, orienteering, and water quality 
analysis.

DuSable Museum of African American History
    The DuSable Museum of African American History is dedicated to the 
collection, documentation, preservation, interpretation and 
dissemination of the history and culture of Africans and Americans of 
African descent. Through its exhibitions, archives and a diverse array 
of education programs, the DuSable Museum seeks to interpret and 
illuminate their experiences and contributions to American and world 
history, culture and art. In fulfilling its mission, DuSable Museum 
presents continuing and special exhibits and installations, 
interpretive and educational programs including film screenings, 
theatre performances, concerts, lectures, and several special events 
each year. Public programs interpret exhibitions and/or celebrate 
important figures, events, periods and themes in African American 
history and elements of African culture. The DuSable Museum of African 
American History is the first museum of its type in the country and is 
the only major independent institution in Chicago established to 
preserve and interpret the historical experiences and achievements of 
African Americans. All of its programs are produced for underserved 
communities surrounding the Museum. They include:
    Martinmas Day/King Day is a weekend tribute in film and documentary 
screenings and performances that celebrate the life and legacy of Dr. 
Martin Luther King Jr.
    Juneteenth Celebration commemorates the 1863 Emancipation 
Proclamation.
    Annual Arts and Crafts Festival is an outdoor exposition of visual 
art by Chicago artists and artisans coupled with performances and an 
activities pavilion for children.
    Penny Cinema Series offers year-round screenings of youth-oriented 
films and videos.
    Kwanzaa Celebration examines and celebrates a family-focused 
observance of the year-end African American cultural holiday. In 
addition, there is a Kwanzaa Children's Penny Cinema Series--a special 
collection of films that celebrate and discuss the origins and values 
of the Kwanzaa season through traditional sounds of West Africa.
    Youth Docents Program trains high school and college students as 
gallery guides.
    African Storytelling involves weekday presentations of African 
fables, proverbs, and legends designed for younger children led by 
local storytellers.
    African Rhythm Series offers weekday demonstration workshops on the 
music and dances of various African cultures and their derivations in 
the Americas.
    Good Greens highlights the vibrant cultural tradition of African 
Americans through good food and food for thought, authorized by the 
passage of the 2008 Farm Bill by Congress, which included historic 
provisions for urban communities.
    Youth Advisory Program helps underrepresented high school students 
obtain work-based learning competencies, educational enrichment and 
leadership skills, along with tour guide and diversity training while 
gaining insight as to how museums operate.

The Field Museum
    The Field Museum was established in 1893 to expand scientific 
knowledge about the earth and its peoples and to disseminate that 
knowledge to the public. The Field Museum continues to pursue these 
goals today through a variety of programs designed to foster deep 
personal interactions with the awe-inspiring, intricate realities of 
the natural world. Serving 1.5 million people annually, the Field 
Museum brings diverse communities within Chicago together to learn 
about conservation, biodiversity, and the history of life on earth. The 
Field's activities include:
    Education. The Field has a long-standing commitment to education. 
In 2008, its education department offered approximately 4,000 public 
programs that served over 700,000 people in 2008. In addition to its 
exhibits, the Field provides numerous other innovative educational 
programs that strengthen the Chicago community. For example, The Harris 
Educational Loan Center has served millions of Illinois school children 
and aided thousands of teachers in enhancing basic science education 
since 1911. The Center delivers collection materials and science 
curricula to classrooms at little to no charge. The Center is the 
longest-running and most comprehensive museum educational outreach 
program of its kind in the U.S., benefiting more than 250,000 students 
annually. Dozin' with the Dinos has provided an overnight adventure 
that provides family activities, lectures, tours, and performances for 
almost 20 years. Guests explore museum exhibits, such as ancient Egypt 
by flashlight and Sue the T. Rex, and sleep near popular exhibits. The 
High School Transformation Project improves student achievement and 
graduation rates at Chicago Public Schools by developing high-caliber 
curricula and professional development programs, constituting a vital 
partner in urban education reform. In collaboration with the Illinois 
Institute of Technology and the Chicago Public Schools, the Field 
develops engaging, inquiry-based curricula in the areas of biology, 
chemistry, and physics.
    Conservation. The Field Museum maintains a comprehensive commitment 
to science-based conservation. Its Environment, Culture and 
Conservation department (ECCo) was established in 1994 to help deploy 
The Field Museum's collections, scientific research, and educational 
resources to the immediate conservation needs at local, national, and 
international levels. Successful programs include: (1) collaboration 
projects with local and regional governments and others to create new 
and self-sustaining conservation parks (Chicago, Peru, Guatemala) to 
preserve endangered biospheres and help address global ecological 
challenges; (2) conservation education programs that engage local 
students in hands-on restoration stations at three sites: Wolf Lake, 
Eggers Woods, and Hammond, IN; and (3) the ``Cultural Connections'' 
program, which is a partnership of ethnic museums and cultural centers 
that is engaged in exploring common cultural themes and experiences in 
Chicago's vastly diverse urban cultural fabric.
    Basic Science and Research. The Field is a world-class center for 
collections-based scientific research. These collections are the core 
and essence of the Museum and contain the raw data that allow us to 
trace the history of the earth through the complex waves of 
evolutionary development of plant and animal life. The Field employs 
over 200 scientists, and houses more than 24 million scientific 
specimens. It is an international leader in research related to 
evolutionary biology, molecular systematics, paleontology, archaeology 
and ethnography.

Museum of Science and Industry
    The Museum of Science and Industry's vision is to inspire and 
motivate all children to reach their full potential in the fields of 
science, technology, medicine and engineering. The new Center for the 
Advancement of Science Education goes beyond the Museum walls into 
schools and community organizations across the Chicago area. The 
Center's programs empower teachers, engage the community and excite 
students. Programs are designed to provide support to teachers, reach 
children in a variety of settings, and make it easy to participate. The 
Center offers programs through three divisions: The Institute for 
Quality Science Teaching; Community Initiatives; and Student 
Experiences.
    The Institute for Quality Science Teaching helps educators teach 
science with greater passion and confidence. Professional development 
workshops increase teachers' knowledge of science, improve their 
teaching skills and demonstrate how to use Museum programs and exhibits 
to enhance science curriculum. Approximately 250 teachers participate 
in workshops annually, ultimately impacting science education for about 
10,000 students each year. Workshops are offered at no cost to 
teachers, who typically work in Chicago Public Schools. The program 
targets schools most in need of resources, with 42 of the 50 schools 
that participated in the 2007-08 yearlong workshop series primarily 
serving low-income children.
    Community Initiatives expand the Museum's reach by providing 
children from diverse backgrounds with early exposure to exciting 
ideas, opportunities and career paths. Demand for these programs is 
great, and there are waiting lists for acceptance. The After-school 
Science Minors Clubs were developed to help increase science literacy 
and increase interest in science in underserved Chicago neighborhoods. 
The Museum partners with schools and community-based organizations to 
provide science clubs to about 4,000 8- to 13-year-olds. Currently, 
there are 36 clubs throughout the Chicago region. The Science Minors 
youth development program targets 14- to 17-year-olds in underserved 
communities and provides the opportunity to learn about science, meet 
scientists, develop public speaking skills and earn service-learning 
hours. Three sessions each school year involve 45 students each time. 
Since its debut in 2003, about 400 teens have participated. The Science 
Achievers program allows teens who have completed Science Minors to 
deepen their work with the Museum and prepare for college and careers. 
Students participate in internships, mentor new classes of Science 
Minors and facilitate science clubs. About 100 students are currently 
participating. All 23 Science Achievers who graduated from high school 
last spring are attending college this fall with full or partial 
scholarships.
    The Student Experiences program invite nearly 300,000 students on 
field trips each year to experience the passion and thrill of 
scientific discovery. Beyond great, interactive Museum exhibits, 
dedicated Learning Labs provide facilitated learning experiences that 
allow students to explore science in exciting ways. About 12,000 
students each year in grades 3 through 12 participate in hands-on lab 
activities that are aligned with Illinois Learning Standards in 
science. Labs have pre- and post-visit activities along with additional 
resources to enhance what students learn. Since the program debuted in 
2003, more than 10,000 students have participated. The Museum of 
Science and Industry's Programs are evaluated routinely with strong 
outcomes. For example, a 2007 evaluation of Learning Lab Programs 
showed that 85% of teachers were satisfied with the programs and 
students participation and motivation improved in the classroom.

The Shedd Aquarium
    Shedd Aquarium has served Chicago communities for more than 75 
years. Its philosophy is that animals connect an individual to the 
living world, inspiring one to make a difference. Shedd Aquarium 
fosters this ethic by building peoples' appreciation, learning and 
understanding of the aquatic systems in their own neighborhoods and 
beyond; strengthening science literacy; and encouraging direct 
conservation action. The Shedd offers many wonderful programs that 
strengthen the Chicago community:
    The Neighborhood Initiatives project creates partnerships with 
community organizations that serve at-risk youth in afterschool 
settings to provide intense educational programming concerning local 
environments, eventually leading to self-sustaining stewardship 
programs, including beach and park clean-ups and the restoration of 
native plants.
    The Park Voyagers program is a collaborative effort with Chicago 
Park District since 1997 to provide education programming for families 
across the city as part a three-year cycle designed to increase 
engagement with and use of museums in the Chicago area. It equips 
children for full participation in the civic and cultural life in the 
city of Chicago and helps families gain confidence with using museums 
as educational and recreational resources.
    Student Mentoring Programs help students explore career interests 
in aquatic science, animal care and conservation, as well as receive 
academic and social support from like-minded peers and trained staff. 
Students from diverse backgrounds participate in these programs 
beginning with lower impact experiences, such as an after school club, 
and then deepening their engagement with Shedd through intensive field 
programs on the Great Lakes, in the Bahamas and internationally.
    Teacher Mentoring Programs help teachers learn how to engage 
students in learning science via hands-on exercises. After 
participating in this program, teachers are more likely to incorporate 
hands-on science investigations into their teaching strategies and to 
rely less on textbooks as their sole means of teaching science. 
Approximately 200 public school teachers in 11 Chicago Public Schools 
participate in this three-year program.
    Community Festival Programming allows the Shedd to engage 
Chicagoans about issues facing the Great Lakes at events and community 
festivals, such as the Chicago Folk and Roots Festival and the Fourth 
Annual Great Lakes Surf Luau. Conversation topics include sustainable 
water use and maintaining water quality, as well as stresses on the 
lakes from invasive species and habitat destruction. Tools to help 
community members monitor their water use, such as shower timers and 
rain gauges, are given away.
    Sustainable Practices Technical Assistance programming assists a 
number of Chicago businesses and nonprofits (e.g., museums, law firms, 
sports stadiums) in their efforts to reduce energy costs and waste 
production through green practices. The Right Bite program works with 
local seafood wholesalers, restaurants, catering and retail outlets, 
and culinary schools to provide more sustainable and healthy seafood 
options to consumers in the Chicago market.
                                 ______
                                 
    [The statement of Mr. Davis of Tennessee follows:]

 Prepared Statement of Hon. David Davis, a Representative in Congress 
                      From the State of Tennessee

    Thank you Madame Chairwoman, good morning, and let me extend a warm 
welcome to our distinguished panel of witnesses.
    Before we begin, I'd like to take a moment to reflect on the somber 
anniversary being marked today. Seven years ago, our nation was forever 
changed by the murderous acts of a band of terrorists determined to 
undermine our very way of life. I'm proud of how our nation responded, 
with selfless acts of patriotism and courage, and a determination to 
maintain our freedom and defeat those who attack our citizens and our 
values. As we take this opportunity today to look at the institutions 
that strengthen our communities, we must all remember that those strong 
communities have stood in the face of terrorism and maintained the 
power of the American spirit.
    We are here early this morning to discuss the tremendous roles that 
museums and libraries play in strengthening the nation's local 
communities. I particularly look forward to hearing from the Institute 
for Museum and Library Services who will discuss their support for IMLS 
programs and how they assist various museum and libraries with 
achieving their missions and goals.
    Our nation's museums and libraries have historically played a vital 
role in helping society experience, explore, discover, and make sense 
of the ever changing world. Today, that role is more essential than 
ever. Through building technological infrastructure and strengthening 
community relationships, museums and libraries can offer the public 
unprecedented access and expertise in transforming information overload 
into knowledge.
    In many communities across America, the local library is the only 
place people of all ages and backgrounds can find, and freely use, a 
diverse set of resources, with the expert guidance of librarians. And 
far too often, the hometown library serves as the only public access to 
the Internet.
    Not to be left out, the treasures of our nation's museums enable 
people to explore collections for inspiration, learning and enjoyment. 
They are institutions that collect, safeguard and make accessible 
artifacts and specimens, which they hold in trust for society.
    As you know madam chairwoman, I am sitting in today for Mr. Platts, 
and I would like to ask unanimous consent to submit his opening 
statement for the record. Once again, I want to thank our witnesses for 
being here to discuss this important topic. I look forward to your 
testimony. Thank you Chairwoman McCarthy, and I yield back.
                                 ______
                                 
    [Questions for the record and their subsequent responses 
follow:]

                                             U.S. Congress,
                                Washington, DC, September 17, 2008.

Dr. Eric J. Jolly, Ph.D., President,
Science Museum of Minnesota, Saint Paul, MN.
    Dear Dr. Jolly: Thank you for testifying at the September 11, 2008 
hearing of the Committee on Education and Labor on ``Examining the Role 
of Museums and Libraries in Strengthening Communities.''
    Representative Carolyn McCarthy (D-NY), chairwoman of the Healthy 
Families and Communities Subcommittee has asked that you respond in 
writing to the following questions:
    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    2. In your written testimony you describe many collaborations that 
your museum has in your community, in your state, and across the 
nation, including with corporations, non-profits, and schools. What 
efforts do you put forth to reach out to these organizations and what 
do you do to share lessons learned in such connections and 
collaborations with other museums and libraries?
    3. You stated in your testimony that incorporating relevant 
information into your museum causes people to attend. How do you decide 
what is relevant and what is not and to whom?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
September 23, 2008--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

               Dr. Jolly's Answers to Questions Submitted

    Chairwoman McCarthy, Ranking Member Platts, and members of the 
subcommittee, thank you for the opportunity to provide additional 
information about the important role that museums and libraries can 
play in strengthening our communities.
    I am pleased to offer the following comments in response to the 
three questions posed by Representative McCarthy:
    1. Please describe how museums and libraries can work together with 
Congress, schools and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Act of 1965, better 
known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    2. In your written testimony you describe many collaborations that 
your museum has in your community, in your state, and across the 
nation, including with corporations, non-profits, and schools. What 
efforts do you put forth to reach out to these organizations and what 
do you do to share lessons learned in such connections and 
collaborations with other museums and libraries?
    3. You stated in your testimony that incorporating relevant 
information into your museum causes people to attend. How do you decide 
what is relevant and what is not and to whom?
    Q1: Please describe how museums and libraries can work together 
with Congress, schools and other stakeholders to improve math and 
science education both inside and outside the classroom in the context 
of the reauthorization of the Elementary and Secondary Act of 1965, 
better known as NCLB. If you have thoughts outside NCLB those are also 
welcome.
    As places of informal learning, museums and libraries are uniquely 
positioned to spark children's excitement about science and math 
through hands-on learning that ties directly back to classroom lessons, 
to local and national standards in math and science, and to 21st 
century learning skills. Museums are natural partners with school 
districts to substantially increase the level and frequency of 
professional development opportunities for in-service teachers.
    According to the Institute of Electrical and Electronics Engineers, 
one in four engineers directly attribute their career choice to museum 
experiences as a child.
    In response to declining student interest and achievement in the 
STEM (Science, Technology, Engineering and Mathematics) disciplines, 
some science museums, like the Science Museum of Minnesota, are raising 
the bar on the scope and rigor of their education initiatives, both in 
the classroom and in after school, weekend and summer programs. We have 
increased our level of intentionality, built infrastructure to conduct 
rigorous evaluation of our efforts, and launched initiatives that serve 
individual students and teachers, entire districts, and cross-district 
collaborations and networking. The National Council of Teachers of 
Mathematics has recognized these efforts, and our work was featured in 
the cover article of NCTM's Teaching Children Mathematics in February 
2007.
    We know that it is not enough simply to repackage our existing 
cadre of school programs; we must rethink, recreate and revitalize 
them.
    NCLB funding--should it be expanded to include experiences offered 
by museums and libraries--could play an important role in giving 
students access to these critical out-of-school enrichment experiences, 
provided that the programs can demonstrate they meet the following 
criteria:
    <bullet> Direct ties to the relevant standards.
    <bullet> Existing and ongoing professional evaluation.
    <bullet> Connections to classroom practice.
    Partnerships with school systems are critical for museums and NCLB 
could support those connections. A broadening of NCLB funding 
guidelines could also support programs that help develop high-
performing science and math teachers. It is those teachers who inform 
and inspire the next generations of science learners.
    We are doing just that at the Science Museum of Minnesota with 
efforts that are closely tied to a vision of STEM education that is 
driven by state and national standards.

Example: MUSE Project
    Materials & Understanding for STEM Educators (MUSE) in Minnesota is 
a statewide education initiative in STEM. MUSE in Minnesota is driven 
by a vision of a STEM-literate Minnesota citizenry and a mission to 
promote rigorous STEM education for all and eliminate the racial 
achievement gap. MUSE encompasses a unified program of change focused 
on 1) providing material and intellectual support for STEM educators 
through Science House, home of the Museum's Teacher Resource Center and 
related programs, and 2) the expansion and support of middle school 
math and science initiatives, including professional development for 
STEM educators, district leaders and university faculty and expanded 
outreach programs in classrooms throughout Minnesota.
    MUSE is funded by the Minnesota State Legislature with the 
Minnesota Department of Education, initiated through support from 3M 
and Medtronic, both of which continue to provide funding.
    MUSE is given meaning through a set of Guiding Principles:
    <bullet> STEM Integration: Science is the study of the natural 
world using scientific habits of mind. It creates an authentic context 
for the development and application of mathematical problem solving. 
Mathematics is the study of pattern and abstraction and allows us to 
see complex relationships in the natural world and to make powerful, 
accurate predictions. Engineering and Technology use the outputs of 
science and mathematics to solve issues and problems for society. In 
addition, they produce instruments and process that further scientific 
and mathematical inquiry.
    <bullet> Effort-Based Learning: Learning is the arbiter of success. 
Learners' beliefs and theories about intelligence greatly influence the 
kinds of goals they set and effort they employ. Incremental self-
theories of intelligence--one can get smarter through effort--are 
essential in teaching, learning, and doing STEM.
    <bullet> Equity and Access: Closing the racial achievement gap is 
an imperative for Minnesota's workforce, economic health and civic 
participation. Access involves implementing culturally relevant STEM 
curricula and culturally competent instruction for Minnesota's 
increasingly diverse students.
    <bullet> Systems-Based Approaches: Meeting the Minnesota Academic 
Standards in Science involves vertical integration of concepts across 
grade levels, coherency across schools and within STEM, and sensitivity 
to local contexts and resources.
    Q2: In your written testimony you describe many collaborations that 
your museum has in your community, in your state, and across the 
nation, including with corporations, non-profits, and schools. What 
efforts do you put forth to reach out to these organizations and what 
do you do to share lessons learned in such connections and 
collaborations with other museums and libraries?
    We approach our work with a set of values that includes 
collaboration among our partners to advance our shared missions and 
goals. Most of our work is done in partnership with others.
            Examples of partner organizations and individuals
    <bullet> Organizations: more than 100 community-based science 
organizations across the state, 100 museums across the country involved 
in our nano science education collaborative, and professional 
associations such as:
    <bullet> American Association of Museums
    <bullet> American Association for the Advancement of Science
    <bullet> Association of Science-Technology Centers
    <bullet> Mentoring Partnership of Minnesota
    <bullet> National Center for Earth-Surface Dynamics
    <bullet> National Council of Teachers of Mathematics
    <bullet> National Science Teachers Association
    <bullet> SciMath MN (Science and Math for Minnesota)
    <bullet> University of Minnesota
    <bullet> Individuals: community advisers and committees, STEM 
content experts, and 35,000 member households
    <bullet> Businesses: 3M, Flint Hills Resources, GE Foundation, 
Medtronic
    <bullet> Government: Minnesota State Department of Education, 
Department of Natural Resources, National Park Service, National 
Science Foundation
    Openly sharing our work and lessons learned is another of our 
values. We work logically and consistently with a wide range of partner 
organizations to achieve common goals. We do so in a number of ways:
    <bullet> Our leadership in the Nanoscale Informal Science Education 
Network (NISE Network) connects us to hundreds of museums, science 
centers, research centers and universities across the country that are 
learning together how to engage the public in the ever advancing field 
of nano science and technology.
    <bullet> Using new technologies, like the web, to create places for 
conversation and information sharing. Science Buzz, our current 
science, social-network based website, has build an online community of 
70,000 to 100,000 unique visitors per month who engage in dialog about 
current science topics and events.Participation in conferences, such as 
the Association of Science-Technology Centers, the American Association 
of Museums, the Visitor Studies Association, the American Educational 
Research Association, the National Association for Research in Science 
Teaching and the International Conference of the Learning Sciences, as 
well as regional museum and education research conferences.
    <bullet> Articles in professional publications and journals, the 
Association of Science-Technology Center's ASTC Dimensions, Society for 
Advancement of Chicanos and Native Americans in Science's SACNAS News, 
Science Education, Visitor Studies, and Museums and Social Issues
    <bullet> Speeches and networking events at the conferences 
identified above as well as the National Coalition for After-School 
Science, the National Council of Supervisors of Mathematics, National 
Science Teachers Association and the National Council of Teachers of 
Mathematics.
    <bullet> Hosting the Experiment Bench Workshop, which extended the 
field's efforts to engage the public in calculus, other complex 
mathematics, and wet lab experiments.
    <bullet> Hosting conferences that support national science learning 
efforts, such as NSF's Science Technology Centers Conference, and the 
upcoming NIH Science Education Partnership Awards Directors meeting.
    <bullet> Participation on national task forces/activities, 
including the IMLS Youth Action Committee, National Academy of 
Science's Study Panels, and NSF, IMLS and HHMI review panels.
    <bullet> Partnerships with other organizations, such as local 
library systems, University of Minnesota, Mentoring Partnership of 
Minnesota, local youth-serving agencies, and various museums across the 
country.
    <bullet> Hosting conferences on highly relevant issues:
    <bullet> 2006 Governor's Roundtable and Summit on STEM education
    <bullet> 2008 Nano Science
    <bullet> 2002 conference on the public understanding of research
    <bullet> 2009 Workshop to be co-sponsored with SciMath MN on the 
analysis of the TIMMS data

Proof of Concept
    Perhaps the most intriguing way we share information is through 
projects and partnerships that are ``proof of concept'' models. We 
create a pilot program and build upon it through community and business 
partnerships. Once the concept has proven to be successful, we can then 
customize expand the program to a regional, statewide, national or even 
international scale.
    Here is a sample of two ``proof of concept'' programs currently in 
progress:
    <bullet> Proof of Concept: Mentor Buzz
    In the current 2008-09 school year, the Science Museum of Minnesota 
is conducting two pilot programs around Mentor Buzz, a unique web-based 
resource for mentors and youth that is designed to increase exploration 
and interest in STEM disciples. 500 student/mentor pairs will test the 
program, provide feedback and demonstrate the impact the program has on 
student/mentor pairs. Information gathered during the pilot will be 
used to launch a national roll out in Fall of 2009. Mentor Buzz is 
designed to augment established mentoring programs by providing content 
and engagement experiences that are specific to STEM disciplines. 
Because of the web-based nature of Mentor Buzz, and its tie to existing 
successful mentoring programs, the potential for growth and expansion 
after the national roll out is virtually unlimited.
    <bullet> Proof of Concept: Collector's Corner
    The Science Museum of Minnesota is initiating a pilot project to 
test the efficacy of placing a version of the museum's natural history 
trading post called Collector's Corner into a community library. This 
program will engage youth of all ages to explore natural science by 
bringing in and learning about things they find in nature, including 
items like rocks, shells, leaves and insects. Libraries are strongly 
interested in offering more active programming related to STEM. The 
Collector's Corner offers a unique opportunity to engage young library 
patrons in hands-on natural sciences exploration within the accessible 
learning environment of a community library. These efforts are then 
supported by the collections and expert staff from a local museum. 
Libraries and science museums can create enhanced science learning by 
working collaboratively to support STEM learning in and out of school 
contexts. If successful, the Collector's Corner--Natural History 
Trading Post can be scaled up across the state of Minnesota to reach an 
enthusiastic youth and family audience looking for ways to enrich 
standard in-classroom science learning. This model has national 
potential to encourage greater museum and library partnerships to 
support greater science literacy by the public.
    Q3: You stated in your testimony that incorporating relevant 
information into your museum causes people to attend. How do you decide 
what is relevant and what is not and to whom?
    We recognize that science is the literacy of the future not just 
for the audiences we currently serve, but also for those we aspire to 
serve.
    Therefore, it is imperative that places of informal learning build 
sustained relationships with a broader, more diverse array of local, 
regional and national communities. We do this in three ways:
    <bullet> By broadening who informs our work by increasing and the 
number and variety of new partnerships formed, as well as the length 
and depth of those partnerships
    <bullet> By broadening who forms our work through increased 
diversity of project advisors and leaders
    <bullet> By broadening those who benefit from our work through an 
increased range and diversity of our audiences
    For example, Brighter Futures: Public deliberation about the 
science of early childhood development is a project that explores 
recent research on brain formation and competence development in the 
earliest years of life as a framework for closing the gap between what 
we know and what we do to support the well-being of children from birth 
to age five. The project includes policy forums, community workshops, 
training for Headstart educators and a 1,600 square-foot exhibition. 
Brighter Futures is informed by collaborations with Headstart, 
university researchers, policymakers and parents from communities 
across the region. The project's programs and exhibits have multiple 
iterations, allowing a broader community of advisors to form our work 
so that it is responsive to a broader array of stakeholders. The 
project benefits not only parents, but all citizens who concern 
themselves with our society's future. This happens through a carefully 
designed series of public forums that bring policymakers, scientists 
and other citizens together to hold informed conversation around 
supporting the development of our youngest citizens. Brighter Futures 
is instrumental in closing the gap between policymakers and scientists, 
building on a foundation of the best science to allow museum visitors 
to become informed citizens.
    We are also attentive to external forces shaping the science 
debates of our day:
    <bullet> the increasing diversity and needs of our communities 
(including communities that are now un-served or underserved.)
    <bullet> the changing content and process of science itself and 
dealing in real time with these changes.
    <bullet> challenges resulting from rapid economic and cultural 
globalization.
    <bullet> concerns that the U.S. is losing its edge in developing 
the next generation of workers going into the fields of science, 
technology, engineering and math.
    At the Science Museum of Minnesota, we are intentional in our 
response to these external forces and how those forces are relevant to 
each audience we serve. We are deliberate in our internal structure--
with an in-house research and evaluation department as well as staff 
dedicated to community relations, external relations and government--to 
ensure that we consistently remain relevant to the various audiences we 
serve, from adults and families, to schoolchildren, teachers and 
policymakers.

            We are a place for adult learners and families

    The museum has a long-standing commitment to supporting the 
learning needs of families. In addition to extensive efforts to design 
exhibits that support family learning, the Science Museum of Minnesota 
has been offering family workshops for over 20 years. Most recently, 
the museum has begun to systematically study new models for engaging 
families in intergenerational learning that emphasizes science-learning 
conversations. The museum has also studied the expectations and needs 
of non-dominant communities in the region. Our research with these 
communities has provided the foundation for our collaborations with a 
spectrum of regional family service organizations.

            We are a place for schoolchildren

    The Science Museum of Minnesota is one of the top school field trip 
destinations in Minnesota, offering teachers and students out-of-
classroom, self-guided, hands-on experiences in STEM. The Science 
Museum of Minnesota has increased its structured offerings for school 
groups in recent years, to better align with state and national 
standards, while meeting the specific needs of students from non-
dominant communities is the state. One example is MathPacks, funded by 
the Medtronic Foundation. Teams of students use mathematical tools to 
measure, record, compute and analyze data they collect from museum 
exhibits and objects as they solve a science challenge. The challenges 
relate directly to current scientific research performed by local 
scientists and guide the student teams through a series of activities 
in the museum's permanent exhibit galleries.

            We are a place for teachers

    Science House was created to provide a vibrant, professional home 
for teachers at the Science Museum of Minnesota. The resource center 
provides curricular materials loans, formal and informal consultation, 
professional development program support, and community-building. One 
of the museum's most innovate and far reaching programs for teachers at 
Science House and beyond is the Materials and Understanding for STEM 
Education (MUSE) in Minnesota initiative, an incubator to mobilize and 
support professional development partnerships throughout the state. 
Across the two years of this initiative, approximately 4,000 teachers 
will receive a total of approximately 18,000 hours of professional 
development; approximately 16,000 students will receive direct outreach 
programming; and approximately 150,000 students will engage with 
exemplary, hands-on curricular materials in STEM using materials on 
loan from Science House.
    The museum's extensive efforts to support schoolchildren and 
teachers lay a foundation for a long-term initiative that will 
ultimately contribute to increasing the STEM workforce in Minnesota and 
sustaining public awareness of STEM as an essential literacy for civic 
engagement.

            We are a place for policymakers

    SMM partners with SciMathMn, a non profit statewide education and 
business coalition advocating for standards-based STEM education 
improvement, to provide annual legislative policy briefings at the 
museum for Minnesota state legislators, education leaders and state and 
local policymakers. These briefings focus on significant emerging STEM 
education reform issues and challenges that have legislative importance 
and policy implications.
    Additionally, the St. Croix Watershed Research Station (SCWRS) is 
the field research station of The Science Museum of Minnesota. Founded 
in 1989, the research program of the SCWRS has two major facets: in-
house research by staff scientists and independent investigations by 
visiting scientists. Staff research at the SCWRS focuses on 
scientifically and environmentally important questions on regional, 
national, and global scales, often with an eye to informing public 
policy. The research program emphasizes aquatic-based studies involving 
land-water interaction, biogeochemistry, hydrology, restoration 
ecology, and aquatic biology. Relevant issues include eutrophication, 
toxic pollutants, climate change, erosion and sedimentation, and 
biodiversity.
                                 ______
                                 
                                             U.S. Congress,
                                Washington, DC, September 17, 2008.
Ms. Annabelle Nunez, M.A., Information Services Librarian,
Arizona Health Sciences Library, Tucson, AZ.
    Dear Ms. Nunez: Thank you for testifying at the September 11, 2008 
hearing of the Committee on Education and Labor on ``Examining the Role 
of Museums and Libraries in Strengthening Communities.''
    Representative Carolyn McCarthy (D-NY), chairwoman of the Healthy 
Families and Communities Subcommittee has asked that you respond in 
writing to the following questions:
    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    2. In your written testimony you state that the role of librarians 
as changed and that today they see their role as connecting individuals 
and communities with information--printed and electronic--to improve 
and enhance people's lives. Yet today many people still see the 
librarian as the person who maintains silence and order in a library. 
How do we work to help young people see librarian science as a vital 
career to the life of communities, people, and our nation, and one they 
should aspire to study?
    3. Does the Knowledge River program face any challenges in 
recruiting Latino and Native American participants--either graduate 
students or high school students? If so, were those challenges overcome 
and how?
    4. Do you know if the University of Arizona will continue this 
program after the IMLS grants ends? Is there any plan to expand the 
number of underrepresented populations recruited to the program?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
September 23, 2008--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

               Ms. Nunez's Answers to Questions Submitted

    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    A mechanism can be created for greater access to resources used by 
libraries i.e. databases, books etc., by the schools. Collaborative 
programming and projects between schools and libraries can be developed 
and implemented. There is evidence that high-quality professional 
development enhances student learning. (Kahle, Meece, & Scantlebury, 
2000) Librarians can provide training workshops for teachers to use and 
access library databases. Research is now in progress at the School of 
Information Resources and Library Science, conducted by a team headed 
by Dr. Patricia Montiel Overall, that investigates collaboration 
between teachers and librarian in science and math information 
literacy, and how the level of collaboration affects student 
achievement, especially among Latino communities. This research is 
coming to fruition and should be published soon.
    2. In your written testimony you state that the role of librarians 
as changed and that today they see their role as connecting individuals 
and communities with information--printed and electronic--to improve 
and enhance people's lives. Yet today many people still see the 
librarian as the person who maintains silence and order in a library. 
How do we work to help young people see librarian science as a vital 
career to the life of communities, people, and our nation, and one they 
should aspire to study?
    Experience is the best teacher. The more librarians and library 
school students work with young people, the more they will see the 
potential of libraries as a gateway to fun and information and library 
science as a career for them. This is exactly what happened in our WE 
Search program.
    More outreach by librarians to all communities, but especially the 
young is needed. Libraries need to have the ability and resources to 
expand their services to include integrative, creative programming. 
Librarians could be active participants in community-based activities 
to serve as a resource for information. Library work models might let 
librarians go to the clients and constituencies to be a part of 
community program planning.
    Continued support for programs like WE Search at the University of 
Arizona, and the Library Leadership Development Institute in El Paso 
Texas exposes and engages young people to library and information 
careers in unique and appealing ways.
    3. Does the Knowledge River program face any challenges in 
recruiting Latino and Native American participants--either graduate 
students or high school students? If so, were those challenges overcome 
and how?
    There are two major challenges in recruiting and one in retention. 
Numerous reports have show that financial support makes the difference 
in recruiting Latino and Native American participants. In the case of 
students newly graduated from college, they often have student debt, 
and therefore either need to get a job or find support for graduate 
school. In the case of older students who come back to school, they 
have families; they need to move to Tucson, and getting a library 
degree would be unthinkable without financial support.
    The second challenger starts earlier, and that is earning a 
bachelor's degree. The challenge still exists to raise the number of 
Latinos and Native Americans in undergraduate school. Programs like WE 
Search that work with high school students not only introduce the idea 
of being a librarian but reinforce the importance of finishing college.
    Whether in graduate school or undergraduate programs, the retention 
problem is always present. Native Americans and Latinos may not feel 
comfortable in a primarily Anglo environment. The cohort approach gives 
them community, and the SIRLS program offers opportunities to go beyond 
their cohort and interact with all students. Both cohort support and 
integration are necessary.
    4. Do you know if the University of Arizona will continue this 
program after the IMLS grants ends? Is there any plan to expand the 
number of underrepresented populations recruited to the program?
    Presently the foundational Knowledge River program is self-
sustaining at 12 students, using library partners and funds from SIRLS. 
The new IMLS 2008 grant we just received increases the numbers of KR 
students to 16, funds professional development activities, and provides 
funds for community outreach and WE Search.
    The subject of reaching other under-represented populations is 
under discussion, in terms of a different program, parallel to 
Knowledge River, probably online to reach people who cannot relocate to 
Tucson. Knowledge River is working so well for the two cultural 
communities rather than change it, we are considering creating an 
online program for all under-represented communities. This idea is only 
in the initial stages.

                               REFERENCES

Kahle, J. B., Meece, J., & Scantlebury, K. (2000). Urban african-
        american middle school science students: Does standards-based 
        teaching make a difference? Journal of Research in Science 
        Teaching, 37(9), 1019-1041.
                                 ______
                                 
                                             U.S. Congress,
                                Washington, DC, September 17, 2008.
Dr. Anne-Imelda M. Radice, Ph.D., Director,
Institute of Museum and Library Services, Washington, DC.
    Dear Dr. Radice: Thank you for testifying at the September 11, 2008 
hearing of the Committee on Education and Labor on ``Examining the Role 
of Museums and Libraries in Strengthening Communities.''
    Representative Carolyn McCarthy (D-NY), chairwoman of the Healthy 
Families and Communities Subcommittee has asked that you respond in 
writing to the following questions:
    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    2. Since more and more people Google rather than go to a library or 
museum to research a subject, have any studies been completed on the 
affect of the Internet, with its vast amount of information at your 
fingertips, on the usage of libraries and museums? Have any 
recommendations been made or changes implemented in libraries and 
museums to you r knowledge to address the growing dependence of society 
on the Internet as a source of information?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
September 23, 2008--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

              Ms. Radice's Answers to Questions Submitted

    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    Working with museums and libraries to enhance learning has always 
been an important strategic goal of the Institute of Museum and Library 
Services (IMLS). I am attaching several publications we have produced 
on the topic of museums and libraries and K-12 education.
    Museums and libraries have important roles to play in supporting 
science and math learning both inside and outside the classroom. They 
bring unique assets to youth development, including dedicated, 
knowledgeable staff; authentic objects, artifacts, and information 
resources; opportunities for personalized, hands-on learning; support 
for cognitive and social development; and experiences to help parents, 
families, and caregivers make learning fun and rewarding. We know that 
quality library and museum experiences can support student achievement.
    Studies from around the world have shown that science and 
technology museums, zoos, aquaria, and science centers provide 
memorable learning experiences which can have a lasting impact on 
attitudes and behavior. In 2006, Ecsite-uk, the ``UK Network of Science 
Centres and Museums,'' published a review of worldwide studies on the 
impact of these institutions, collectively referred to as science 
centers. Researchers found that visits to these institutions provide 
memorable learning experiences and increase visitors' knowledge and 
understanding of science.
    IMLS has a long history of supporting projects that promote 
collaboration among libraries, museums and schools. The following are 
some recent examples:
    <bullet> With a 2008 grant of $147,000, the Detroit Science Center 
in Michigan will expand school community outreach activities, including 
teacher professional development, Traveling Science outreach programs 
to schools and other community-based organizations, curriculum and 
science activity kits for science classrooms, and afterschool science 
clubs and increased sponsorship of field trips for schools and 
organizations that serve minority and disadvantaged youth. A 
collaborative network among the Detroit Science Center, the Detroit 
Public Schools Office of Science Education, the Detroit Area Pre-
College Engineering Program, Communities in Schools of Detroit, and the 
Youth Development Commission will help identify and take advantage of 
opportunities to expand the reach of the center into schools and the 
community to improve science education in metropolitan Detroit.
    <bullet> A 2007 grant of $149,971 supports a project that builds on 
existing partnerships between Gateway to Science and the Bismarck 
Public School District, along with the Bismarck Parks & Recreation 
District, Dickinson State University, and the University of Mary in 
North Dakota, to present hands-on science, technology, engineering, and 
math (STEM) activities for elementary school students enrolled in Out-
of-School Time (OST) programs. Gateway to Science will work with pre-
service teachers at Dickinson State University and the University of 
Mary to present weekly hands-on STEM activities at established OST 
programs. The project will provide STEM-focused activities for the 
students at six different schools.
    <bullet> The Catawba Science Center (CSC), Hickory, North Carolina 
used a 2006 grant of $74,938 to develop the Inventor's Lab, one of the 
first elements of its Touch the Future capital expansion. The 1,300-
square-foot lab will support several experiential modes: structured 
group visits, facilitated activities, unstructured casual visits, and 
science demonstrations and shows. It will provide the context for open-
ended, inquiry-driven science activities and demonstrations facilitated 
by middle and high school science students from CSC's innovative STEP 
program, whose participants represent the racial and economic diversity 
of the greater Hickory community. Lab activities will extend beyond 
CSC's walls as outreach presentations in underserved areas of Hickory 
and Catawba County. A primary goal is to use the lab as the context for 
engaging an increasingly diverse audience.
    School libraries are also essential partners in the education of 
children. IMLS worked with Laura Bush and the Office of the First Lady 
to convene and publish the proceedings from the first ever White House 
Conference on School Libraries, a landmark event that brought together 
leaders from the fields of education, library services, government, and 
philanthropy to highlight the importance of school libraries in 
children's education. At this conference, attendees heard from 
government and foundation leaders, researchers, and librarians about a 
variety of studies that demonstrated the power of the library in 
students' learning. The distinguished speakers agreed that libraries--
in classrooms, schools, and communities--are vital for children's 
achievement, and developing informational needs. Repeated studies 
document the positive impact of a quality school library and trained 
library media specialist on student achievement.
    The dialogue on the reauthorization of NCLB would be enriched by 
involving leaders of the science and technology center community and 
other museum and library experts to:
    <bullet> Build upon our current knowledge and accomplishments in 
school, museum and library collaborations that put the needs of 
learners' first;
    <bullet> Make recommendations to remove barriers to encourage 
schools to make optimal use of community learning resources;
    <bullet> Stimulate innovation;
    <bullet> Increase the use of digitized resources in the classroom;
    <bullet> Prioritize research to identify best practices and 
disseminate model demonstration projects.
    2. Since more and more people Google rather than go to a library or 
museum to research a subject, have any studies been completed on the 
affect of the Internet, with its vast amount of information at your 
fingertips, on the usage of libraries and museums? Have any 
recommendations been made or changes implemented in libraries and 
museums to your knowledge to address the growing dependence of society 
on the Internet as a source of information?
    While the use of Google and other Internet tools is certainly 
widespread and growing, our research disputes the contention that 
people are using these tools rather than libraries and museums. I am 
attaching the conclusions overview of InterConnections: The IMLS 
National Study on the Use of Libraries, Museums and the Internet, the 
results of which I released in March at the Institute's annual WebWise 
Conference on Libraries and Museums in the Digital World. This 
groundbreaking study found that contrary to the notion that the 
Internet is replacing libraries and museums, it actually increases the 
use of these long-trusted institutions.
    The following are some of the findings and conclusions of 
InterConnections:
    <bullet> Libraries and museums are trusted far more than other 
sources of information including government, commercial, and private 
Web sites.
    <bullet> The vast majority of visitors to museums (95%) and public 
libraries (96%) continue to visit in person, an indication that the 
Internet is not replacing in-person visits.
    <bullet> The number of remote online visits is positively 
correlated with the number of in-person visits to museums and public 
libraries.
    <bullet> Internet users are more likely than non-users to visit 
museums and public libraries and to visit them more frequently.
    <bullet> To fulfill their need for information, most adults use 
museums, public libraries, and the Internet. Museums and public 
libraries are used by 70%, the Internet is used by 83%, and nearly half 
use all three.
    <bullet> The public benefits significantly from the presence of 
museums and libraries on the Internet.
    IMLS also funded a survey conducted by the Pew Internet & American 
Life Project and the University of Illinois, examining what sources 
people consult when they need information to solve common problems, 
such as those concerning health care, education, taxes, and job 
searches. The survey, Information Searches That Solve Problems: How 
People Use the Internet, Government Agencies, and Libraries When They 
Need Help, found that 53% of American adults had visited a public 
library in the previous 12 months. In what appears to be a direct 
refutation of the belief that library usage is dropping, the survey 
found that younger adults are the most likely to visit the library (62% 
of those 18-30 and 59% of those 31-42). And, like the Interconnections 
study, the Pew/UI survey found that Internet users are more likely to 
use libraries than non-users: 61% of those who use the Internet 
reported going to libraries in the past year, compared with only 28% of 
those who do not use the Internet.
    The survey confirmed that ``more people turn to the internet (at 
home, work, libraries, or other places) than any other source of 
information and support, including experts and family members.'' This 
is not surprising since accessing the Internet takes so little effort 
for most people. But the survey also found that personal assistance 
from a librarian has the potential to greatly increase an information 
seeker's level of satisfaction: ``Nearly four in five (79%) say they 
were very satisfied with the assistance they received from the library 
staff, and 19% say there were satisfied. Only 1% said they were 
unsatisfied.'' Among those who received personal help at the library, 
88% said they found ``a lot'' or ``some'' of what they were seeking. 
That this extraordinary level of satisfaction does not translate into 
more people using libraries to help solve problems suggests, as the 
Pew/UI survey says, ``that a key challenge for librarians is to make 
sure that those who consider the library as a potential problem-solving 
resource actually recognize they can use the library.''
    We also know that libraries give users the ability to find 
information more specifically suited to their needs. Digitization 
technologies and the statewide licensing of databases--a common use of 
IMLS Grants to States funding--provide a much more specialized pool of 
information than can a mammoth search engine such as Google.
    Based on our findings and experiences, we recommend that museums 
and libraries continue embracing the Internet as they have been, and 
that they continue their community outreach efforts to ensure that 
people are aware of the tremendous resources they provide.
                                 ______
                                 
                                             U.S. Congress,
                                Washington, DC, September 17, 2008.
Ms. Mary Clare Zales, Deputy Secretary of Education for Commonwealth 
    Libraries, and Commissioner for Libraries,
Office of Commonwealth Libraries, Harrisburg, PA.
    Dear Ms. Zales: Thank you for testifying at the September 11, 2008 
hearing of the Committee on Education and Labor on ``Examining the Role 
of Museums and Libraries in Strengthening Communities.''
    Representative Carolyn McCarthy (D-NY), chairwoman of the Healthy 
Families and Communities Subcommittee has asked that you respond in 
writing to the following questions:
    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    2. In your written testimony you highlight two regional libraries 
for the Blind and physically handicapped. Can you describe in more 
depth the kind of services offered?
    3. Can you describe what growing needs that rural libraries have 
based on your experience in Pennsylvania, if those needs are being met, 
and if so, how?
    Please send an electronic version of your written response to the 
questions to the Committee staff by close of business on Tuesday, 
September 23, 2008--the date on which the hearing record will close. If 
you have any questions, please do not hesitate to contact the 
Committee.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 

               Ms. Zales' Answers to Questions Submitted

    Dear Chairman Miller: Please find attached responses to the 
questions submitted by Committee members in regards to the hearing for 
which I testified on September 11, 2008.
    I appreciate the opportunity to respond to inquiries on the 
important topic of examining the role of libraries in strengthening 
communities. In addition to my responses to the follow-up questions, I 
wish to mention further the important role that libraries play for 
teens today. Libraries have seen dramatic increases in teen summer 
reading program attendance and many libraries have teen centers and 
collections. Libraries provide a safety net with after-school programs 
and evening hours that give young teens a safe place to be and 
activities to engage them and keep them off the streets. Across our 
state and across the nation libraries have become a cool place for 
teens to be.
    If I may be of any further assistance to the Committee, please do 
not hesitate to contact me.
            Sincerely,
                                             M. Clare Zales
                                    Deputy Secretary for Libraries.

    1. Please describe how museums and libraries can work together with 
Congress, schools, and other stakeholders to improve math and science 
education both inside and outside the classroom in the context of the 
reauthorization of the Elementary and Secondary Education Act of 1965, 
better known as NCLB? If you have thoughts outside NCLB those are also 
welcome.
    When it comes to our children's education, we must ensure that they 
receive the best instruction possible from competent, qualified 
instructors. This is true in the classroom and should be true in our 
school libraries. The over 62,000 state certified library media 
specialists in public schools and 3,909 state certified library media 
specialists in private schools in the United States fill multiple 
roles--teacher, instructional partner, information specialist, and 
program administrator--ensuring that students and staff are effective 
users of information and ideas.
    Multiple studies have affirmed that there is a clear link between 
school library media programs that are staffed by an experienced school 
library media specialist and student academic achievement. The research 
studies show that school libraries can have a positive impact on 
student achievement--whether such achievement is measured in terms of 
reading scores, literacy, or learning more generally. Unfortunately, 
about 25 percent of America's school libraries do not have a state-
certified librarian on staff.
    In Pennsylvania, school, public and academic libraries provide 
students with authoritative databases in the sciences that are 
available statewide. The books and other materials of these libraries 
are also available in a statewide online catalog that enables students 
to find and borrow items statewide to support research in the sciences. 
These library programs also benefit dual enrollment students who are 
taking college level courses while still in high school. With the 
assistance of trained library staff, students are able to obtain the 
information they need to perform better in the classroom. These same 
resources also provide professional literature in math and science 
education for teachers to assist them in the performance of their jobs.
    2. In your written testimony you highlight two regional libraries 
for the Blind and physically handicapped. Can you describe in more 
depth the kind of services offered?
    The Libraries for the Blind and Physically Handicapped in 
Pittsburgh and Philadelphia are part of the National Library Service--a 
nationwide program serving persons with disabilities. Among the many 
types of services offered by these libraries are books and magazines on 
audiocassettes, in large print and in Braille, as well as descriptive 
videos and assistive technology that can magnify print, enlarge 
computer screens, convert print and computer screens into synthesized 
speech, and create Braille documents using computer software.
    I would like to share with you two stories from our Regional 
Libraries that illustrate the use of these services:
    <bullet> A grandmother who uses talking books asked her Regional 
Library how she might share books and puzzles with her sighted 
granddaughter who lives in another state. The library recommended that 
she subscribe to the large-print junior quarterly newsletter for its 
young readers. She cuts out the articles and games from the newsletter 
and sends them to her granddaughter. Her granddaughter's teacher wanted 
to know how she knew so much about different books, library topics and 
literary jokes. Her granddaughter replied, ``Nana's special library!''
    <bullet> An elderly gentleman who has a physical disability and is 
in constant pain visits his Regional Library periodically to use the 
computers with screen magnification. He recently read an article about 
the library aimed at senior citizens. ``I had no idea of the magnitude 
of what you do here! What wonderful service. And for a staff who has so 
much responsibility to maintain such kindness and efficiency is 
amazing.''
    Pennsylvania is participating with other states to prepare for the 
transition from the current books on audiocassette program to the new 
National Library Service Digital Talking Book project by 2010. This 
will provide a great advancement in ease of use and efficiency, but it 
comes with an expense which in Pennsylvania in being borne by a 
combination of state and federal Library Service and Technology Act 
funds.
    The Libraries for the Blind and Physically Handicapped provide 
services to individuals who have no other recourse for the information 
they need for school, work and daily living. Providing this service on 
a state and national level offers great efficiencies and technological 
advancements that could not be achieved on the local level. Local 
libraries and other service providers are able to offer this service to 
eligible residents who then are able to take advantage of this 
wonderful and essential program.
    3. Can you describe what growing needs that rural libraries have 
based on your experience in Pennsylvania, if those needs are being met, 
and if so, how?
    Libraries play an especially important role in rural areas, where 
geography can affect people's ability to obtain the information they 
need. This is particularly true in the area of telecommunications. 
Pennsylvania has a large number of rural communities where high-speed 
Internet connections are either not available or, when available, are 
inadequate for keeping up with today's demands for information at work, 
school and home.
    The Study of Internet Connectivity in U.S. Public Libraries 
released this year by the American Library Association and Florida 
State University shows that rural libraries have Internet connectivity 
speeds that were generally slower when compared to libraries overall. 
States such as Pennsylvania with a high percentage of rural libraries 
also have a higher percentage of libraries without high-speed 
connections and without wireless Internet access.
    There is a need for Congress to develop a long-range vision for 
broadband deployment and to recognize that libraries are critical 
partners during broadband planning and build-out. Libraries are 
especially important for long term service to households without any or 
with very slow connectivity, in rural, hard-to-reach, and low-income 
communities. In Pennsylvania we have been able to use Library Services 
and Technology Act funds to assist rural libraries in improving 
computer services within libraries and among libraries to better meet 
the needs of the public.
    In rural areas libraries are often the community center providing 
children and adults educational and cultural opportunities as well as 
business and job information. Interlibrary loan is particularly 
valuable in rural areas due to the greater distance between libraries. 
More materials are being borrowed from other libraries for library 
patrons to meet the increased need for information in today's society. 
In Pennsylvania school, public, academic and special libraries 
cooperate together in a statewide online catalog of library holdings to 
make access to libraries easier for our residents. While libraries in 
our state have made great strides in meeting the needs of rural 
residents, there is still a need for greater funding for libraries 
particularly to keep collections up-to-date and adequate.
    Facilities are also in great need of expansion and improvement. 
Construction needs greatly exceed monies available. Library Services 
and Technology Act funds can help in the areas of increasing services 
and improving library collections, but they are not a source for 
library construction. While technology has become an important aspect 
of rural library service, the basic needs for staff, books, and 
buildings are still very important in meeting the library needs of our 
nation's rural citizens.
                                 ______
                                 
    [Additional statements submitted by Mrs. McCarthy follow:]

         Prepared Statement of the American Library Association

    The American Library Association is the oldest, largest library 
association in the world representing over 66,000 libraries, librarians 
and library supporters.
    Around the country, knowledgeable librarians help patrons of 
diverse geographic, cultural, and socioeconomic backgrounds, 
individuals with disabilities, and people with limited literacy or 
skills access essential information on a wide range of topics. In a 
2008 survey for IMLS, respondents identified libraries as the most 
trusted source of information.
    They provide training on resume development; job bank web searches; 
workshops on career information; links to essential educational and 
community services; assistive devices for people with disabilities; 
family literacy classes; homework help and mentoring programs, and so 
much more.
    Americans check out an average of seven books a year. A Harris poll 
in 2008 found that more than one-third of Americans read more than 10 
books in an average year. Almost half of all in-person visitors to the 
library use a library-provided computer. These visitors use the 
computer for formal education and work-related purposes.
    A January 2007 report by the Urban Libraries Council (ULC) 
concludes:
    ``Public libraries are logical partners for local economic 
development initiatives that focus on people and quality of life. 
Libraries are widely available, highly regarded public institutions 
that provide a broad range of information services and support for 
diverse constituencies * * * Their open structure, combined with the 
power of new digital collections, technology, and training, position 
them to help communities make the transition from manufacturing and 
service economies to high tech and information economies.''

Business
    For many small businesses the library provides research resources 
and staff they could not otherwise afford.
    The Topeka & Shawnee County Public Library Business Librarian, 
Terry Miller, works in conjunction with the Small Business Development 
Center to provide classes for business startups, and give instruction 
on their many business resources. The Executive Director also works on 
the board of the Topeka Visioning Project; to determine which direction 
the city should go in terms of economic development, community 
development, and quality of life issues.
    The Lebanon Public Library in Lebanon, Indiana has a separate 
business collection and provides extra reference services for patrons 
interested in starting, growing, and maintaining businesses. They 
partner with the Boone County Learning Network to offer business basics 
classes, and with the Boone County Chamber of Commerce to reach out to 
and support new and established businesses that might otherwise be 
unaware of the resources a small-town public library offers. The 
Library also maintains a ``Business File'' which allows any locally 
owned company to deposit publicity and marketing materials for 
distribution to interested patrons. Finally, the Library offers space 
for businesses and hiring agencies to hold job fairs and interviews.
    The Mead Public Library in Sheboygan, Wisconsin began a partnership 
with SCORE in 2008, in order to provide information to small business 
owners. A program was held in May, focusing on marketing and sales, 
human resource development, and cash and expense control. It also 
included a description of all types of aid offered by SCORE, and a tour 
of the library, so that attendees would gain an understanding of the 
ways in which library collections and technology could help them. The 
four presenters, all SCORE volunteers, had a combined total of over 100 
years of business experience and knowledge to pass on.
    In the fall of 2008, SCORE will again be presenting a program at 
the library aimed at small business owners. It will focus on developing 
and writing business plans, including: executive summaries, mission 
statements, company structures, products/services, target customers, 
marketing analysis, market potential, getting to market, identifying 
competition, promoting products/services, differentiation, pricing, and 
financial modeling.
    The Skokie Public Library has an extensive and well-established 
Employment Resource Center for Adults. The information is also 
available on the Library's Web site. There is a Skokie Career Support 
Group that meets monthly at the Library with a licensed career 
counselor. The Library maintains a list of major employers in Skokie 
and posts open positions on a Board in the Employment Resource Center. 
Skokie librarians maintain a web site with information about 
metropolitan area employment resources. They also offer programs every 
month such as this month programs on ``Death to Boring Resumes'' and 
``Going into Your Own Business''. These programs bring in outside 
experts to talk with library patrons.
    The Village Library of Morgantown is a small public library in 
rural Pennsylvania that is building a new Small Business Collection for 
local business owners. Included in this new section of the library will 
be several print resources on starting and growing a business, a set of 
online databases for business owners to reference either in the library 
or at home and a new state-of-the-art computer with the most up to date 
software. This collection is the start of their business services, to 
be followed by programs such as workshops from the local SCORE group 
and breakfast talks from the business librarian of a larger library 
located several miles away. The funding for this project was provided 
by an LSTA grant.
    Grand Rapids Public Library in Michigan opened a Small Business 
Resource Center with workstations, print and online resources to help 
small business owners find the current market research and startup 
information help they need to succeed, including industry, competitor 
and customer information. We guide the research paths of both starting 
and current business owners and often refer them to other area 
organizations that provide free business counseling and classes.
    The local SBA representative does two programs per year at each of 
Gloucester County Library System's branches. Called ``Financial and 
Technical Assistance for Small Business'', he explains the many free 
training programs and financing options available to anyone thinking of 
starting a business or expanding an existing business. This same SBA 
representative conducts an occasional SBA day in the library where 
individuals can make an appointment with him and ask any business 
questions they like.
    One of the most popular services at the Scarborough Library is 
their annual Small Business Week. They set up a display representing 
30-35 members of the small business community. This provides visibility 
to the many businesses that do not have a storefront or obvious public 
presence but represent the majority of the more than 1000 small 
businesses. During this week they also have educational seminars for 
the business community. This year's theme was ``Going Green'' and it 
highlighted the environmental initiatives within each participating 
business from recycled office supplies and packaging to programmed 
thermostats and new lighting. The seminars featured speakers from the 
Maine Public Utilities Commission and the local regional waste 
business-recycling program.

Early Childhood
    The children's program called ``Booking With a Buddy'' benefits 
early readers, generally children who have just completed first or 
second grade, and need practice in reading over the summer. In Skokie, 
the program is particularly helpful to families speaking a language 
other than English at home because there may not be anyone who can read 
in English with the child. This summer, 57 young children were paired 
with 49 older kids of junior high or high school age who volunteered to 
meet with the young children at least once a week for reading sessions 
at the Library. Of course, the older kids benefit from the experience 
also, but the Library holds a pizza party to thank them at the end of 
the summer.
    In 2007, the Durham County Library joined with the Durham Public 
Schools and MetaMetrics to intensify the library's efforts to counter 
the ``summer slide'' phenomenon. The project encourages Durham's 
students to continue reading throughout the summer months, by helping 
students and their parents use their Lexile scores to choose the best 
books they are interested in reading. When the End-of-Grade report is 
sent home, a special letter accompanies it from the School 
Superintendent encouraging students to participate in the library's 
summer reading club. Although the schools have always sent home the 
Lexile scores most parents did not understand how to use them or did 
not pay close attention to them. The parents' primary concern was 
whether or not children were being promoted to the next grade.
    The Durham County Library Bookmobile provides individualized 
library service to a diverse population throughout the County that 
otherwise does not have access to library services. The bookmobile is 
on the road six days a week covering over 200 miles each week, visiting 
over 80 locations each month, driving on highways and back country 
roads. Although the Bookmobile serves all sectors of the Durham 
population, the focus is on three major groups: preschools and 
daycares, Durham public housing neighborhoods, and outlying 
neighborhoods and shopping centers not located near a branch library.

Young Adults
    In a 2007 Harris poll, more than three-quarters of youth 8-18 said 
that they have a library card. More than 80% said that they have been 
to their school or public library in the past year, and 18% said that 
they had been more than 20 times.
    Skokie Public Library sponsors a teen job fair each spring, 
together with the Skokie Park District. Agencies and businesses such as 
fast food restaurants that hire teens have representatives at tables at 
the fair. Teens can find out about job possibilities and sign up for 
interviews. The Library also conducts mock interviews and prepares tips 
on how to be successful in your first job.
    The Santa Clara County Library created ``Get Tech @ the Library'', 
a program to address the user-based need for increasing the interest, 
confidence, and creative thinking in science and technology of youth in 
grades 7 and 8 with a special emphasis on Hispanic and female youth.
Immigrant Outreach (ESOL & Computer Classes)
    Durham County Library has a full-time Hispanic Services Coordinator 
who goes out into the community to get library services to Latino 
community members. The library also offers English for Speakers of 
Other Languages classes at many of its facilities.
    The San Diego County Library offers Gateway Internet classes to 
residents of the County that are Chaldean, Iraqi, Kurdish, or Arab and 
need computer instruction and training on how to access and use the 
Internet and the library resources at the Library. The need was 
determined by a community needs assessment, interviews with community 
leaders that are stakeholders and input from staff.
Free Access to Computers and Basic Computer Classes
    More and more computer access is necessary to apply for jobs and to 
gain critical information. 73% of U.S. public libraries reported in 
2008 survey that they are the only source of free public access to 
computers and the Internet in their communities. Libraries are working 
to close the ``digital divide'' in many of our nation's distressed 
communities; 99% of public libraries offer no fee, public access to 
computers to the Internet. 73% offer information technology training 
for their patrons.
    But 83% of all public libraries reported in 2008 that there are 
fewer public Internet computers than patrons who wish to use them some 
or all of the time, up 5% from last year. And, 58% of libraries report 
that their current Internet connection speed is insufficient.
    The Durham County Library offers basic computer courses for free. 
Community members can take Intro to Computers, Word, Excel, Email and 
Internet courses. By offering these courses, the library helps to 
bridge the technology divide and ensure access to the entire community.
    Queens Library offers the community's only free workshops on basic 
computer skills in Spanish, helping new Americans prepare for better 
jobs. Computer skills workshops in English are filled to capacity.

Military Base Libraries
    Military librarians are addressing the changing needs of all 
service members and their families by adding new resources to the 
military online library located at www.militaryonesource.com. This has 
been a joint collaboration of all branches of the military in an effort 
to increase the online library offerings to all service members and 
their families. The lead librarians of each service have worked hard to 
ensure that quality materials will be made available online seven days 
a week, twenty-four hours a day to people of all ages located around 
the world.
    This new offering on Military OneSource is a more convenient way 
for service members and their families to access materials, and also 
saves the different branches from purchasing the same materials 
separately. These new resources will be especially helpful to those 
National Guard and Reserve service members and families that do not 
have regular access to a general military library.
    It is a combination of recreation and self-help material that comes 
in different formats, including audio, interactive, and text. 
Especially useful are books on ``Playaway'' format, individual audio 
books that can be passed around among the soldiers over seas and come 
equipped with a battery, lanyard and the earphones.
    The Andrews Air Force Base library has a large collection of study 
materials for military personnel and their families who are continuing 
their education. The base librarians are also available to proctor 
exams as needed. Youth on the base gather at the library as they 
participate in a youth chess club.
    The Marine Corps' Gray Research Center Base Library has a wonderful 
interactive children's area where the library holds story time and 
craft sessions. This area is often full of young families enjoying the 
activities sponsored by the library. There is also a computer and study 
space for the adults that are separate from the children's area, 
allowing the adults to focus on their reading.

E-Government Services
    As government agencies continue to digitize forms and services, 
public libraries--as centers for public access computing in their 
communities--are often the only organizations that can help citizens 
interact with their government and access E-government services. 74% of 
libraries report that their staff provides as-needed assistance to 
patrons for understanding and using e-government resources.
    This user assistance can range from teaching how to use the 
Internet to search for E-government information and forms, to locating 
and using various benefit programs whose applications are only 
available online, to completing job applications. Some of the most 
noteworthy E-government initiatives launched in recent years include 
electronically filing taxes, making appointments for immigration 
interviews, and applying for the Medicare Prescription Drug Card, for 
which librarians have become unintended experts.
    Low-income families, and particularly the elderly, often do not 
have Internet access at home or do not know how to use it. Even 
families that do have Internet access continue to go to the library, 
because their connectivity or software is not sufficient for accessing 
programs, and/or they want the knowledge, guidance, and personal 
assistance of a trusted librarian.
    The Cobb County Public Library System's Stratton Branch has a firm 
belief that each patron's need deserves a more then adequate response. 
Cobb County librarians do not only locate government information for 
their patrons online, but they will also help the patron as much as 
possible in completing their work. This can entail acquiring an email 
address for the patron and navigating through applications such as 
FAFSA and Medicare Part D. This one reference transaction can take well 
over an hour of the librarian's time.
    The Skokie Public Library sponsors a public forum for a 
representative from the local Congresswoman's office two evenings per 
month at the library. People may come without appointments to ask 
questions about any federal services such as Veterans' benefits, Social 
Security, immigration issues, Medicare, etc. Recently, a second 
representative who speaks Spanish has begun to come to the library to 
help Spanish-speaking residents. The evening hours and neutral image of 
the library contribute to the success of this program.

Life Long Learning
    The Queens Library (New York) offers free programs that give the 
community needed practical tools to enrich their lives. To address the 
current state-of-affairs in the mortgage and credit sectors, the 
library has been offering workshops on the Money Mistakes of First-time 
Homebuyers, along with classes in financial literacy, in English and in 
several major immigrant languages.

Seniors
    The Topeka Public Library has a program to serve the older 
population, the ``Red Carpet Service'' a dedicated bookmobile that 
visits nursing homes, congregate living centers, and meal sites. They 
also have volunteers that make home visits with staff for 
individualized service. This service includes providing low vision 
magnifiers and other devices for people with disabilities to try for 
three weeks, so that the patron can test them in their own home. Then 
the librarian assists with ordering information to obtain the device.
    Durham County Library's OASIS (Older Adult and Shut-In Service) 
offers services to individuals unable to visit the library due to age, 
illness, or physical disability. OASIS provides reading material and 
programs to homebound people in nursing and rest homes, retirement 
communities, senior centers, and private residences. Prisons and other 
institutions are also served through OASIS.

School Libraries
    When it comes to our children's education, we must ensure that they 
receive the best instruction possible from competent, qualified 
instructors. This is true in the classroom and should be true in our 
school libraries. Education is not exclusive to the classroom; it 
extends into school libraries and so should the qualification we demand 
of our school librarians. Students visit school library media centers 
1.5 billion times a year.
    School library media specialists are, in every level of education, 
the professionals who give students the skills they need for jobs in 
the 21st century workplace: computing, networking, and learning how to 
locate and utilize all the information available to them. The over 
62,000 state certified library media specialists in public schools and 
3,909 state certified library media specialists in private schools in 
the United States fill multiple roles--teacher, instructional partner, 
information specialist, and program administrator--ensuring that 
students and staff are effective users of information and ideas.
    Multiple studies have affirmed that there is a clear link between 
school library media programs that are staffed by an experienced school 
library media specialist and student academic achievement. The research 
studies show that school libraries can have a positive impact on 
student achievement--whether such achievement is measured in terms of 
reading scores, literacy, or learning more generally.
    School libraries are critical partners in ensuring that states and 
school districts alike meet the reading requirements that are part of 
the No Child Left Behind Act (NCLB), as well as Congresses unequivocal 
commitment to ensuring that every child can read by the end of third 
grade.
    Our Nation's school libraries are facing a crisis. With limited 
funding and an increased focus on school performance, administrators 
are trying to stretch dollars and cut funds across various programs to 
ensure that maximum resources are dedicated to improving student 
academic achievement. Only about 60 percent of our school libraries 
have a full-time, state-certified school library media specialist on 
staff.
    Because NCLB does not highlight the direct correlation between 
school library media specialists and increased student academic 
achievement, library resource budgets are increasingly being used to 
mitigate the effects of budgetary constraints. When you reauthorize 
NCLB, you can address this oversight by highlighting the important role 
school library media specialists play in academic achievement and 
require school districts, to the extent feasible, to ensure that every 
school within the district employs at least one state-certified library 
media specialist in each school library.
                                 ______
                                 

     Prepared Statement of Ford W. Bell, DVM, President, American 
                         Association of Museums

    Chairwoman McCarthy, Ranking Member Platts, and Members of the 
Subcommittee, thank you for holding this hearing today on how museums 
and libraries help to strengthen communities. Given the many important 
issues facing our nation, I am grateful to you and to your staff for 
devoting time today to the crucial work museums do every day to 
strengthen communities. It is particularly appropriate that this 
hearing take place on this solemn, sober anniversary--museums are where 
future generations will likely learn of September 11, 2001 and how the 
events of that day changed America and the world.
    As President of the American Association of Museums, I am keenly 
aware of the ways in which museums work in the community to offer 
lifelong learning opportunities, promote civic engagement, celebrate 
cultural heritage, and much more.
    As you may know, the American Association of Museums (AAM) 
represents the full range of museums--art museums, history museums, 
science centers, children's museums, zoos and aquariums, public gardens 
and many specialty museums--along with the professional staff and 
volunteers who work for and with museums.
    Museums are all about connections to the natural world; to the 
science that explores the workings of the universe; to the documents, 
artifacts and places that make up our history; and to the greatest 
achievements of humankind. Museums also connect Americans to the 
future, fostering innovation and sparking creativity. Indeed, education 
is the central purpose of museums.
    However, unlike schools and libraries, most museums operate as 
private, nonprofit organizations with nominal government funding. 
According to AAM's most recent financial survey, nonprofit museums 
receive approximately 24 percent of their budget from local, state and 
federal funding. The bulk of their income is derived from private 
philanthropy in the form of donations, grants and corporate 
sponsorships and earned income from admissions and gift shop sales.
Promoting Lifelong Learning
    A recent national survey indicates that Americans view museums as 
one of the most important resources for educating our children and as 
one of the most trustworthy sources of objective information. So it's 
not surprising that nearly 11,000 museums provide more than 18 million 
instructional hours for educational programs such as professional 
development for teachers, guided field trips for students, staff visits 
to schools, and traveling exhibits in schools.
    It is significant to note that most museums offering educational 
programs in math, science, art, and history use local and state 
curriculum standards to shape their educational programs.
    Museums serve as important community places to gather, learn, 
experience, imagine, and explore. Similar to a family dinner gathering, 
museums provide unique opportunities for families to communicate with 
each other. You will frequently find generations sharing experiences at 
a museum: a grandfather bonding with his grandchildren by telling 
stories of early transportation modes; a grandmother describing to her 
family how a significant news event changed the nation.
    Museums are also leading the way in environmental education. The 
Brooklyn Botanic Garden hosts numerous environmental education 
programs, including a community composting effort, in cooperation with 
the New York City Department of Sanitation. The project offers 
workshops in English and Spanish and provides instruction on composting 
in neighborhoods, businesses, community gardens and other institutions.
    Museums are making a difference in the lives of seniors. Two 
Philadelphia area World War II veterans in their 80s, Bill McLaughlin 
and Dick Hughes began visiting museums to help Bill through his wife's 
battle with Alzheimer's. They saw the Academy of Natural Sciences one 
week, the battleship New Jersey the next, and continued visiting local 
Philadelphia museums and historic sites for three years and a total of 
203 museums. Museums helped them maintain their independence and mental 
agility. This is a poignant example of how museums bring us together, 
and of how these public institutions served two men who had served 
their country so nobly.
    With 2.3 million museum visits per day--600 million visits per 
year--museums are indeed everywhere. There are more than 17,500 museums 
in the United States and nine out of 10 counties in America have at 
least one museum. Forty-three percent are located in rural areas. More 
than one-third (35%) of museums are free to the public, and of those 
museums that do charge, 98 percent offer special discounts, and nearly 
62 percent have free admission days.

Promoting Cultural Diversity and Understanding
    Museums serve as protectors of our artistic, historic, scientific 
and cultural heritages. Museums care for more than 750 million objects, 
including original historical documents, cultural artifacts, priceless 
works of art, and scientific specimens.
    At the Alutiiq Museum & Archaeological Repository in Kodiak, 
Alaska, visitors can explore 7500 years of Alutiiq heritage, including 
the endangered Alutiiq language. Community programs include an annual 
archaeological excavation, where community members participate fully in 
the excavation of a threatened archaeological site.
    The United States Holocaust Memorial Museum in Washington, DC 
serves as a living memorial to the Holocaust, inspiring visitors to 
confront hatred, prevent genocide, promote human dignity, and 
strengthen democracy.
    The Institute of Museum and Library Services (IMLS) makes a 
powerful contribution to helping museums reflect our nation's 
diversity. The Native American/Native Hawaiian Museum Services grants 
and Museum Grants for African American History and Culture have been 
instrumental in supporting cultural understanding and exchange, which 
strengthens our communities by bridging our differences.
    In St. Paul, the Minnesota Historical Society has initiated a 
program to help integrate the Twin Cities' sizeable Somali population 
into their new host culture. Somali women are often isolated due to 
religious and cultural strictures. This program trained 15 Somali women 
in the use of digital technology, resulting in a compelling film, Two 
Homes, One Dream: The Somalis in Minnesota. For the film the women did 
historical research; conducted oral history interviews with peers, 
elders, educators and community leaders; and filmed events across the 
Twin Cities. Four years after its completion, Two Homes, One Dream is 
still requested and featured in public screenings throughout the 
region, as its themes of cultural identity and the immigrant experience 
continue to resonate.

Promoting Global Competitiveness
    At a time when our nation is poised to lose its global competitive 
edge, museums are inspiring kids to study science.
    Pittsburgh's Carnegie Science Center stages a science, math, and 
technology camp (``Click!'') for girls 10-14, at the critical stage 
when girls frequently lose interest in these fields.
    The Oregon Museum of Science and Industry proudly tells the story 
of an ``OMSI kid'' who built his first telescope at the museum. Today 
that kid is Dr. Michael Barratt, medical doctor and NASA astronaut, who 
will be joining the international space station crew this spring. His 
connection to OMSI is so strong that he has asked to take an OMSI 
object on his upcoming space mission.
Serving as Economic Engines
    Museums serve as economic engines in many communities, helping to 
attract and retain businesses and inspiring tourism. When families plan 
their vacations, a museum is likely to be in the top three 
destinations.
    One-third of Americans say they have visited an art museum, history 
museum, aquarium, zoo, botanical garden, or science and technology 
center within the past six months. Almost a quarter has gone within the 
past year. Trips including cultural and heritage activities comprise 
one of the most popular and significant segments of the travel 
industry, accounting for over 23% of all domestic trips.
    In many ways, museums are the stitching in our social fabric, 
serving to bind America's diverse communities into one nation. 
Moreover, museums are a rarity among public institutions, in that they 
simultaneously illuminate our past, present and future. Museums also 
step in to complement stretched social services--a function that is 
increasingly important today. Similar to the members and staff of this 
committee, the mission of museums is public service. It is a role we 
are proud and privileged to fulfill.
                                 ______
                                 
    [Additional materials submitted by Dr. Jolly follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

Ellenbogen, K.M., Luke, J.J., & Dierking, L.D. (2007). Family learning 
        research in museums: An emerging disciplinary matrix? In J.H. 
        Falk, L.D. Dierking, & S. Foutz, (Eds.), In principle, in 
        practice. Walnut Creek, CA: Alta Mira Press.

    Family Learning in Museums: Perspectives on a Decade of Research

 Kirsten M. Ellenbogen,\1\ Jessica J. Luke,\2\ and Lynn D. Dierking\2\

Abstract
    This is an investigation of the growth of research on family 
learning in and from science museums over the last decade. To track 
this emergence we consider three issues: 1)shifting theoretical 
perspectives, resulting in a new shared language and set of 
beliefs,values, understandings, and assumptions about what counts as 
family learning; 2) realigning methodologies, driven by underlying 
disciplinary assumptions about howresearch in this arena is best 
conducted, what questions should be addressed, and whatcounts as valid 
and reliable evidence; and, 3) resituating the focus of our research to 
make the family central to what we study reflects a more holistic 
understanding of thefamily as an educational and the larger learning 
infrastructure. We discuss research thatexemplifies these three issues 
and demonstrates the ways in which shifting theoretical perspectives, 
realigning methodologies, and resituating research foci signal the 
existenceof a nascent field of research.
---------------------------------------------------------------------------
    \1\ Science Museum of Minnesota, St. Paul, MN
    \2\ Institute for Learning Innovation, Annapolis, MD
---------------------------------------------------------------------------
    In the spirit of the In Principle, In Practice Initiative, this 
chapter discusses how research focused on family learning in and from 
museums has progressed over the last decade and shares some 
perspectives from the field regarding its usefulness for practice. 
Although families were clearly a dominant audience in museums, there 
were not significant numbers of researchers focusing on family learning 
until the mid to late 1970s. By the late 1980s, there was an extensive 
body of literature that established the importance of family learning 
in and from museums (c.f., Astor-Jack, Whaley, Dierking, Perry, & 
Garibay in this volume).
    These early studies demonstrated the significance of families as a 
focus of museum research, identifying them as a major audience and 
unique learning group of mixed ages and backgrounds bound together by a 
complex shared system of past experiences, beliefs, and values. They 
also established the complex nature of family interactions, 
highlighting the ways in which family members interact and learn 
together and providing evidence that families bring an extensive array 
of personal and cooperative learning strategies to their experiences in 
museums. Much of this research was descriptive in nature, depicting 
family conversations, the roles adults and children assume, the 
influence of specific conversational rules on physical behavior, gender 
differences in parent-child interactions, and the similarities and 
differences between the conversations of families and all-adult groups.
    Ten years later, we are reaping the benefits of influential 
conferences (e.g., Falk & Dierking, 1995; Paris, 2002), benchmark 
political reports (e.g., AAM, 1992), the realization of a long 
anticipated `learning society' (e.g., Machlup, 1962; Hutchins, 1970; 
Falk & Dierking, 2002), and participation from researchers that 
represent increasingly diverse research backgrounds. We face a pivotal 
point as a community, with opportunities to offer insights and 
recommendations to those working with families in museums.
    We highlight three aspects of this new research to support our 
assertion that important progress has been made which holds great 
potential for influencing practice in the area: 1) shifting theoretical 
perspectives that signal shared language, beliefs, values, 
understandings, and assumptions about what constitutes family learning; 
2) realigning methodologies that are driven by underlying disciplinary 
assumptions about how research in this arena is best conducted, what 
questions should be addressed, and criteria for valid and reliable 
evidence; and, 3) resituating research foci to ensure that the family 
is central to learning, reflecting a more holistic understanding of the 
family as an educational institution within the larger learning 
infrastructure. We also explore connections between the theory and 
practice of family learning in museums, featuring reflections written 
by three museum professionals, highlighting their perceptions of what 
the progress in research has meant for developing meaningful museum 
experiences for families.
    Shared Language, Beliefs, and Values of the Field A major shift in 
the last decade of family learning research in museums stems from the 
use of sociocultural theory in learning research and a recognition of 
its suitability for museum research. Such a perspective frames learning 
in and from museums as socially and culturally constructed through 
people's actions within a specific community of practice. A community 
of practice shares a set of values, vocabulary, understandings, and 
assumptions (Wenger, 1998). A person's actions and interactions are 
interpreted by members of their group (Green & Meyer, 1991; Gumperz, 
1982), allowing them to construct meanings specific to the group 
through their conversations (Geertz, 1983; Green & Dixon, 1993). This 
shift may seem subtle, but the implications of embracing a 
sociocultural perspective are significant. Studies from this 
perspective focus not just on the immediate experiences of the family 
group in the museum, but more broadly on the ways in which the family 
group is situated within the larger social and cultural context. It 
necessitates understanding the shared meanings, processes, artifacts, 
symbols, and identities that families construct as they participate 
within a specific community of practice, more fully revealing the 
nature of the learning processes and products.
    Although there has been research on families' conversations in 
museums for more than a decade (c.f. Astor-Jack, Whaley, Dierking, 
Perry, & Garibay in this volume), this research more generally 
described how families interact and talk about topics presented in 
exhibitions and programs. Family members talk about what they know from 
previous experiences, discussing what they see, hear, read, and do in 
relation to their family experiences and memories. This research also 
demonstrated that these discussions provide opportunities for family 
members to reinforce past experiences, family history, and to develop 
shared understandings.
    The recent dominance of sociocultural perspectives in museum 
research build on the early studies of family conversations and enables 
current investigators to pursue a depth of understanding about family 
conversations and their role in identity building and other social and 
cultural aspects not understood previously. In particular, these 
perspectives have afforded opportunities for more in-depth 
investigation of the meaning and uses of conversations (c.f., 
Leinhardt, Crowley, & Knutson, 2002). Recent studies of families' 
conversations emphasize the processes families engage in to construct 
meaning and build identity, and the role of the museum experience in 
the family's larger social and cultural context (Ash, 2003; Crowley et 
al., 2001; Ellenbogen, 2002).
    One study conducted as part of the Family Learning Initiative, a 
systemic research effort at The Children's Museum (TCM) of 
Indianapolis, illustrates the recent theoretical focus on the family 
group and the shared meanings they construct through participation in 
the larger social and cultural context (Luke, Cohen Jones, Dierking, & 
Falk, 2002). The study (examined the long-term impact of two youth-
based museum programs on young adults and their families. Findings 
demonstrated that these programs influenced participants' attitudes, 
interests and awareness. However, the focus was not just on the impact 
at the level of the individual. The study employed a social systems 
approach to understand the long-term impact of participation in these 
two TCM program experiences within a larger sociocultural and 
developmental context. Within this expanded approach, findings 
demonstrated that these programs influenced family dynamics, giving 
young adults the opportunity to explore new roles within their family, 
gain new perspectives and identities within the family system, and 
learn new things about family members. There was evidence that 
interests that young adults developed within the program were carried 
over into the family context, resulting in shared family interests.
    Programs also influenced young adults' contributions and 
connections to the larger sociocultural community, fostering a 
tolerance of other people and cultures, and cultivating a sense of 
civic responsibility. These results suggest that a research perspective 
informed by sociocultural theory highlights not only the learning of 
the individual, but also learning at the level of social groups, such 
as family and community. Such shifts in theoretical perspectives also 
allow researchers to understand learning that is broader than content 
knowledge, such as learning to communicate with others, learning new 
things about family members and the family dynamic, and learning a 
sense of civic responsibility. These findings are building a shared 
language and set of beliefs and values in the field and are evidence of 
the progress that has been made in family learning research in museums 
over the last decade.
    Realigning Methodologies In the last ten years, researchers have 
attempted to more broadly and deeply investigate the nature of family 
learning in and from museums utilizing a variety of methodologies. Some 
of these methodologies are borrowed directly from other disciplines; 
others are unique improvements upon what has been developed previously. 
This change in methodologies is a natural realignment that accommodates 
shifts in assumptions about how research is best conducted, what 
questions should be addressed, and what is agreed upon by the community 
as valid and reliable evidence of family learning.
    Researchers are adopting diverse methodologies that include 
discourse analysis, video and audio recording of moment-by-moment 
interactions, pre-, post-, and post-postinterviewing, journaling, talk-
aloud cued visits, and providing family members with cameras as a 
documentation and meaning-making tool, all in an attempt to better 
understand and document the role that museums play in families' lives. 
These innovations are due, in part, to the strength of recent funding 
catalysts in the field that have supported conferences and research 
collaborations. In addition, museum researchers have become more aware 
of cutting edge research on family learning in other fields of research 
(e.g., Moussouri, 1997). Innovations in methodologies have also arisen 
organically as researchers draw upon their diverse training backgrounds 
and adapt preexisting methodologies to family learning research in 
museums.
    An example of the ways in which new methodologies have informed our 
understanding of family learning in museums is a multi-city, multi-
museum study focused on exhibit characteristics, family behaviors, and 
family conversations designed to identify the characteristics of 
exhibits that encourage family interaction (Borun et al., 1998). 
Multiple testing of the audio-taping methods used to record families' 
conversations resulted in a measure of the correlation between 
families' physical and verbal interactions and their learning, as 
measured through an interview process after families left an 
exhibition. Findings suggest that families engage in three levels of 
discourse: identifying, describing, and interpreting and applying. 
Findings from the second phase of the project concluded that families 
are learning from museums, but parents' mediating strategies are 
sometimes not the most effective for facilitating science learning.
    Another example is Personal Meaning Mapping (Falk, Moussouri, & 
Coulson, 1998) which is based on concept mapping techniques and allows 
participants to respond to a concept, topic, or experience in their own 
way. Researchers then use a structured system to code responses and 
conduct a quantitative analysis of the qualitative data. In a study 
investigating families' understandings of evolution (Luke, O'Mara, & 
Dierking, 1999), groups were encouraged to work together to write (or 
draw) anything that came to mind when they thought about a topic 
prompt. As they wrote and discussed their ideas, researchers recorded 
these negotiations to capture the family dynamic at work. Researchers 
used families' responses as prompts for a follow-up interview with the 
group. In this way, PMM allowed researchers to start with families' 
individual and collective perceptions of the topic and pursue their 
understandings in greater depth using their own language and 
terminology.
    The realignment of methodologies has also pointed to the need to 
extend research over time. Some of the earliest museum learning 
research (Robinson, 1936), as well as recent calls for such research 
designs (Falk & Dierking, 1995), note the importance of understanding 
what people do before and after their museum visit. Most commonly, an 
extended approach is taken by conducting a follow-up interview with 
families weeks, months, and even years after the museum visit. 
Researchers have repeatedly shown that many of the conversations that 
begin in the museum continue once families are back in the home (c.f., 
Astor-Jack, Whaley, Dierking, Perry, & Garibay in this volume). In 
addition, families are able to describe specific exhibitions and 
program elements without prompting, indicating the general durability 
of the museum experience.
    For example, a study of the impact of a genetics exhibition 
included follow-up telephone interviews with a sample of families who 
had visited the exhibition approximately six weeks earlier (Luke, 
Coles, & Falk, 1998). Families reported that they talked about the 
exhibition in the car on the way home, over dinner in the following 
weeks, or while engaged in some other activity, and described 
connections between the content in the exhibition and other 
circumstances or phenomenon in their lives.
    Ethnographic case studies that involved long-term relationships 
with a set group of families who visited museums frequently, allowing 
repeated observations and interviews before, during, and after museum 
visits (Ellenbogen, 2002, 2003), suggested that conversational 
connections among museum experiences and real-world contexts are 
frequent and pervasive.

A More Holistic Understanding of the Family as a Learning Institution
    Shifting research to a new theoretical perspective and realigning 
methodologies are critical steps in moving family learning research in 
museums forward. The empirical work emerging in the last decade focuses 
on families and their conversations, and examines learning beyond the 
walls of the museum. However, this is not enough; with this approach we 
are in danger of only superficially documenting the nature of family 
learning. At a broader level, we must understand family culture as 
dominant, resituating the focal point of what we study from the museum 
agenda to the family agenda, understanding the family as a learning 
institution within the larger learning infrastructure they inhabit, and 
the culture in which they function.
    The term `family agenda' (in contrast to `museum agenda') 
highlights the need for museums to not only be aware of themselves as 
resources for learning, but also aware of what each family might choose 
to take from the experience and each family's role in museum learning 
(Falk, Balling, & Liversidge, 1985; Hilke, 1987). This inverted point 
of view highlights the reality that families bring resources with them, 
which in turn influence the ways they interpret their museum 
experience. The term `family agenda' emphasizes the need to recognize 
and accommodate the resources families bring to the museum in order to 
create a successful family learning context. Researchers have argued 
that families not only have agendas for their museum visits, but that 
these agendas directly influence the impact of the museum experience.
    A radical interpretation of the notion of family agenda suggests 
that research that strives to fully understand how families learn in 
and from museums should situate itself within the educational 
institution of the family. Once the family is the starting point, the 
museum becomes one of many learning resources that the family uses. 
From this point of view, the position of the museum within the learning 
infrastructure (Falk & Dierking, 2002; Lewenstein, 2001; St. John & 
Perry, 1996) depends on the culture of the family--a more realistic 
reflection of real-world experiences.
    When the focus of the research is resituated to a family-centric 
perspective, identity-building becomes more significant. Identity is 
socially situated with respect to people's ongoing membership in 
specific communities of practice (Wenger, 1998). In Wenger's view, 
people's development of identities is an integral aspect of their 
participation in the practices of a community. Learners are members of 
a community to the extent that they have learned normative ways of 
thinking and acting that have been established by that particular 
community. Much of this learning is implicit and involves assumptions 
and rules about particular ways of speaking and participating in that 
community.
    Consequently, identities are not fixed or static, but in a constant 
process of formation (Holland, 1998; Kress, 1995; Wenger, 1998). People 
construct and contest identities through what they do and say. The 
development and negotiation of identity is influenced not just by 
community, but also by the organizations and institutions of the 
community. The museum, like all educational institutions (Bruner, 
1996), can be seen as a place of enculturation (Pearce, 1994). 
Enculturation involves developing identity as a part of a community, 
and the museum is one of the organizations that influence this 
activity. From this perspective, (e.g., Ivanova, 2003) we can begin to 
examine museums and other institutions in the learning infrastructure 
as places for building and affirming identity.
    Consider the findings of a study investigating a partnership among 
The Franklin Institute Science Museum and three inner-city Philadelphia 
schools designed to cultivate collaboration between teachers and 
parents in support of elementary children's science learning (Luke, 
Bronnenkant, & Dierking, 2003). Interviews with parents revealed that 
after only one year, participating families integrate elements of the 
program into their family life. In addition, parents feel that the 
program activities change their family learning dynamic, giving them an 
opportunity to step outside their traditional role as homework 
`dictator,' to instead work alongside their children to do activities 
and feel comfortable not having all the answers. Similarly, in the 
ethnographic case studies of family learning described earlier 
(Ellenbogen, 2003), families were found to use supporting interaction 
strategies across learning environments. Most interestingly, the 
families over time, used seemingly unrelated interactions in museums 
and at home to construct their family identity.
    Studying the families' interactions across multiple learning 
environments provided a needed lens for understanding the complex 
motivations underlying the families' practices in the museum. Findings 
suggest that museums can be tools for enculturation that families use 
to establish and negotiate their identity. In other words, the museum 
is context, not content. The subject of investigation thus becomes the 
ways in which family members come to make meaning through their 
interactions in a setting, rather than the setting dictating those 
interactions and any subsequent learning. The families themselves 
function as learning institutions, drawing upon museums as one of many 
tools they have to build family identity. This focus on the family as 
central to the meaning-making process is additional evidence for how 
the development of family learning research in museums over the last 
decade has led to a resituating of research foci, with the hope of 
ultimately providing useful insights that can shape exhibitions and 
programs that enable families to shape and affirm their identities.

Conclusions
    The last decade has witnessed a marked increase in our 
understanding of how, what, when, and where families learn in and from 
museums. Three aspects of recent research provide evidence for the 
importance and relevance of this field and the progress that has been 
made. First, shifts in our theoretical perspectives, with a new focus 
on the family as a type of social group and the shared meanings they 
construct, have resulted in a shared vocabulary and set of beliefs, 
values, and understandings about what constitutes family learning in 
museums. Although classification and semantic arguments, such as the 
accuracy of indicators of learning, or the definition of the term 
`family,' still occur, they are a natural outcome of an emerging 
community of research which is vetted and debated by a group of 
researchers with shared interests, but different backgrounds and 
approaches.
    Second, a realignment of our methodologies, including the adoption 
of new and alternative strategies for documenting the role of the 
museum in family life, has united many of us in the pursuit of similar 
questions. Although there is variety in what constitutes valid and 
reliable evidence for family learning, shared values and ideas about 
how to best investigate it are emerging within the community.
    Third, ensuring that the family is the central focus of our 
research has resulted in an understanding of the family as a learning 
institution, utilizing the free-choice learning resources of an 
extensive learning infrastructure in order to construct and affirm 
individual and collective identities. The last decade of research has 
produced significant evidence of the ways in which the museum provides 
a context for such identity-building. There is growing agreement that 
family learning is best examined from the perspective of the family and 
the larger learning infrastructure.
    However, the real evidence that we are making progress in this 
arena will be a discernable difference in the next decade of family 
learning research and practice in museums, perhaps even an influence on 
research and practice in the broader museum community. A similar 
exercise of reflecting upon the last decade of research ten years from 
now should result in definitive evidence for changes in research and 
practice. What would constitute definitive evidence for these changes?
    First, we would see a well-established, shared vocabulary and set 
of beliefs, values, and understandings about what constitutes family 
learning. Although healthy debate would still be a natural part of this 
community of research and practice, the nature of the arguments would 
be different. The community would no longer debate the definition of 
the term `family' or argue about indicators of learning; instead they 
would engage in conversations about the nuances and subtleties of 
family learning in museums and investigate questions such as: How do 
families appropriate the museum experience and use it to support their 
own needs? How do the experiences families have in museums relate to 
their other learning experiences? Practitioners would find the research 
useful to their practice and be able to utilize it to improve their 
abilities to support family learning and identity-building. The 
community of researchers and practitioners would be drawn together by 
shared interests, with respectful and productive ways of talking 
together and debating these issues.
    Second, we would see new and refined strategies for facilitating 
and documenting the role of the museum in family life. Although there 
would still be some variety in what constitutes valid and reliable 
evidence of family learning, there would be accepted ways of framing, 
facilitating, and investigating family learning within the community. 
There also would be some consistency in the important questions to be 
resolved in the field and the methodologies used to investigate these 
questions. Methodologies that are sensitive to social interaction, such 
as discourse analysis, video and audio recording of moment-bymoment 
interactions, journaling, and talk-aloud approaches, would be well-
established, commonly-used approaches. These approaches would be 
integrated into practice in meaningful ways also.
    Last, it would be understood that a meaningful examination of the 
nature of family learning in the museum, requires a central focus on 
the family. The family would be seen as a learning institution that 
utilizes the learning resources of an extensive learning infrastructure 
to build its individual and collective identity. No one would dispute 
that family learning is best examined and supported from the 
perspective of the family and the larger learning infrastructure.
    A key indicator of the progress made in family learning research 
over the last decade is the extent to which this empirical work informs 
the work of practitioners. What has family learning research meant to 
exhibition and program developers? How do they use this research to 
influence their work? Here are the reflections of three practitioners; 
we hope that their stories will provide useful information to other 
practitioners eager to integrate more research-based approaches into 
their activities and to researchers regarding investigations which are 
most helpful to furthering practice.
    Cathleen Donnelly, Exhibit Developer, and Leslie Power, Director of 
School Services & Family Programs, The Children's Museum of 
Indianapolis (TCM)
    Both of us became a Family Learning Leader, by participating in a 
comprehensive professional development program designed to build 
internal capacity about familylearning among key management staff, 
representing educators and exhibit developers, but also membership, 
curatorial, visitor and volunteer services. The goal was to build our 
capacity in family learning and to help us develop skills to inspire 
our staff, andultimately to mentor and coach them in the principles of 
family learning. The training was rigorous, including four two-day 
seminars, advanced readings and assignments, field trips and a special 
project designed to integrate family learning research into the 
specificday-to-day tasks of the Leader. Here are two examples of how 
this experience has transformed our work at TCM.
    Exhibitions Family learning research has changed the way we develop 
exhibitions at TCM. Previously, we developed, tested and evaluated our 
exhibitions based on their appeal to children. During the exhibit 
development process, we now consider the family a learning unit, and 
based on family learning research, we:
    <bullet> Test exhibition concepts with children and adults in focus 
groups made up of family members of a variety of ages.
    <bullet> Design interactives for family accessibility, 
collaboration and conversation. If we do not observe families playing 
and talking together, then the interactive is redesigned and re-tested. 
We developed a family learning matrix that incorporates a variety of 
family learning characteristics and is used as a tool by the core team 
as interactives are designed and tested.
    <bullet> Select objects based on what we hear and see families 
engaged with as they view informal artifact displays and interact with 
curators. If we can determine which objects spark interest, encourage 
conversation and help families make personal connections, we know we 
will be more successful in attracting and holding their attention 
within an exhibition.
    <bullet> Write labels to be read aloud--either between a parent and 
a child or a sibling and a sibling--and content is geared towards 
helping families make personal connections. Font style and point size 
are designed for a wide age range--from beginning readers to 
grandparents.
    School Services & Family Programs Family learning research has 
directly influenced my work developing family programs and school field 
trip programs at TCM. Based onfamily learning research and the museum's 
mission of reaching children and adults, the education department 
decided to eliminate all school-age programming including summer day 
camps, replacing this programming with programs specifically designed 
forfamilies. The challenge and goal of the family programs is to 
provide a range of familylearning experiences that foster family 
interactions and meet the developmental needs of a variety of ages. We 
now offer family trips, family nights at the museum, family nightsat 
local schools, and programs for home-schoolers.
    The most exciting aspect of my work currently, which is a direct 
result of the Family Learning Initiative we have been engaged with in 
collaboration with the Institute forLearning Innovation, is the 
addition of a Public Scholar position at Indiana University-Purdue 
University Indianapolis (IUPUI). IUPUI and TCM collaboratively hired a 
Public Scholar of Museums, Families, and Learning in the fall of 2005. 
This shared positionrequires a great deal of collaboration between 
IUPUI's Museum Studies program andSchool of Education and TCM. One area 
of future study will investigate the role of chaperones with small 
groups of students, determining whether current research onfamily 
interactions in museums can be extended to such groups.

Dale McCreedy, Director, Gender and Family Learning Programs, Franklin 
        Institute Science Museum
    In considering how family learning research has informed my own 
practice, I needed to think back across my 18 years in the field. 
Although it is difficult to imagine my efforts within the field not 
being informed in some way by research, the question that arises for 
me, is `Which body of research has been most influential?'
    In the early days of my work, gender research was most salient. 
This included the work of Sue Rosser, the American Association of 
University Women (AAUW), and many studies acknowledging the 
invisibility of females and minorities in texts, as role models, and 
within museum exhibitions. ``My Daughter the Scientist,'' an exhibition 
developed by Chicago's Museum of Science and Industry in the mid-80s, 
was a critical first step in bringing issues related to women and 
science into the public eye. As the importance of adults as gate-
keepers to girls' science learning emerged, the research in teacher 
education, parent support, and adult learning became more relevant, as 
did feminist learning theory. However, though this literature was 
helpful, it was only after sociocultural ideas about learning and 
meaning-making became more developed, and the negotiation of identities 
was articulated as learning, that there seemed to be a coherent link 
from this work to the arena of family learning in museums.
    Fortunately, what has emerged in more recently published literature 
within the field is the growing awareness of identity and learning as 
being interconnected and the critical role that a Community of Practice 
or sociocultural infrastructure plays in identity development. By using 
a sociocultural framework to inform our work at The Franklin Institute, 
we have been able to move beyond the individual as the focus of 
analysis to the interconnection of individual (s) and community, in 
ways that take into account shared perspectives, understandings, and 
co-evolutions. To provide a specific example, our work with Parent 
Partners in School Science (PPSS) discussed earlier in this chapter, 
has benefited from cutting edge theories on family engagement in 
schools proposed in a 2004 study by Barton, Drake, Perez, St. Louis, 
and George. This study has led us to question the existing paradigms 
about parent involvement in schools and develop new questions about 
what parent involvement really means. As we continue to explore the 
impact of a program designed to build connections between home and 
school, we have begun to look more closely at what Barton, et al. 
propose--i.e., a shift away from the focus solely on what parents do to 
engage with their children's school activities to a focus on how and 
why parents are engaged, and the complex ways in which their engagement 
occurs. In our efforts to understand the successes and challenges 
within PPSS, we are using this parent engagement framework to document 
the ways in which the program has brought teachers and parents together 
in support of children's science learning in and outside of school. The 
consideration of impact within this theoretical framework was 
compelling to us because it helped us see parent engagement as a 
dynamic, relational phenomenon, not just about trying to get parents 
involved in schools, but rather, getting parents and teachers to engage 
with one another across home and school contexts. The success of this 
model in facilitating our work suggests that such changes in 
understanding dynamics and relationships have great potential for 
influencing the work of the entire museum community.
                                 ______
                                 

             [From the St. Pioneer Press, August 17, 2008]

           Scientific Literacy--It's Not Just for Scientists

                          By Dr. Eric J. Jolly

    No one would think it's OK to be illiterate. No one would brag, ``I 
don't read.'' But literacy doesn't end at the back cover of a book. The 
need for essential science literacy--the ability to understand and 
engage in the issues of science and technology that shape our culture--
has exploded in the past few decades. Our air, water, health and our 
economy are all profoundly affected by the choices we make. It's simply 
not wise--no matter how long it's been since your last chemistry 
class--to say, ``I don't get science.''
    But don't panic. We're smart and capable in these parts. Let's 
start with some definitions. What does it mean to be scientifically 
literate? Scientifically literate people don't need to have a 
bottomless well of science knowledge. You don't even need to have a 
mental file of science facts that you consult. What you need is a 
curious mind and critical thinking skills.
    Don't worry as much about the science classes you took in college--
think more about critical thinking skills, and ask lots of questions.
    A scientifically literate person knows there is power in language 
that needs to be understood; for instance, in science, a theory isn't a 
best guess--it's a formal hypothesis that's been tested and revised. 
All research isn't created equal--the best is conducted by scientists 
with a background in the area being researched and published in peer-
reviewed journals. Sometimes the results are detailed and narrow, 
making them most important to other scientists; other times the study 
is broad, lengthy, and has more significance to the general public. And 
scientifically literate people know that most disagreement among 
scientists occurs in details, just as most scientific advancement is 
made by tiny steps. The Galileos and Einsteins are far outnumbered by 
scientists in labs conducting and replicating laborious research.
    It's no surprise that advances in science and technology are 
everywhere. They're in the key-card we use to access our office 
buildings or hotel rooms. They're in the genetically modified foods we 
eat and the pharmaceuticals we ingest to keep our bodies healthy. We 
consume this technology every day, but using it isn't the same as 
understanding it. As these advances creep into every part of our lives 
we've become increasingly less and less able to keep up with science 
policy and control how it affects our culture and our democracy.
    Yes, science really does affect our democracy.
    Let's get one thing straight. Science literacy is different from 
reading and writing. Once you've learned to read, you can read forever. 
Science is changing. Constantly. The nature of the scientific method is 
to establish a base of knowledge and then constantly expand and adjust 
it. That's why the best practices can change over time--30 years ago, 
doctors recommended babies sleep on their stomachs and drink formula. 
Now, doctors recommend babies sleep on their backs and drink 
breastmilk. When baby boomers were in school, space exploration to the 
moon was cutting edge. Today's students learn about robotic spacecraft 
missions to Mars and beyond. Literate citizens can glean information 
from newspapers, magazines, websites, and books about the issues at 
stake. But scientifically literate people can analyze the data and ask 
informed questions about the ethical, social, and economic 
implications.
    When we have dynamic civic engagement around issues of science, we 
do more than create a healthy environment and a better quality of life. 
We create economic opportunity and a better future. Science deserves 
the same vigorous debate as the economy or education; not surprisingly, 
the topics often overlap.
    A good example lies right outside the Science Museum of Minnesota, 
where a major effort is under way to devise a plan to clean the 
Mississippi River, which has been declared impaired. We know there are 
very high levels of phosphorus, which cause high levels of algae. We 
know there is enough sediment flow to fill a dump truck every 10 
minutes. And we know that 90 percent of the pollution runoff comes from 
the Minnesota River watershed, even though only 25 percent of the water 
comes from that river. Why? Because the majority of the Minnesota River 
watershed is in agricultural row crops, which utilize pesticides. Two 
of our state's great sources of pride--our agricultural heritage and 
our great river--sometimes represent competing interests, especially 
are sometimes in direct conflict as the market for ethanol and 
biodiesel fuels continues to grow. Repurposing crops we eat into crops 
we drive has huge economic and social impacts at home and abroad. How 
can we halt or reverse the damage to the river without hindering 
unnecessarily restraining the free market? It's up to Minnesota's 
scientifically literate citizens to decide.
    So how can we advance our science literacy? It's easy to make small 
changes. We can start with simple things: asking our newspapers to 
cover more science, reading science magazines like Discover, Popular 
Science, National Geographic, and Scientific American, and tuning in to 
NPR's ``Talk of the Nation: Science Friday'' and PBS's ``NOVA.''
    We can also look for comprehensive science-based solutions for 
issues that impact public policy. We can support the creation of a 
science advisor to the governor--many states have one, Minnesota does 
not--and a science advisory panel for the Legislature. Science advisory 
panels not only help our leaders to be informed, but also help us track 
the key issues we face as a state by bringing legislative topics back 
into our communities. And we can ask candidates about their positions 
on these critical science issues during campaigns and debates.
    Minnesota has historically maintained a solid strong compass to 
guide the level of risk we are willing to take--and the price we are 
willing to pay--for an environment that's healthy for our children. As 
a state we've always taken pride in our well-educated citizenry, 
quality schools, and arts and culture. Now, as we move though this new 
era of scientific revolution, there are more reasons than ever to 
gather knowledge and participate.
    Citizens can--and should--get involved in critical scientific 
debates that will direct how we live in the future. Join in the 
conversation. There's plenty to talk about.

    Dr. Eric J. Jolly is president of the Science Museum of Minnesota. 
The museum served more than 1.2 million Minnesotans in the past year, 
working to achieve science literacy through visits, classes, teacher 
development, outreach, and research. His e-mail address is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="90f5e2f9f3befafffcfce9d0e3fdfdbeffe2f7">[email&#160;protected]</a>
                                 ______
                                 
                    BOARD/INSTITUTIONAL MEMBER COPY
                                                      March 7, 2001
To: Ed Able, Jason Hall, and Pat Williams, American Association of 
    Museums

From: Celinda Lake, Daniel Gotoff, and Thaddeus Windt, LSPA

Subject: Report on Findings of Research

    The following memo summarizes key findings from a nationwide poll 
on Americans' perceptions of museums, of their importance as an 
educational resource, and of their trustworthiness as sources of 
objective information.\1\ In a time of enormous cynicism about public 
institutions, museums are viewed as one of the most important resources 
for educating our children and as one of the most trustworthy sources 
of objective information. Furthermore, this confidence in museums is 
consistent among a broad range of demographic groups and in all regions 
of the country.
---------------------------------------------------------------------------
    \1\ Lake Snell Perry & Associates designed and administered this 
survey which was conducted by phone using professional interviewers. 
The survey reached 1000 adults age 18 or older nationwide. The survey 
was conducted from February 5th--8th, 2001. Telephone numbers for the 
survey were drawn from a random digit dial sample (RDD). The sample was 
stratified geographically by state based on the proportion of adults 
who live in each state. The data was weighted to reflect Bureau of the 
Census estimates of age, education and area of residence. The margin of 
error is +/- 3.1%.
---------------------------------------------------------------------------
Overview
    <bullet> Among a wide range of information sources, museums are far 
and away the most trusted source of objective information. No other 
institution has a similar level of trust. Books are the second most 
trusted source of information followed by television news. Newspapers, 
the Internet, radio, and magazines are not considered trustworthy by 
most Americans.
    <bullet> The public's trust in museums is based on three themes: 
they present history, they are research-oriented, and they deal in 
facts. All Americans, regardless of the level of their trust in 
museums, cite history and facts as the top factors that make them 
consider museums trustworthy. It should be noted that the small 
minority of Americans who find museums less trustworthy see less 
emphasis on research.
    <bullet> People are almost evenly divided on whether museums are 
trustworthy because they present first-hand interaction with past 
events and history and/or because they offer independent and objective 
information.
    <bullet> While schools are number one, public libraries, and 
science centers and children's museums comprise a top tier of 
institutions that people believe are important resources for educating 
our children.
    <bullet> One-third of Americans say they have visited an art 
museum, a history museum, an aquarium, zoo, botanical garden, or 
science and technology center within the past six months. Almost a 
quarter have gone within the past year. One in five Americans visited 
more than a year ago and about one in five last visited a museum more 
than five years ago.

Sources of Information
    Among a wide range of information sources, museums are far and away 
the most trusted source of objective information. Thirty-eight percent 
of Americans believe museums are one of the most trustworthy sources 
and 87 percent believe they are trustworthy overall. Just 13 percent 
say that museums are not trustworthy, with only 1 percent saying that 
they are not very trustworthy. No other institution has a similar level 
of trust. Books are a distant second as a trusted source of objective 
information (18 percent one of the most trustworthy, 61 percent 
trustworthy, 36 percent not trustworthy). A majority of people do not 
trust the other more frequently used media. People split on television 
news (10 percent one of the most trustworthy, 49 percent trustworthy, 
50 percent not trustworthy) and rank newspapers (8 percent one of the 
most trustworthy, 34 percent trustworthy, 65 percent not trustworthy), 
the Internet (5 percent one of the most trustworthy, 23 percent 
trustworthy, 66 percent not trustworthy), radio (3 percent one of the 
most trustworthy, 28 percent trustworthy, 72 percent not trustworthy), 
and magazines (3 percent one of the most trustworthy, 22 percent 
trustworthy, 76 percent not trustworthy) as untrustworthy.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Americans of every demographic group, including gender, age, and 
education, as well as in every area of the country, believe that 
museums are a trustworthy source of objective information by at least 
80 percent or more. Indeed, even some of the most cynical audiences in 
our society such as younger non-college educated adults display a 
remarkable level of trust in museums (42 percent one of the most 
trustworthy, 87 percent trustworthy). Indeed the younger generation 
(under the age of 30), which is the most Internet savvy, rates museums 
far more trustworthy (44 percent one of the most trustworthy, 87 
percent trustworthy) than the Internet (8 percent one of the most 
trustworthy, 28 trustworthy, 66 percent not trustworthy).
    <bullet> Another reason why Americans consider museums trustworthy 
is that they are ``family-friendly.'' Eighty-eight percent of parents 
find museums to be trustworthy and almost four in ten (39 percent) say 
that they are one of the most trustworthy sources of objective 
information. Eighty-six percent of dads and 89 percent of moms believe 
museums are trustworthy (39 percent each one of the most trustworthy).
    Demographically and regionally, the groups that tend to find 
museums most trustworthy are:
    <bullet> People under 30 (44 percent one of the most trustworthy, 
87 percent trustworthy)
    <bullet> People who visited a museum within the last year (44 
percent one of the most trustworthy, 89 percent trustworthy)
    <bullet> Mid-Atlantic residents (43 percent one of the most 
trustworthy, 90 percent trustworthy)
    <bullet> Service or retail employees (43 percent one of the most 
trustworthy, 87 percent trustworthy)
    <bullet> Younger non-college educated adults (42 percent one of the 
most trustworthy, 87 percent trustworthy)
    Though solid majorities of these groups still find museums 
trustworthy, the groups that are least likely to intensely think 
museums are trustworthy are:
    <bullet> People living in the Midwest (34 percent one of the most 
trustworthy, 84 percent trustworthy)
    <bullet> Seniors (28 percent one of most trustworthy, 83 percent 
trustworthy)
    <bullet> Skilled blue-collar workers (28 percent one of the most 
trustworthy, 85 percent trustworthy)

Sources of Trust
    The top three reasons people offer for why they find museums 
trustworthy are that they present history (28 percent), they are 
research-oriented (12 percent), and they deal in facts (10 percent). 
All other reasons offered by people were in the single digits.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Most Americans say presenting history is the main factor driving 
their trust in museums. However, younger college-educated people (19 
percent), college-educated women (17 percent), moms (17 percent), rural 
residents (17 percent), college graduates (16 percent), parents (16 
percent), younger women (15 percent), and people employed in white 
collar managerial jobs (14 percent) all say that research is the most 
important reason why they trust museums.
    Some of the specific things people say about research as a reason 
for museums' trustworthiness are that:
    <bullet> ``They have the experts who have time to research things 
thoroughly''
    <bullet> ``The research that goes into the displays''
    <bullet> ``I would expect that there is a lot of research involved 
before they put a display together''
    Americans who find museums trustworthy, and those who do not, both 
cite history and facts as the top reasons for trusting museums. Those 
who find museums less trustworthy, however, place less emphasis on 
research than other factors.

First-Hand Interaction with Past Events vs. Objective and Independent 
        Source of Information
    There are two schools of thought as to why people believe museums 
are trustworthy. One school of thought says that people find museums 
trustworthy because they give people the opportunity to interact first-
hand with objects, past events, and new information. It further 
contends that this type of direct, personal contact allows people to 
reach their own conclusions and think about the subject matter for 
themselves, with family and friends.
    Another school of thought says that people find museums trustworthy 
because they are more independent and objective than other sources of 
information. Museums are fairer in presenting different points of view 
because they are centers for research, whose central mission is to 
present the truth about their subject area.
    In fact, Americans are divided as to which school of thought comes 
closer to their own point of view. Forty two percent say that first-
hand interaction with past events comes closer to their own point of 
view, while 40 percent say it is because museums have more objective 
and independent information. Because Americans are evenly divided 
between these two theories and the two are not mutually exclusive, it 
suggests that both viewpoints are valid.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Like the public overall, most groups divide. However, 
demographically and regionally, the groups that are most likely to say 
first-hand interaction comes closest to their own point of view are:
    <bullet> People employed in unskilled blue collar jobs (50 percent)
    <bullet> People employed in white collar managerial jobs (50 
percent)
    <bullet> Seniors (49 percent)
    <bullet> People under the age of 30 (47 percent)
    <bullet> People who find museums less trustworthy (46 percent)
    <bullet> People who live out West (46 percent)
    <bullet> Southerners (45 percent)
    The groups that say objective and independent information comes 
closest to their own point of view are:
    <bullet> New England residents (45 percent)
    <bullet> People between the ages of 40-64 (45 percent)
    <bullet> People who last visited a museum more than 5 years ago (45 
percent)
    <bullet> Residents in rural areas (45 percent)

Resources for Education
    The vast majority of Americans perceive museums to be an important 
educational resource as well. Interestingly, non-parents are no less 
likely than parents to assign museums a high level of importance in 
this regard. Schools, not surprisingly, are the most important 
education institution (76 percent most important, 98 percent 
important). However, public libraries (36 percent most important, 93 
percent important), and science centers and children's museums (29 
percent most important, 86 percent important) also comprise a top tier 
of institutions that people believe are important resources for 
educating our children. Other types of museums are also rated as most 
important or very important to a high degree.
    Seniors, younger women (29 percent each most important), and New 
England residents (38 percent most important) put greater importance on 
art and history museums while Midwest residents put less emphasis on 
libraries (27 percent most important). Those people who indicate that 
teaching history is the main factor driving their trust in museums, not 
surprisingly, find museums even more important as an educational 
resource, especially science and technology centers, children's museums 
(34 percent most important), and art and history museums (37 percent 
most important).

When Americans Last Visited a Museum
    One-third of Americans (34 percent) say they have visited an art 
museum, history museum, aquarium, zoo, botanical garden, or science and 
technology center within the past six months. Almost a quarter (23 
percent) visited within the past year. Additionally, one in five 
Americans (20 percent) have gone more than a year ago and about one in 
five (19 percent) last visited a museum more than five years ago.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Younger people, those under 30 (43 percent visited in the last six 
months), and college educated people (50 percent visited in the last 
six months) are more likely to have visited a museum recently, while 
seniors (19 percent visited in the last six months) and people without 
a college degree (26 percent visited in the last six months) are less 
likely to have visited. Those who work in professional white collar 
jobs are also more likely to have gone to a museum recently (50 percent 
visited in the last six months) while retirees are the least likely (17 
percent visited in the last six months).
    Parents of younger children are also more likely to have visited 
recently. Forty-two percent have visited in the last six months than 
compared to 30 percent of non-parents. However, dads (49 percent 
visited in the last six months) are more likely to say they have 
recently visited than moms (37 percent visited in the last six months).
    Across the country, people living in the Northeast (38 percent 
visited in the last six months) and the West (40 percent visited in the 
last six months) are the most likely to have visited a museum recently, 
while people living in the Midwest (31 percent visited in the last six 
months) and in the South (30 percent visited in the last six months) 
are less likely. Furthermore, people living in large cities (population 
1 million or more people) are the most likely to have visited a museum 
recently (42 percent visited in the last six months), followed by 
people who live smaller cities (35 percent visited in the last six 
months). People who live in suburbs, small towns, and rural areas are 
less likely to have visited a museum in the last six months (32 
percent, 30 percent, and 30 percent, respectively).
    In conclusion, museums are not only perceived to be a very 
important resource for educating our children. They are also seen as 
the most trustworthy source of objective information available--even 
more than television, radio, newspapers, books and the Internet. 
Furthermore, there's remarkable consensus among all Americans as to the 
value they place on museums. Even among groups of people who visit 
museums less frequently, museums are seen as an important educational 
resource and extremely trustworthy. In an age of ever increasing 
cynicism, museums have the unique distinction of being one the few 
institutions that work to unite all Americans.
                                 ______
                                 

                      Learning Outside of Schools

         Kirsten Ellenbogen, Ph.D., Science Museum of Minnesota

    By the age of eighteen, a child will have spent, at most, nine 
percent of his or her lifetime in school (U.S. Department of Education, 
2000). This conclusion is comparable to estimates made more than three 
decades earlier (Jackson, 1968). Jackson's argument is that if a child 
spends about six hours a day in school, and is present for each of the 
one hundred and eighty days required by most states, he will spend 
little over one thousand hours in school in a year. This is a low 
estimate of the time spent on schooling activities, as it does not 
consider time spent on homework. But it is a generous estimate as it 
assumes perfect attendance, and counts all of the time spent in school 
as a schooling activity, including activities such as lunch and recess.
    Eight to nine percent of a childhood is a great deal of time for 
one single activity such as schooling. But from the perspective of 
examining all opportunities for learning, it must be understood as a 
weak intervention or ``low dose'' (Sosniak, 2001). It is, upon 
reflection, commendable that schools have such an impact after only 
taking up eight to nine percent of childhood. It is worth adding that 
in a life of seventy-five years, barely two percent of a person's time 
will have been spent in schooling. Other educational influences, such 
as home, community, media, and society must be considered in a complete 
survey of a person's learning experiences. Herein lies the importance 
of learning outside of school.
    What are the learning possibilities of time-out-of-school? 
Examining the informal learning experiences of an eighteen-year-old 
requires the consideration of ninety one to ninety two percent of his 
or her time. Granted, the activities of playing and critical self-
maintenance (e.g., sleeping, eating, and washing) take up a significant 
amount of time. But we are still left with an extensive educational 
infrastructure that includes non-school institutions (e.g., libraries 
and museums), organizations (e.g., community, church and scouting 
groups), and media (e.g., books, newspapers, magazines, television, 
film, radio, and the Web) (St. John & Perry, 1996). Although the 
existence of this infrastructure is contested (e.g., Luke, Camp, 
Dierking, & Pearce, 2001), significant evidence suggests that at the 
least, the groundwork has been laid for a series of connections across 
institutions, organizations, and communities that allows interaction, 
communication, and progress (Falk, Brooks, & Amin, 2001; Lewenstein, 
2001; St. John & Perry, 1996). Although the definition and extent of 
the learning infrastructure is contested, it is more readily agreed 
that the functions of the infrastructure resources for learning outside 
of school and for connecting to school-based learning are not well 
understood.

                               REFERENCES

Falk, J.H., Brooks, P. & Amin, R. (2001). Investigating the role of 
        free-choice learning on public understanding of science: The 
        California Science Center L.A.S.E.R. Project. In Falk, J.H. 
        (Ed.), Free-choice science education: How we learn science 
        outside of school (pp. 115-132). New York: Teachers College 
        Press.
Jackson, P.W. (1968). Life in classrooms. New York: Holt, Rinehart & 
        Winston.
Lewenstein, B. (2001). Who produces science information for the public? 
        In J.H. Falk, (Ed.), Free-choice science education: How we 
        learn science outside of school (pp. 21-43). New York: Teachers 
        College Press of Columbia University.
Luke, J.J., Camp, B.D., Dierking, L.D., Pearce, U.J., (2001). The first 
        free-choice science learning conference: From issues to future 
        directions. In Falk, J.H. (Ed.), Free-choice science education: 
        How we learn science outside of school (pp. 151-162). New York, 
        Teachers College Press.
Sosniak, L. (2001). The 9% Challenge: Educating in school and society. 
        Teachers College Record, 103.
St. John, M. & Perry, D. (1996). An invisible infrastructure: 
        Institutions of informal science education, Volume I. 
        Washington, DC: Association of Science-Technology Centers.
U.S. Department of Education. (1991). America 2000: An education 
        strategy, Sourcebook. Washington DC: Author.
                                 ______
                                 
    [Additional materials submitted by Ms. LeBlanc follow:]
    [``Quick Response Memo, Be Together, Learn Together,'' July 
28, 2008, may be accessed at the following Internet address:]

 http://edlabor.house.gov/testimony/2008-09-11-InstforLearningInnov.pdf

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                


                               Kick Start

                     Long Island Children's Museum

Background
    KICKstart (Kids Ideas Create Knowledge) is a groundbreaking 
learning initiative, launched in 2002, to strengthen the Museum's 
programming for low-income children and families. KICKstart provides 
large scale, year round programming for all Head Start, second and 
third graders in four communities on Long Island (Hempstead, Roosevelt, 
Wyandanch, Central Islip) that are most in need of educational 
enrichment programs. Compared with State averages, these four school 
districts have a significantly higher percentage of students eligible 
for the free lunch program--as high as 84% in one district.
Program objectives
    <bullet> Increase family and parental involvement in children's 
learning, and
    <bullet> Increase hands-on, inquiry-based exploratory learning 
opportunities,
    <bullet> Increase access to Long Island Children's Museum (LICM) 
for families traditionally underserved by cultural institutions.
Program components
    <bullet> Multiple visits for each student to LICM
    <bullet> Participation in specially designed staff-led curriculum 
based programs
    <bullet> Family Night and Summer Camp outreach activities in 
community centers and schools for students, teachers, parents and 
family members
    <bullet> Community Night programming at LICM
    <bullet> Professional development training for teachers
    <bullet> Free family museum memberships and free bus transportation 
for all programs
    <bullet> Bilingual curriculum materials and museum staff available
Results
    <bullet> To date, 14,910 children and families have been served 
through KICKstart, with 42, 219 museum visits to date. In one year, 
2,772 children participate.
    <bullet> Teachers reported that their interest and knowledge in 
inquiry learning and pedagogy increased due to their involvement in 
KICKstart.
    <bullet> Parents expressed that the opportunities for creative 
expression that family event activities provided greatly added to their 
family learning experiences.
    <bullet> Pre-and post-program student drawings indicated a general 
increase in understanding of program vocabulary and concepts over a 
school year.
    <bullet> In addition to being a valuable piece of their curriculum, 
teachers felt strongly that the program was valuable in providing a 
``window'' onto the world outside of students' neighborhoods and the 
stresses of their everyday lives.
    <bullet> Parents, who in the first year of the program, indicated 
that they had never been to LICM or simply didn't go to museums, had by 
the fourth year become very aware of LICM and visited it outside of 
KICKstart events utilizing their sponsored family memberships.
                                 ______
                                 

     Be Together, Learn Together: A Partnership of the Long Island 
  Children's Museum, the Nassau County Department of Health and Human 
                Services and Nassau County Family Court

1. Project Design
            Introduction
    The Long Island Children's Museum (LICM) in Nassau County, NY, is 
requesting $150,000 from the IMLS Museums for America program to plan, 
research, prototype and evaluate the initial implementation phase of a 
new program designed to support children and families served by Nassau 
County social service agencies. The program, called Be Together, Learn 
Together, is being developed in partnership with the Nassau County 
Department of Health and Human Services (DHHS), Nassau County Family 
Court, and a National Advisory Committee including a child psychologist 
and children's museum peers who have developed related programs in 
their communities. Following this 2-year planning phase, the Museum 
will fully implement the new program with its partners. Be Together, 
Learn Together will strengthen the ability of the Museum to serve as a 
center of community engagement through new partnerships designed to 
respond directly to the needs of a specific group of families. Because 
of the time required for substantial partnership development, the need 
to create and utilize a National Advisory Committee, and the necessity 
of assessing and monitoring program impact, this proposal requests 
support for an in-depth planning and prototyping phase.
    The intended goals of the collaboration between LICM, DHHS and 
Family Court are 1) to develop a substantial and sustainable 
partnership between the organizations which enables each to meet key 
goals and/or aspects of their strategic plans, 2) to positively impact 
the experience of client families by improving the delivery method and 
quality of the County's preventative and supportive services, and 3) to 
introduce and establish the Museum as a new, accessible resource to 
those families who might not otherwise utilize its programs and 
exhibitions. This proposal requests funding for the first stage of the 
project: developing the structure of the partnership, and planning and 
testing the collaborative programs. Following the successful completion 
of this stage, the partner organizations will be prepared to fully 
implement the program, conduct additional evaluation and develop a plan 
for the program's joint sustainability. The creation of Be Together, 
Learn Together is an important opportunity for LICM to continue to 
fulfill its strategic goal of ``* * * expanding the reach of its 
mission by deepening the connection with Long Island's communities and 
increasing the size and diversity of its audience.''
            The Partnership
    In September 2005 Nassau County opened a new, 219,000 sq.-ft. 
Health and Human Services Welcoming Center less than a 10-minute walk 
from LICM. The new facility houses eight agencies--previously located 
in five different sites throughout the County--under one roof. For its 
1,000 visitors each day, the building is bright, positive, and 
welcoming and includes a children's playroom and a library where books 
are given away. Most importantly, the new Center now provides a 
``single point of entry into the Health and Human Services system'' for 
individuals and families in Nassau County. This initiative to 
consolidate the intake process, increase the efficient delivery of 
services and ensure an ``outcome-driven approach to case management'' 
was christened the No Wrong Door program. No matter where a client 
enters the human services system, that person will now have access to 
any other County or community service needed.
    Shortly after the move, Louise Skolnik, Director of Human Services, 
key DHHS department heads and Judge Hope Zimmerman (Family Court) 
approached the Museum. The group discussed ways in which they could 
work together to support families at the new Welcoming Center as well 
as those families engaged with Child Protective Services (CPS), 
Preventative, Foster Care & Adoption Services and Family Court 
programs. All agreed that a partnership between the three entities 
could 1) better address the specific needs of these families, 2) take 
advantage of the close physical proximity between DHHS and LICM, 3) 
utilize the Museum's expertise in providing high-quality educational 
experiences for families, and 4) capitalize on the momentum and success 
of No Wrong Door.
    Child Protective Services--CPS works collaboratively with the 
Family Court and Foster Care programs and is composed of several units 
overseeing cases which involve court-ordered supervision, sexual abuse 
investigation, foster care plans, court petitions, and night/emergency 
response. In 2005, of the 5,450 reports received, 1,564 (29%) of the 
total reports alleging child abuse or neglect were substantiated, 
higher than the national average of 25.7%.\1\ Maureen McLoughlin, 
Director of Child Protective Services, describes the challenges she 
faces with parents, saying, ``this client population can't go to the 
usual mothers' groups because they don't have transportation and feel 
intimidated by their poverty and lack of education, employment or 
social skills. We must find ways to help rehabilitate them so they can 
care for their children.'' Among other ideas, McLoughlin is interested 
in creating a supervised visitation program at the Museum. Instead of 
the ``two-way mirror in a sterile office,'' McLoughlin feels the Museum 
will offer a ``new world'' to parents where they can gather information 
through observation, forge new relationships with other parents and 
learn to play with their children.
---------------------------------------------------------------------------
    \1\ U.S. Department of Health & Human Services, Child Maltreatment 
Report 2004: Of 1,860,070 investigations nationwide, 477,755 were 
substantiated (25.7%). [http://www.acf.hhs.gov/programs/cb/pubs/cm04/
table2--4.htm] This is the most recent national data available, issued 
in July 2006.
---------------------------------------------------------------------------
    Preventative, Foster Care & Adoption Services--In Nassau County, 
there are 450 children currently in foster care. (In addition, there 
are approximately 400 other children who are admitted or discharged 
from the system each year.) Compared with national statistics, these 
youth spend an average of a year longer in foster care situations, with 
51% living in non-relative foster homes. Similar to national case 
goals, 54% of the cases are intended to result in the return of the 
child to the parent or guardian. Nassau County has almost twice the 
number of African-American children and substantially fewer Caucasian 
and Hispanic youths than national levels.\2\ Critical challenges are 
recruiting and maintaining an adequate number of foster/adoptive 
parents, locating the needed preventative or rehabilitative services 
and motivating the parents and children to engage with and benefit from 
them. Joseph Malewicz, Director of Services to Children, recognizes the 
potential of this project to yield preventative programs, support 
foster care children and families, and heighten awareness of the need 
for foster/adoptive parents.
---------------------------------------------------------------------------
    \2\ Comparison of Adoption and Foster Care Reporting and Analysis 
System data with NYS Summary of Characteristics of Children in Foster 
Care.
---------------------------------------------------------------------------
    Family Court--Judge Hope Zimmerman presides over the Family 
Treatment Court program which supports and monitors parents recovering 
from drug addiction and working toward regaining custody of their 
children. She recently traveled to the Providence Children's Museum 
(RI) to learn more about their program for court-separated families, 
and has been an enthusiastic advocate for developing similar community-
based collaborations in Nassau County. Zimmerman believes that in its 
capacity as a parent education program, this project can positively 
impact the recovery experience for many of the parents she sees who are 
suffering from the fact that they were not ``parented'' as children and 
now lack parenting skills. Although they are highly motivated to get 
their children back, they lack the ``inner resources'' to understand 
parenting as a ``job'' which requires specific skills. ``I'd like to 
get to the young mothers and break this cycle--help them to discover 
their own resources. They want to be good parents.'' Echoing 
McLoughlin, Judge Zimmerman wants parents to learn how to play with 
their children, and through that process, to be better able to 
understand and care for them.
    LICM--The Museum provides a range of specialized programs for 
children and families. Early childhood programs include a 1,700-sq.-ft. 
exhibition (TotSpot) and family resource room, daily parent/child 
workshops in music and movement, stories and art, ``messy afternoons,'' 
and parenting workshops such as ``Parenting the Strong-Willed Child,'' 
led by the Museum's Early Childhood Program Manager and a child 
psychologist. Additionally, the 2002 launch of the KICKstart program 
with a $3.5 million multi-year grant from a software company, has 
enabled the Museum to serve more than 20,000 pre-school, second and 
third-grade students in four, high-need school districts. The program 
has increased access to, and awareness of, museums and other informal 
learning institutions for families who are traditionally underserved by 
cultural institutions; increased parental involvement in children's 
learning; and increased exposure to hands-on, inquiry-based, 
exploratory activities for children in underserved populations. These 
achievements parallel the desired outcomes of Be Together, Learn 
Together.

            Joint Planning Committee & National Advisory Committee

    The planning and development of Be Together, Learn Together will be 
accomplished by a Joint Planning Committee (JPC) and guided by the 
input and expertise of a National Advisory Committee (NAC). The JPC 
will be comprised of staff from each partner organization and 
representative families currently or recently having received services. 
The NAC will include Janice O'Donnell (Director, Providence Children's 
Museum), Elaine Wideman-Vaughn (Vice President, Education and Community 
Services, Please Touch Museum), Jeri Robinson (Vice-President of Early 
Childhood Programs, Boston Children's Museum), Marty Norman (Child 
Psychologist, Boston), Gladys Serrano (Executive Director, Hispanic 
Counseling Center, Nassau County), Terry Wood (Program Director, Family 
& Children's Association, Nassau County), and Cheryl Kessler (Evaluator 
& Research Associate, Institute for Learning Innovation, Annapolis, 
MD). The NAC will review documents outlining the progress of this 
research and planning phase and provide input at key points. The 
benefit of their collective expertise in overseeing related programs at 
children's museums and supporting children and families in transition, 
is crucial for the long-term success of this project.

            Be Together, Learn Together: Preliminary Scope of Project

    The purpose of this grant will be to support the research, 
planning, prototyping and evaluation of the initial implementation 
phase of Be Together, Learn Together. Senior staff at LICM, DHHS and 
Family Court feel this program could provide a valuable national model 
for other children's museums and social service agencies forging 
similar partnerships to serve families in their communities. There are 
related family visitation programs at the Providence Children's Museum 
and the Please Touch Museum. Because the planned scope of Be Together, 
Learn Together will encompass family visitation as well as several 
other kinds of programs to address related familial issues, project 
partners feel a successful planning phase can yield a new model.
    Although the JPC will develop the final package of programs for Be 
Together, Learn Together, the initial meetings between LICM, DHHS and 
Family Court staff resulted in the identification of target audience 
groups and preliminary programs ideas. There are three major family 
audience groups to be served by Be Together, Learn Together : 1) 
Parents in Family Court (parents whose children are either at risk of 
or have already temporarily been placed in foster care, or parents who 
are trying to regain custody), 2) Foster Care Families (families who 
have foster children placed in their care), and 3) Families utilizing 
the new Health and Human Services Welcoming Center for any number of 
other reasons. (Specialized units within Child Protective Services 
interface with audience groups 1) and 2) described above.) Programs for 
these audiences will most likely occur at Family Court, at the Center 
and at LICM. To support the partnership itself and to provide concrete 
information about proposed programs during the development process, 
programs will be prototyped during years one and two of this planning 
phase.
    Potential programs could address some of the general needs of these 
audiences as well as specialized needs, including: a.) parent workshops 
focusing on childhood development, the importance of play, and 
supporting pre- and early literacy skills, b.) supervised family visits 
at LICM which utilize the Museum's exhibitions and general program 
offerings as a positive learning environment, c.) workshops designed 
for children and parents together which incorporate activities that 
allow modeling of parenting skills by staff, d.) seminars for foster 
parents about how to support foster children's learning (addressing 
both social and academic aspects) and how to build confidence and 
comfort levels for children joining a foster care family; e.) a special 
Museum membership program for families with foster children; f.) 
facilitated round-table discussions for parents in Family Court; g.) 
memberships to LICM for newly reunited families, and h.) awareness 
days/events at LICM designed to increase public understanding of the 
need for more families willing and able to take foster children into 
their care. In addition to these kinds of programs, LICM exhibition 
staff will design and install cheerful interior design enhancements for 
the DHHS Welcoming Center and the Family Court day care center.

            Project Oversight
    Suzanne LeBlanc is the Executive Director of LICM and Project 
Director for Be Together, Learn Together. She will be ultimately 
responsible for managing the overall partnership with participating 
staff from LICM, DHHS and Family Court and the planning, prototyping 
and evaluation of the project. To enable effective project management, 
several key review points have been built into the action plan outlined 
above. LeBlanc will direct members of the Joint Planning Committee to 
anticipate and consider potential challenges for the process and to 
discuss these with the group throughout the project. She has already 
identified three possible challenges: 1) because social service systems 
and their employees tend to be overworked and emotionally stressed, the 
prospect of changing existing systems of service delivery might seem 
overwhelming, 2) moving the project from a vision to a reality will 
require significant buy-in on all levels for each partner, and 3) 
clients receiving social services, whether mandated or voluntarily, 
tend to see it as an indication of their failure and/or something about 
which they have no choice. LeBlanc's experiences developing a program 
for parents of Head Start children at the Lied Discovery Children's 
Museum in Las Vegas, and one at the Brooklyn Children's Museum for 
families living in transitional housing, will assist her in 
counteracting some of these challenges. Additionally, she will direct 
the JPC to design a general training session for staff at partner 
organizations not directly involved in the planning of this project, 
which could both identify points of resistance and emphasize 
organizational benefits. Also, families who are either currently 
receiving, or have recently received services through one of the 
project partners will participate on the JPC to provide feedback about 
how to address negative stigmas and make this new resource one that 
parents and families will want to take advantage of. Throughout the 
project, any major issue requiring a change in direction or tactic will 
be acted on accordingly. The completion of front-end and formative 
evaluation by the Institute for Learning Innovation will also uncover 
potential barriers to a successful outcome.

            Evaluation
    To insure that programs are developed to effectively serve and meet 
the specific needs of intended audiences, the Museum will contract with 
the Institute for Learning Innovation (ILI) to perform the evaluation 
for this project. ILI will design and conduct both front-end and 
formative evaluations. A major goal will be to provide information to 
the JPC about how programs should be prototyped so that meaningful data 
can be collected. In turn, resulting evaluation reports will inform the 
project's development process. ILI is currently engaged in conducting 
summative evaluation and research for the Museum's KICKstart program, 
focusing on program impacts on children, their families, and teachers. 
[See attached evaluation proposal from Institute for Learning 
Innovation.]
2. Grant Program Goals
    The planning and initial implementation of Be Together, Learn 
Together directly addresses the MFA goal of museums serving as centers 
of community engagement because it will actively engage the Museum with 
both judicial and social service agencies to create needed programming 
for families in their shared community. The specific and complex needs 
of these families have prompted a collaboration between three entities 
that can bring their distinct areas of expertise to bear on the 
development of these programs. Further, through this project, LICM has 
identified a meaningful way to realize a high priority of its Strategic 
Plan, namely, to ``offer inspiring, multi-disciplinary and socially 
relevant exhibits and programs to serve as catalysts for individual and 
community learning and action,'' along with its related goal of 
developing ``innovative program models and partnerships that serve as 
benchmarks for effective community engagement.''
3. How the Project Fits into Strategic Plan and Mission
    Be Together, Learn Together supports the mission of LICM to be a 
``* * * learning laboratory that inspires children and adults through 
interdisciplinary, hands-on, fun experiences.'' This project will 
advance the core of the mission by developing new and meaningful ways 
to address the needs of one of the most underserved segments of the 
Museum community's audience--namely, families being monitored in Family 
Court and/or receiving services through DHHS. Further, LICM will 
continue to achieve its mission of being a learning laboratory, as it 
believes this program can enable these parents to discover and support 
their children's unique learning processes. One example of how this is 
taking place may be found in a recent KICKstart program offered for 
third graders and their parents. A mother observed how an image-making 
activity ignited her son's interest in a corresponding writing 
activity. The boy wrote more than the mother had ever seen him write 
unassisted. Thereafter, she used the method at home and with his 
teachers.
    The project also directly addresses key elements of LICM's new 
Strategic Plan: Strategic Initiative I calls for LICM to ``Offer 
inspiring, multi-disciplinary and socially relevant exhibits and 
programs to serve as catalysts for individual and community learning 
and action,'' and Initiative II looks to ``Deepen our connection with 
Long Island and surrounding communities and increase the size and 
diversity of our audience.'' Related goals for these Initiatives call 
for LICM to: 1) ``Develop innovative program models and partnerships 
that serve as benchmarks for effective community engagement,'' 2) 
``Develop strategic community partnerships to broaden our outreach to 
all, especially underserved audiences,'' and, 3) ``Develop a national 
reputation as a leader in the museum field.''
    LICM's Strategic Plan was specifically designed to effect systemic 
change and growth and this project advances the Strategic Plan's goals. 
The project also builds on LICM's recent accomplishments: 1) the 
opening of its 40,000 sq. ft. facility in 2002; 2) achieving and 
exceeding its initial attendance and programmatic goals; and 3) hiring 
Suzanne LeBlanc as its new Executive Director in September 2005. LICM 
envisions that the partnership created with Family Court and DHHS for 
Be Together, Learn Together will establish the Museum as a major 
provider of educational enrichment services to targeted families, and 
strengthen the Museum's relationship with the County.
    With the adoption of its new Strategic Plan in 2006, LICM committed 
to expanding its programs expressly for underserved audiences. Staffing 
and operating budgets were adjusted accordingly to make programming and 
exhibitions for this audience a major priority. To ensure the long-term 
success of this project after IMLS funding ends, the Museum will have 
hired new staff (the Program Manager for Be Together, Learn Together) 
and will seek additional funding from corporate and foundation sources. 
Further, with the recent launch of new programs targeting underserved 
audiences (such as Juntos al Kinder), the Museum has gained access to 
several foundations on Long Island that fund social service-oriented 
projects. LeBlanc and the Board believe these foundations will be very 
interested in this new partnership and in providing financial support.
4. Strategic Plan: Process and Financial Resources
    LICM's new Strategic Plan was developed upon the conclusion of a 
preceding plan which covered the four-year period of time following the 
opening of LICM's new facility in 2002. During this time, LICM was 
successful in meeting its initial strategic goals. Following the hiring 
of Suzanne LeBlanc as the new Executive Director in September 2005, and 
the appointment of a Planning Committee by the Board of Directors, 
Denise McNerney was hired as a consultant to facilitate the process of 
developing the new Strategic Plan. McNerney has more than 25 years of 
experience in strategic planning, marketing, business operations, team 
dynamics, and customer relations in both for-profit and not-for-profit 
organizations. McNerney interviewed Board members, senior staff and 
community stakeholders, including funders. She then facilitated a Board 
and staff retreat. Strategic initiatives were identified for key areas, 
and corresponding goals and success measures were outlined. McNerney 
met several times with the Planning Committee (comprised of both staff 
and Board members), senior staff and the full Board to create a final 
document. The completed plan will be presented in mid-November. At that 
time, implementation and reporting mechanisms to ensure effective 
execution of the plan will be discussed and decided.
    Through the development of the Strategic Plan, the Board sought to 
build upon the success of the recently completed $17 million capital 
campaign to ensure the Museum's future--both in financial and 
programmatic terms. The Plan directly addresses LICM's long-term 
financial stability and incorporates the mechanism for its 
implementation through goals which outline the start of endowment and 
capital expansion campaigns.
5. Appropriateness of Project for Institution, Audience
    As outlined in question #1, there are three specific audience 
groups to be served by Be Together, Learn Together. Currently, there 
are 450 children in foster care (and approximately 400 additional 
children who are admitted or discharged from the system each year), in 
2005 there were 217 cases in Family Court, and 1,564 substantiated 
reports alleging child abuse or neglect. There are also approximately 
1,000 people that enter the Welcome Center each day. These numbers 
provide a sense of the total size of the targeted audiences. Project 
partners estimate that in its first years of full implementation, the 
program could impact approximately 5,000 people. During this planning 
and prototyping phase, approximately 1,000 people would be served.
    Through the development of Be Together, Learn Together, LICM is 
continuing its efforts to make the Museum more relevant to its 
community by expanding the services it offers to underserved audiences. 
``Underserved audiences'' are identified in Initiative II of the 
Strategic Plan as a target audience, although taken as a whole, the 
needs of underserved audiences are quite diverse. One of the strengths 
of this program is its ability to focus on a particular segment of 
``underserved audiences'' through the partnership with DHHS and Family 
Court. These agencies have identified groups of clients who they 
believe can benefit from LICM's participation in this partnership and 
its expertise as a children's museum--namely, the ability to provide 
educational program in non-intimidating settings that allow for 
children and their caregivers to learn together.
            Needs Assessment
    Needs assessment reports are generated regularly within DHHS since 
an important aspect of their work and planning is the identification of 
unmet needs and barriers to service delivery. In addition to detailed 
quantitative information, assessment reports describe ongoing issues 
for clients served, including the need for: reunification of families 
whenever possible, as quickly as possible; rehabilitation of parents so 
they can care for their children; and recognition and treatment of 
behavioral and emotional conditions in children facing short and long-
term separation from biological parents.
    Another perspective was provided in a 2/12/06 Newsday article 
entitled ``Affluent, but Needy (First Suburbs),'' which noted that the 
problems of Nassau County--one of the most prominent of America's 
older, first suburbs--were beginning to draw national attention. The 
article states that Nassau County, and other ``first suburbs,'' are 
beginning to take on characteristics of urban areas: An influx of 
lower-income minority and foreign-born residents means that, like 
cities, these first suburbs increasingly will need more state and 
federal aid to keep up with a growing need for social services and 
affordable housing. At the moment, however, they fall through the 
cracks in a nation where government assistance has been directed for 
years at urban or rural areas. As Sen. Hillary Clinton said * * * 
``Long Island is the victim of its own success.'' Nassau, as we all 
know, possesses major assets--proximity to New York City, extensive 
parkland and beaches, quality neighborhoods, a large number of highly 
educated residents with high income levels and a highly developed 
transportation network for commuting to the city. Its home values are 
among the highest in the nation. * * * Amid great wealth, growing 
pockets of poverty and communities of poorer and older residents are 
presenting needs that weren't an issue in earlier years, when incomes 
and education levels were not as dissimilar as they are today. A county 
built as a haven for young, middle-class families with automobiles, 
most of whom who could afford single-family houses, is now home to a 
growing population with limited access to cars, a need for cheaper 
housing and a greater need for social services in order to succeed as 
members of the community. This information, in combination with DHHS 
assessment data, provides a clear picture of the needs of these 
audience groups.
            Nassau County Demographics
    In 2004, there were 1,339,641 people in Nassau County. According to 
the 2000 census, the racial makeup of the County was 79.30% white, 
10.09% African American, 0.16% Native American, 4.73% Asian, 0.03% 
Pacific Islander, 3.57% from other races, 2.12% from two or more races 
and 9.99% were Hispanic or Latino of any race. The number of non-whites 
in Nassau County increased to 29% in 2004, up from 21% in just four 
years. Between 2000 and 2003 the African American population increased 
from 10.7% to 11.7% and during the same period, the Latino population 
grew from 10% to 11.7%. As of 2004, Nassau County was the richest 
county per capita in the State of New York and the sixth richest in the 
nation, with a median household income of $78,762. In sharp contrast, 
the County also contains many ``pockets of poverty'' (as described in 
the Newsday article excerpt above) in communities served by and 
surrounding LICM and DHHS. At the time of the 2000 census, 3.50% of 
families and 5.20% of the population were below the poverty line, 
including 5.80% of those under age 18.
            Program Promotion
    Following this planning phase, LICM will work with project partners 
to promote the program to appropriate families in Nassau County. 
Designing a plan for program promotion will be one of the important 
tasks of the JPC, with input from the NAC. The high level of commitment 
to this project demonstrated by DHHS and Family Court will help insure 
that the program is promoted.
6. Project Resources: Time and Budget
    The Board of LICM is fully committed to the successful completion 
of this project and has demonstrated this by allocating immediate and 
future resources. LICM's Executive Director, Suzanne LeBlanc, is 
undertaking this project as part of her mandate to expand the diversity 
of the Museum's audience and increase access to programs and 
exhibitions. Her duties and work plan will have significant time 
dedicated to this major project. Further, the Museum will hire as a new 
position, a full-time Program Manager to manage this important new 
initiative and coordinate the activities of the JPC. Further, LeBlanc 
will adjust the workloads of Museum staff participating on the JPC to 
insure that they have sufficient time to devote to this project.
    LICM is eminently qualified, both fiscally and programmatically, to 
complete Be Together, Learn Together as evidenced by the successful 
implementation of three major projects the Museum has undertaken 
recently: In 2002, the LICM launched KICKstart (Kids Ideas Create 
Knowledge), a program designed to address critical social and 
educational needs in four traditionally underserved Long Island 
communities. The program has enhanced education, strengthened community 
relations and resulted in more than 20,000 Museum visits from pre-
school, second and third-grade students. [See attached Year 4 
Evaluation Report conducted by ILI.] KICKstart is supported by a $3.5 
million multi-year grant from the software company, CA. Juntos al 
Kinder (Together to Kindergarten) is a program the Museum instituted in 
2006 to meet the needs of local families from five Nassau County school 
districts with limited English proficiency. The program provides daily 
English language immersion and school-readiness classes for children of 
participating families, using the rich resources and environment 
available at the Museum. In addition, weekly classes taught in Spanish 
prepare parents for the culture of the U.S. classroom. Year-round 
resources are also provided to participants to encourage a long-term 
relationship with the Museum. Finally, Moving to Grow was the $17 
million capital campaign that resulted in the opening of the Museum's 
new facility at the Mitchel Center cultural complex. The success of 
these programs is due to the complete support of the Board of 
Directors--a level of support which is also present for Be Together, 
Learn Together. The Museum has a track record of sound financial 
management. Charity Navigator, the leading evaluator of charities in 
the United States has awarded LICM a four-star rating (its highest) for 
two of the four years the Museum has been open in its current location. 
The Museum possesses the resources necessary to successfully implement 
the proposed project, as it has a substantial budget and staff, strong 
earned income results and a history of successful fundraising.
    The total project cost is projected at $375,928. In addition to 
IMLS funding requested and in-kind support, the Museum will commit 
significant staff time and other resources in its FY 2008 and FY 2009 
operating budgets. Additionally, the Museum will solicit support from 
Long Island foundations such as the Rauch Foundation, the Long Island 
Fund for Women and Girls, the Long Island Community Foundation and 
United Way, among others. As is normal and appropriate for labor-
intensive projects of this kind, a significant portion of the budget is 
devoted to staff time, benefits and consultants.
7. Project Resources: Personnel and Technology
    LICM staff is highly qualified to accomplish this project. Suzanne 
LeBlanc is the Project Director. Before joining LICM, LeBlanc was 
Executive Director of the Lied Discovery Children's Museum in Las Vegas 
for 14 years, Assistant Director at the Brooklyn Children's Museum for 
3 years, and served 15 years at the Children's Museum, Boston. She is a 
graduate of the Museum Management Institute in Berkeley; holds an M.A. 
in Counseling Psychology from Lesley College, and a B.S. in Journalism 
from Boston University. She has served as Vice-President of the 
Association of Youth Museums (now the Association of Children's 
Museums) and as President of the Nevada Museums Association. Many of 
her articles have been published in professional journals, including a 
history of the children's museum movement for Museum News and 
``Reaching The Underserved,'' in A New Place For Learning Science--
Starting and Running a Science Center. Her experience is especially 
relevant to this institution, given its strategic goal of expanding the 
diversity of its audience.
    When LeBlanc joined LICM, her first major action was to lead the 
process to create a new Strategic Plan. One key goal is to develop 
innovative programs and partnerships to facilitate effective community 
engagement and broaden LICM's reach and impact, especially to 
underserved audiences. Be Together, Learn Together is an important step 
toward achieving this goal. As the Project Director, LeBlanc will 
design a master timeline incorporating all the project's components, 
including the identification of key tasks & assignments. LeBlanc will 
insure that Museum staff on the JPC can accommodate the intensive work 
involved by adjusting current functions and hiring temporary part-time 
staff to assist full-time staff with their current duties.
    The JPC combines the necessary areas of expertise for the 
successful planning and initial implementation of this project and will 
be comprised of LICM staff and representatives from Nassau County DHHS 
and Family Court. The full-time Program Manager to be hired for this 
project will have appropriate qualifications in Museum Education and/or 
the Social Services field, and will be responsible for the coordination 
and implementation of the project. [See attached job description for 
Program Manager.] Using assessment tools designed by ILI, the JPC, as 
well as smaller groups within the JPC, will meet monthly throughout the 
project and will be responsible for carrying out all tasks. [See 
attached List of Key Project Personnel for detailed list of JPC and NAC 
members.]
    Since 2003, Edith Gonzalez de Scollard (Ph.D. ABD) has led a team 
of more than 50 staff as the Director of Education. In this role, she 
spearheads professional development, community outreach, and 
educational offerings for the Museum, as well as cultivating community 
and institutional partnerships. She brings more than five years of 
museum experience and a strong background in teaching and research. She 
is currently in the Doctoral Program in Anthropology at The Graduate 
Center, City University of New York.
    Heather Petrie DeTommaso earned a M.S. in Elementary/Childhood 
Education from Columbia University, Teachers College (NY). As the 
Museum's Early Childhood Educator, her responsibilities include program 
development, coordination, and management, content development for 
publications, and parent education. She also has extensive experience 
as a facilitator of Professional Development Workshops for classroom 
teachers. Prior to coming to the Museum in 2002, Heather was herself an 
award-winning public school teacher and 1995 nominee for New York State 
Teacher of the Year.
    Aimee Terzulli earned a B.S. in Art Education from Long Island 
University (NY), and has served as Outreach Program Manager for the 
Museum since 1993. In this capacity, she has been responsible for 
coordinating the community outreach department, developing and teaching 
school and community outreach programs, and procuring and organizing 
program materials.
    Cheryl Kessler, Research Associate with The Institute for Learning 
Innovation, will be the evaluator for this project. ILI was established 
in 1986 as a not-for-profit learning research and development 
organization and is led by John H. Falk and Lynn D. Dierking. ILI 
collaborates with a variety of free-choice learning institutions such 
as museums, other cultural institutions, public television stations, 
libraries, community-based organizations such as scouts and the YWCA, 
scientific societies and humanities councils, as well as schools and 
universities, striving to better understand, facilitate and improve 
their learning potential by incorporating free-choice learning 
principles.
                                 ______
                                 

                          [November 29, 2004]

      Suozzi Unveils ``No Wrong Door'' for Nassau County Residents

  Innovative Health and Human Services Smart Government Program Means 
                    Better Services and Lower Costs

    Mineola, NY.--Nassau County Executive Thomas R. Suozzi today 
announced ``No Wrong Door,'' an innovative smart government program 
that will provide significantly enhanced service to Nassau County's 
human services clients, while at the same time allowing the County's 
eight health and human services departments, which will be consolidated 
into a single facility with a simplified intake process, to operate 
more efficiently. ``No Wrong Door'' is a new model for Nassau County 
and is on the cutting edge of government service delivery nationwide.
    `` `No Wrong Door' is a dramatic step forward in making Nassau 
County government both more compassionate and smarter. Through this 
enhanced service delivery system, the County will better serve the 
public, and at the same time, save taxpayers money in the long run by 
putting an end to inefficiency and waste,'' said County Executive 
Suozzi. ``By having all our health and human services departments in 
one location, we will provide better services to countless county 
residents who no longer will have to travel from building to building 
to receive all the services they need. I am proud that we are launching 
a program that is both the right thing to do on a human services level 
and the smart thing to do fiscally.''
    The eight health and human services departments include the 
Departments of Social Services, Health, Mental Health, Drug & Alcohol, 
Senior Citizen Affairs, Youth Board, Veterans Service Agency, and the 
Office for the Physically Challenged. The planned move of these 
departments to 60 Charles Lindbergh Boulevard in Uniondale, which is 
expected to be completed by the Summer of 2005, makes it possible for 
the County to deliver improved government services in a cost-effective 
manner.
    The move to the new Health and Human Services Center is the first 
major step in County Executive Suozzi's comprehensive building 
consolidation plan. Currently, the five existing buildings housing the 
eight departments are riddled with structural problems; including a 
leaking roof, asbestos and a dangerously insufficient electrical system 
and many are non-compliant with the Americans with Disabilities Act of 
1990. In addition to all the benefits associated with ``No Wrong 
Door,'' the move of these departments is necessary to avoid the cost of 
rehabilitating these buildings, which has been conservatively estimated 
to cost more than $40 million.
    The ``No Wrong Door'' system of care will enable the County to meet 
a continuum of needs for each resident through a single point of entry. 
The new building will also feature a comfortable and inviting waiting 
room and a welcome desk staffed with trained customer service 
professionals to greet and guide residents.
    ``Countless pieces of legislation that created the American Welfare 
State were well intentioned but not necessarily well-implemented. But 
that era taught us that you cannot legislate compassion, you cannot 
legislate common sense and you cannot legislate practical thinking,'' 
the County Executive said. ``Today we begin a long journey to provide 
better, more effective services to our residents most in need. We will 
do so, not by spending more money but by management better, 
communicating better and coordinating our existing resources more 
effectively. In the long run we will better help people and save 
money.''
    ``Nassau County's `No Wrong Door' will incorporate co-location of 
services, consolidated intake function, and an outcome-driven planning 
process,'' said Dr. Mary Curtis, Deputy County Executive for Health and 
Human Services. ``It will be a model system which was developed 
collaboratively by a diverse group including Nassau County Health and 
Human Services leadership, departmental staff, community-based 
organizations and local colleges and universities to better serve those 
in need.''
                                 ______
                                 
    [Additional materials submitted by Ms. Nunez follow:]

                    [From the Arizona Daily Wildcat]

                            Turning the page
    UA program helping minority students put new faces on librarians

                            By Claire Conrad

    The UA is working to reshape the image of librarians.
    The stereotype of the grumpy middle-aged white woman is being 
combated by the Knowledge River program, based in the School of 
Information Resources and Library Science. The program offers financial 
assistance to Hispanic and American Indian students pursuing master's 
degrees in information resources and library science. And, yes, the 
group includes men.
    By graduating more minority librarians, libraries are better able 
to work with a community's needs and create a more equitable access to 
information, said Patricia Montiel Overall, an assistant professor of 
library science.
    The need for more minority librarians is evident.
    American Indians represent less than 1 percent of all librarians 
and Latinos represent only 2 percent, according to a diversity report 
issued by the American Library Association based on the 2000 U.S. 
Census.
    Graduates of the UA's library science program are a youthful, more 
technology-oriented group, said Jessica Hernandez, a Knowledge River 
student. Alumni have created a MySpace.com group through which they can 
blog about their experiences.
    Commitment to community is a value many of the librarians share, 
Overall said.
    ``Generally, our students are very committed to community, social 
justice issues,'' she said. ``You get a cadre of people who all just 
support each other in trying to improve social issues for everybody.''
    Since its inception in 2001, the program has also been working 
toward bridging the gap in information access.
    Knowledge River student Paulina Aguirre hopes to use her degree to 
improve the lives of those in her native Hopi reservation.
    ``We don't have a library, a fully functioning and operating 
library on the Hopi reservation, so I figure I could do something about 
getting one,'' she said.
    In the Sam Lena-South Tucson Branch Library, where Knowledge River 
student Sol Gomez works, it can be difficult for Spanish-speaking 
adults and children to learn computer skills when classes are taught in 
English.
    Gomez works on developing programming for the mainly Hispanic South 
Tucson community, including computer classes in Spanish. Gomez had 
never considered a career in librarianship until he heard of the 
Knowledge River program from his sister-in-law, a graduate of the 
program.
    ``I didn't know what I was getting myself into, but once I did, I 
was very happy I did,'' Gomez said. ``I was always into working with 
the community, so once I was in library school, I thought this was the 
place I belong.''
    Knowledge River also helped Aaron Valdivia find his place in the 
Tucson community.
    Valdivia, a Knowledge River student from Phoenix, is working 
alongside six other program students and a group of 12 Sunnyside High 
School students to develop presentations and posters about common 
health issues students in Southern Arizona face, with a focus on 
Hispanics and American Indians.
    Because the School of Information Resources and Library Science 
offers distance courses, Valdivia said, he could have completed all the 
work from Phoenix.
    Knowledge River required him to take classes in Tucson, and he's 
glad he did.
    ``It's like I actually see the effect I'm having on the community, 
rather than just sitting on the computer,'' Valdivia said.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


                               Appendix 2

                       WE Search Progress: Final

 By Aaron J. Valdivia, Cecilia Tovar, Paula Maez, Adriana Rendon, Aric 
                       Villarreal, Irene Morales

    This is our final progress report for the WE Search project 2007. 
Much of what follows is a review and summation of the entire semester, 
with the final module project included:
    As was mentioned in our first progress report we broke down the 
semester into modules, the completion of each being a step closer to 
our larger goal. This was broken down even further: each Knowledge 
River mentor was responsible for teaching his or her mentees the 
information that was the topic of the module which the whole group was 
working on. In summation, the semester went as follows:

                                MODULE 1

    Our mentees learned the information that we wanted them to learn in 
the first module:
    <bullet> Health disparities facing Latinos and Native Americans, 
and the causes of those disparities.
    <bullet> Becoming familiar with quality resources that expose those 
disparities and other sources of research on health issues (Center for 
Disease Control, U.S. Census Bureau, etc.)

                                MODULE 2

    The goal of the second module was likewise achieved. This was 
developing a familiarity with free resources that can be used learn 
about ways to curb the health disparities examined in the first module:
    <bullet> The students/mentees all learned about the various 
consumer health resources that are available to the public via the 
World Wide Web. They also learned about the importance of the library 
as a resource for getting access to the web, or access to consumer 
health information materials that are available in print.
    <bullet> There are ``special libraries'' available to the public 
(law libraries, medical, etc.--emphasis was given to medical, given our 
health focus).
    <bullet> Creation of informative pamphlets and brochures that could 
be given out to people as a form of information on specific diseases 
and health issues.
    (Also during this module we started to take what we learned to 
classrooms at Sunnyside High School, to disseminate the information to 
our mentees/students' peers)

                                MODULE 3

    The third module goal was to do something positive for the 
community with the knowledge and resources from the first two modules:
    <bullet> The students/mentees participated in at least one outreach 
event each. The outreach events were a time to see, first-hand, the 
impact that knowledge of such resources as mentioned above have on the 
community.
    <bullet> There were three events that we participated in: The 
Junior Scientists Kids Day at the University of Arizona, the Tucson 
HopeFest, and Academic Night at Sunnyside High School.
    <bullet> Each event was a chance for our mentees/students to prove 
to their Knowledge River mentors that they were capable of applying 
what they had learned to real-life outreach situations; essentially, 
that they (the high school students) have become knowledgeable enough 
to teach others about the resources they studied throughout the 
semester up to this point.

                                MODULE 4

    We also wanted to create a permanent resource for the students to 
reflect back on, and for their peers and the rest of the community to 
be able to use in a practical way after we finished our program:
    <bullet> We have created a Web page that will be our permanent 
resource. This is a prototype for the program that was created at 
basically no cost since we used free Web 2.0 tools. This page was 
created using the free webpage-creating software ``Googlepages''.
    <bullet> Googlepages allow one to choose between four different 
``layouts'' for the page, and numerous different ``designs''. While 
such has its limitations, it was very useful for our purposes in that 
it:
    <bullet> Illustrated for our mentees the positive uses that can be 
attained from Web 2.0 tools (something that is greatly stressed and 
used by professionals working in the library science field)
    <bullet> Gave us a way to house a bibliography of usable resources 
in some permanent fashion
    <bullet> Allows us to have a digital documentation of our work and 
of the program
    When we first started the planning for WE Search last spring we had 
mentioned, in a meeting, that we would like to tie in social software 
and its positive applications to the achievement of our own goals for 
WE Search. Myspace, Flikr, Facebook, Youtube, and others were all 
discussed. However, the commercial advertisements that come with each 
of those (and other potential problems) presented too many complexities 
(many of the mentees already have personal Myspace accounts, the 
content of which could potentially conflict with the professional 
appearance that we hoped for our program site). We did utilize blog 
software. Each student/mentee was allowed to comment on the blog, but 
the comments had to be approved by one of the Knowledge River mentors.
    (Our blog can be viewed at www.wesearch.wordpress.com). Our blog 
also gives a chronological timeline of our activities throughout the 
program.
    Building on the idea of teaching the students/mentees about free 
Web 2.0 tools, we decided to use the free Googlepages to create our 
permanent resource. Our webpage required much thought and planning; not 
in the design and layout (those are set templates provided by Google), 
but the content and the logistics as far was what is linked to what had 
to be considered. We knew we wanted three primary links on our 
``homepage'': something that told about us, a section that explains 
what we do, and a permanent usable resource section that would 
demonstrate the mentees/students' work, and could be used by the 
public. The ``about us'' we titled ``Who WE are''; the sections that 
tells what we do is called, simply enough, ``What WE do''; and the 
permanent resource link is ``For YOU!'' For each linked section the 
content is broken down as follows:
            Who WE are:
    Each student/mentee was required to write a short bio and basically 
tell about what they got out of the WE Search program. We asked them to 
think about what they learned about doing quality research, evaluation 
web resources, the importance of consumer health information, and the 
impact that doing public outreach can have on their community. We 
allowed the mentees/students to include one picture of themselves, in 
addition to a picture of them participating in the program. The 
Knowledge River mentors also created individual web pages so there are 
eighteen pages in all linked to this section. Each page tells web users 
who we are as participants in the WE Search project.
            What WE do:
    We have pictures from various stages throughout the semester on 
this page. There are images of the entire WE Search group participating 
in our weekly Wednesday morning health activities (such as yoga and 
cardio kickboxing), most of which were courtesy of Pima County Public 
Libraries' ``Teens Fit for Life'' program. There are miscellaneous 
images of the Knowledge River mentors and their students/mentees 
working in the career center at Sunnyside High School. There are 
pictures from two of our outreach events: Junior Scientists Kids Day at 
the University of Arizona and the Tucson HopeFest. Also, there is a 
link to our blog on this page so any user looking at this site can find 
more information about the progress of WE Search and see a bit more 
about what we did throughout the semester.
            For YOU:
    This is a basic annotated bibliography. We had each of the 
students/mentees pick one of the consumer health websites that we 
examined and used throughout the semester; and the student/mentee wrote 
a brief description of the site. This being the case, we have twelve 
resources listed. We also linked to the actual websites from our 
bibliography. The annotation for each site was written by the student/
mentee that chose that resource and it was reviewed by a mentor before 
being added to the Google page. The purpose for this section of the 
webpage was for the students to get an idea of what it means to create 
an annotated bibliography (which none of them had previously done) and 
they can see how such can be a resource to benefit the public (their 
own community).
    (The site can be viewed at http://wesearch07.googlepages.com/)
    This basically summed up the content for this year's program. The 
final thing we did was to give performance reviews to each of the 
mentees; and we had them fill out an online survey on Survey Monkey so 
that they could give the mentors feedback too. We rated the students/
mentees on a five point Likert scale for their performance and the 
survey that the mentees filled out regarding what they thought of the 
program was also a Likert scale. We have yet to compile all of the 
results from both surveys. The students all performed well. There were 
no ``below average'' overall ratings for any of the students/mentees.
    The last thing to consider for this year's WE Search program is 
what we (Knowledge River mentors) call ``future prospects'' for this 
program, should it continue next year and possibly (hopefully) for 
years beyond that. This is essentially the work of a brainstorming 
session in which the Knowledge River mentors considered the future of 
the WE Search project; what could be done to improve it, what should 
stay the same, etc:
            Future Prospects:
    <bullet> Shortening of the 1st and 2nd modules (1 week), 
lengthening of the 3rd and 4th modules (1 week).
    <bullet> We believe that the first two modules could be shortened 
to approximately two weeks each, and the 3rd module (outreach) could be 
lengthened to accommodate more outreach events (see below). The 4th 
module could be lengthened likewise, to allow for more time working on 
teaching the mentees technology skills (we had envisioned teaching them 
basic HTML to give them an idea of how web page building really works, 
but time did not permit this year--it would be beneficial to the 
students/mentees to incorporate such in to the program).
    <bullet> A number of the students/mentees indicated that they would 
have liked to have done more outreach events outside of their own 
school.
    <bullet> This got the largest response from the students/mentees. 
We only really did two major outreach events outside of the school. 
Investigation of more events like HopeFest and Junior Scientists Kids 
Day could be a part of the next year's WE Search groups' tasks for the 
start of the semester, for the first two modules. Since there are 
already resources now created for this project (laminated poster board 
materials, trifold pamphlets, etc.) more time can be spent actually 
outside of the school at different events. All of the students 
responded well to the actual ``doing'' part of this program: getting 
outside of the school and putting what we were learning to use for the 
community.
    <bullet> Keep a roster of those students who are juniors so they 
may be contacted to possibly become volunteer peer mentors for the new 
WE Search group(s).
    <bullet> This would greatly enhance the experience for the 
students. Our 2007 WE Search group did not have the contact information 
for the previous year's high school students who were involved in the 
project. The project is for juniors and seniors. If we had the support 
of the previous year's juniors (now seniors) it may have helped our own 
students/mentees in that they would have a peer-to-peer contact.
    <bullet> Mentors should take careful role and state student/mentee 
expectations in advance; maybe even by having each of the students/
mentees sign a contract.
    <bullet> This was one of our only minor setbacks/concerns; students 
being late or absent. Especially since we did our outreach outside of 
the school on weekends or nights, it was sometimes difficult to explain 
to the students how much this counts towards their final pass/fail 
status. It has been suggested that careful role be taken by having 
students sign in and out during the class period and for the outreach 
events. Also, while it is required that the students/mentees contribute 
10 hours of work per week, this should be more clearly expressed in a 
contract they sign at the start of the program. It should be 
highlighted and stressed to the students that they will be required to 
participate in at least two outreach events for which they must set 
aside time outside of regular class time.; whether they pass or fail 
the program and their payment should depend on this.
    (We did have all of the students participate in at least one 
outreach event, though--clearly stated written requirements and 
expectations would make this a much easier goal to relate)
    <bullet> More collaboration and communication with other programs 
liked WE Search.
    <bullet> There is the VIVA project in Texas that is similar to WE 
Search. While the Knowledge River mentors did communicate with the 
members of that project in early on, it would benefit the high school 
students to do so likewise throughout the semester. Since the 
overarching goal of the WE Search program is to increase quality of 
life for underserved populations in border areas, it makes sense to 
collaborate with other programs with similar goals. VIVA in south Texas 
is a good starting point. Research to find other similar programs could 
be one of the tasks of the forthcoming WE Search groups.
    In conclusion, while we feel that this project was a success, we 
also believe that achieving the true goal of a project like WE Search 
really requires long-term commitment. The overarching objective for the 
semester was to have a positive impact on quality of life for specific 
underserved populations in the South Tucson and Tucson neighborhoods; 
to curb health disparities among historically underserved ethnics 
groups, like Latinos and Native Americans. Much research is needed to 
see what the impact of a project like WE Search would be on achieving 
such a goal over the long term. However, a step in the direction 
towards this goal is promotion of projects like WE Search. On a micro 
scale the project for the 2007 fall semester was a definite success. 
Our students/mentees are knowledgeable enough to be mentors themselves 
and this will have a definite impact on those they interact with: their 
families, peers, communities. Through continuation of a project like WE 
Search we will see a macro impact on the target communities of such a 
project.
                                 ______
                                 

               [From the Tucson Citizen, January 4, 2007]

                 UA Pushes for More Minority Librarians
             Federal aid drying up; private funding sought

                          By Claudine LoMonaco

    Sol Gomez's favorite book is ``The Count of Monte Cristo,'' the 
tale of a wrongly imprisoned man who avenges himself using the 
education he gains from a priest, and fellow inmate, while behind bars.
    Gomez, 29, took the story to heart.
    ``Education is your only revenge,'' said Gomez as he stood between 
stacks of books at the South Tucson Library.
    Gomez grew up doing construction jobs with his father but now is a 
head librarian, dishing out knowledge, books and computer skills to as 
many people as he can lure through the library doors.
    As a Hispanic and librarian, Gomez is a rarity. Hispanics make up 2 
percent of all librarians but 12.5 percent of the population, according 
to a recent study by the American Library Association based on the 2000 
census.
    American Indians are similarly underrepresented, and comprise less 
than 1 percent of all librarians.
    A master's program in library science for Hispanics and American 
Indians at the University of Arizona is working to improve the 
statistics.
    The Knowledge River program is the only one of its kind in the 
country and has enrolled or graduated nearly 100 Hispanic and American 
Indian students since it began in 2001.
    They have gone on to work everywhere from community libraries to 
the nation's premier institutions in Washington, D.C., but the program 
faces an uncertain future.
    Its federal funding, about $200,000, will end within two years, and 
administrators are gearing for an uphill battle to raise the private 
dollars needed to save the program.
    For many people who don't have other access to books and 
technology, libraries can be the gateways for information, knowledge 
and empowerment, said Patricia Tarin, who directs and helped start the 
program.
    ``But many won't use a library if there's nobody there that shares 
their culture or speaks their language,'' she said. ``Institutions must 
have the face of the communities that they serve.''
    Each year, Knowledge River enrolls about 18 Hispanic and American 
Indian students who receive full tuition and a part-time library job to 
cover living expenses. The aid is crucial to attracting minority 
students, Tarin said.
    ``Most do not have a lot of financial resources to begin with,'' 
she said. ``Many of them acquire a lot of debt in undergraduate school, 
so the idea of going to graduate school without financial aid is very, 
very difficult.''
    The program offers the chance to go through school with a 
``cohort,'' or tight-knit group of fellow students. That way, support 
and networking opportunities once they leave school are available.
    It also offers multicultural coursework, such as Latino children's 
literature.
    Roberto Trujillo, who directs Stanford University Library's special 
collections department, taught a course for the program in 2005 on 
archival material, with a Mexican-American emphasis.
    ``Frequently, libraries don't collect that material,'' he said. 
``If you have people with a sensitivity and sensibility towards those 
literatures and those histories, the likelihood of that record becoming 
part of library collections is much greater.''
    The program brings in national figures such as Trujillo to give 
students a broad perspective on what they can accomplish. The program 
is designed not only to produce librarians, but to turn out leaders 
poised to ask fundamental questions about how libraries can better 
serve Hispanics and American Indians.
    ``You show students the possibilities by introducing them to people 
and having them think of themselves as an advocate,'' Tarin said. ``If 
you're not going to work on problems that lead to a better situation 
for your community, who is?''
    Graduates from the program have an impressive track record.
    In October, Gomez was one of 25 librarians tapped for national 
training funding from the Bill and Melinda Gates Foundation on how 
librarians can reach out to the Hispanic community even if they don't 
speak Spanish. Tips range from knowing the correct Hispanic last name 
to use on a library card since many Hispanics use two last names, to 
partnering with community groups that can help libraries reach out to 
Hispanics. Gomez will conduct workshops for local librarians throughout 
2007.
    Knowledge River graduate Roberto Zapata, who manages a 
midsizelibrary in Houston, was one of 10 librarians asked to serve on 
the selection panel for the prestigious Caldecott Award, which honors 
the best illustrated children's books each year. Zapata was also named 
one of the American Library Association's emerging leaders for 2006.
    Oscencio Tom, who graduated with Gomez in 2004, is completing a 
two-year fellowship at the National Library of Medicine in Bethesda, 
Md.
    Tom, 26, was born and raised on the Navajo Nation in northeastern 
Arizona by a single mother with an eighth-grade education. The first in 
his family to graduate from college, he plans to take the technology 
he's learning in his fellowship back to his reservation one day.
    ``We need to bridge the digital divide, not just for Navajos but 
for all minorities,'' he said. ``Librarians can make a huge difference 
there.''
    Knowledge River echoes two similar efforts in the 1970s, one at 
California State University, Fullerton and the other at the UA. Both 
folded when their federal dollars dried up.
    ``The federal government will fund you for four or five years and 
then they'll cut you loose,'' said Trujillo, who graduated from the 
Fullerton program in 1975. ``And if the local school can't pick it up 
on its own, then it just dies. And then it gets resurrected somewhere 
else.''
    Years can go by in the process, and schools are forced to build new 
programs from scrap.
    Tarin hopes to avoid that fate by raising private funds over the 
next year. She has worked to reduce the program's cost to about 
$200,000, 50 percent less than the first year, when students weren't 
required to work.
    Those who have gone through the program say they never would have 
become librarians without it.
    ``I didn't even know it was a career until I heard about it,'' 
Gomez said. ``But once I got in, I loved it. I saw other students like 
myself and I felt comfortable. When I went to college, I thought 
librarians were that elderly woman with gray hair and glasses you would 
never want to talk to because she was always mean to us.''
    Gomez is a different breed of librarian, one just as likely to 
listen to Snoop Dog or teach a computer class en espanol as to read 
Alexandre Dumas, who wrote ``The Count of Monte Cristo.''
    ``I want to be a role model for kids and teens,'' he said, ``and 
let them know the importance of education. The kids see me and they 
think I'm one of them. But then they realize I went to school and got 
degrees. If they see that I did it, then they know it's a 
possibility.''
                                 ______
                                 
    [Additional materials submitted by Ms. Radice follow:]
    [``Charting the Landscape, Mapping New Paths: Museums, 
Libraries, and K-12 Learning, August 2004, can be accessed at 
the Institute of Museum and Library Services Internet address 
as follows:]

          http://www.imls.gov/pdf/Charting--the--Landscape.pdf

                                 ______
                                 
    [``InterConnections: The IMLS National Study on the Use of 
Libraries, Museums and the Internet,'' Conclusions Summary, 
February 2008, can be accessed at the Institute of Museum and 
Library Services Internet address as follows:]

 http://interconnectionsreport.org/reports/ConclusionsSummaryFinalB.pdf

                                 ______
                                 
    [``True Needs True Partners,'' 2002 Survey Highlights, can 
be accessed at the Institute of Museum and Library Services 
Internet address as follows:]

                 http://www.imls.gov/pdf/m-ssurvey.pdf

                                 ______
                                 
    [``Nine to Nineteen, Youth in Museums and Libraries: A 
Practitioner's Guide,'' April 2008, can be accessed at the 
Institute of Museum and Library Services Internet address as 
follows:]

                 http://www.imls.gov/pdf/YouthGuide.pdf

                                 ______
                                 
    [Additional materials submitted by Ms. Zales follow:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [``School Libraries Work!'' Research Foundation paper, 
updated 2008, may be accessed at the following Internet 
address:]

  http://librarypublishing.scholastic.com/content/stores/LibraryStore/
                      pages/images/SLW3--2008.pdf

                                 ______
                                 
    [Whereupon, at 11:00 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
